<html>
<title> - THE NUCLEAR REGULATORY COMMISSION AUTHORIZATION ACT FOR FISCAL YEAR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  THE NUCLEAR REGULATORY COMMISSION AUTHORIZATION ACT FOR FISCAL YEAR 
                                  2000

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2531

                               __________

                             JULY 21, 1999

                               __________

                           Serial No. 106-46

                               __________

            Printed for the use of the Committee on Commerce



                    U.S. GOVERNMENT PRINTING OFFICE
58-507 CC                   WASHINGTON : 1999



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
                                     BILL LUTHER, Minnesota
                                     LOIS CAPPS, California

                   James E. Derderian, Chief of Staff

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                    Subcommittee on Energy and Power

                      JOE BARTON, Texas, Chairman

MICHAEL BILIRAKIS, Florida           RALPH M. HALL, Texas
CLIFF STEARNS, Florida               KAREN McCARTHY, Missouri
  Vice Chairman                      THOMAS C. SAWYER, Ohio
STEVE LARGENT, Oklahoma              EDWARD J. MARKEY, Massachusetts
RICHARD BURR, North Carolina         RICK BOUCHER, Virginia
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
CHARLIE NORWOOD, Georgia             SHERROD BROWN, Ohio
TOM A. COBURN, Oklahoma              BART GORDON, Tennessee
JAMES E. ROGAN, California           BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ALBERT R. WYNN, Maryland
HEATHER WILSON, New Mexico           TED STRICKLAND, Ohio
JOHN B. SHADEGG, Arizona             PETER DEUTSCH, Florida
CHARLES W. ``CHIP'' PICKERING,       RON KLINK, Pennsylvania
Mississippi                          JOHN D. DINGELL, Michigan,
VITO FOSSELLA, New York                (Ex Officio)
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Adelman, David E., Project Attorney, Natural Resources 
      Defense Council............................................    43
    Beedle, Ralph, Senior Vice President and Chief Nuclear 
      Officer, Nuclear Energy Institute..........................    38
    Dicus, Hon. Greta Joy, Chairman, Nuclear Regulatory 
      Commission.................................................     8
    Fields, Hon. Timothy, Jr., Assistant Administrator for the 
      Office of Solid Waste and Emergency Response, Environmental 
      Protection Agency..........................................    25
    McGaffigan, Hon. Edward, Jr., Commissioner, Nuclear 
      Regulatory Commission......................................    23
    Merrifield, Hon. Jeffrey S., Commissioner, Nuclear Regulatory 
      Commission.................................................    24
Material submitted for the record by:
    Dicus, Hon. Greta Joy, Chairman, Nuclear Regulatory 
      Commission, letter dated September 10, 1999, to Hon. Joe 
      Barton, enclosing response for the record..................    57
    Fields, Hon. Timothy, Jr., Assistant Administrator for the 
      Office of Solid Waste and Emergency Response, Environmental 
      Protection Agency, letter dated September 22, 1999, to Hon. 
      Joe Barton, enclosing response for the record..............    75

                                 (iii)

  


  THE NUCLEAR REGULATORY COMMISSION AUTHORIZATION ACT FOR FISCAL YEAR 
                                  2000

                              ----------                              


                        WEDNESDAY, JULY 21, 1999

                  House of Representatives,
                             Committee on Commerce,
                          Subcommittee on Energy and Power,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2322 Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Members present: Representatives Barton, Stearns, Burr, 
Whitfield, Shimkus, Bryant, Ehrlich, Hall, McCarthy, Sawyer, 
and Markey.
    Staff present: Kevin V. Cook, professional staff member; 
Betsy Brennan, legislative clerk; Rick Kessler, minority 
counsel, and Sue Sheridan, minority counsel.
    Mr. Barton. The Subcommittee on Energy and Power of the 
Commerce Committee will come to order.
    Today, we're going to have a hearing on the reauthorization 
of the Nuclear Regulatory Commission. The Commission has 
proposed legislation reauthorizing its programs for the fiscal 
year 2000, as well as making a number of policy changes 
affecting how the NRC performs its regulatory responsibilities.
    Congressman Hall and I have introduced, by request of the 
Commission and the President, the NRC proposal as H.R. 2531, 
the Nuclear Regulatory Commission Authorization Act for Fiscal 
Year 2000. Introducing legislation by request means that the 
sponsors do not necessarily agree with every provision 
contained in a requested bill. In this specific case, I have 
serious reservations about foreign ownership language, as it 
has been proposed by the NRC.
    The hearing today may surface other areas of concern by 
members of the subcommittee. However, the proposal that has 
been introduced by Congressman Hall and myself does provide an 
excellent starting point for reauthorization legislation. The 
Nuclear Regulatory Commission performs a vital function for the 
nation, regulating the civilian use of nuclear materials and 
ensuring that public health and safety are fully protected. 
Because the NRC is funded almost entirely by user fees, it is 
essential that we renew the authority to collect these fees so 
the Commission may continue to perform its necessary functions.
    The current authority expires at the end of September 1999, 
so we have a limited time period available to enact legislation 
renewing the authority. This hearing will provide us with an 
opportunity to address these changes that have been proposed by 
the NRC and perhaps other changes to the authorizing statutes.
    I would remind members of the subcommittee and the full 
Commerce Committee passed a similar reauthorization bill last 
year by voice vote, but the bill unfortunately never came up 
for a vote on the House floor.
    The latest proposal from the NRC includes several 
provisions that were not in last year's bill. One of these is 
the foreign ownership provision that I've already mentioned 
earlier, and it is also one which I oppose. We may find the 
rest of our members have problems with this and other 
provisions of the bill.
    Given our need to move the bill expeditiously to meet the 
September 30 deadline, I suggest that we follow the motto of 
keep it simple. If we identify any controversial or problematic 
provisions from our hearing today, my strategy and my advice to 
the subcommittee would be to delete those provisions prior to 
mark up.
    Some of these issues are, no doubt, worth more debate. And 
some may even be worth a separate hearing later in the year. 
External regulation may be one such topic. Reform of the NRC 
regulatory process may be another.
    The Center for Strategic and International Studies is on 
the verge of releasing a major study on the regulatory process 
for nuclear reactors. This study will identify problems and 
opportunities for improvement. The study may be a useful 
jumping off point for us to address NRC regulatory reform in 
more detail.
    However, I again advise that we may want to defer some of 
the more complex issues for the future and explore in today's 
hearing things that we can solve today.
    Our first priority must be to reauthorize the user fee by 
the end of September. Beyond that, we should include only those 
other legislative provisions that we can readily agree upon.
    I want to welcome the Honorable Greta Dicus--am I saying 
that right?
    Ms. Dicus. That's correct.
    Mr. Barton. Okay. The Honorable Greta Dicus is the new 
chairman of the NRC; and also welcome her colleagues--
Commissioner McGaffigan, Commissioner Merrifield. I know 
Commissioner Diaz wanted to be with us, but he had a prior 
obligation to meet with nuclear regulatory authorities in 
Mexico.
    I also welcome the Honorable Tim Fields, Assistant 
Administrator for Solid Waste and Emergency Response at the 
EPA. I look forward to hearing the testimony of all of our 
witnesses.
    The Chair would recognize the distinguished ranking member, 
Mr. Hall for an opening statement.
    Mr. Hall. Mr. Chairman, thank you and thank you for 
covering the hopefully important aspects of this hearing. As 
noted, by request, the two of us introduced a proposal to make 
a number of changes in the Atomic Energy Act of 1954, and the 
Energy Reorganization Act of 1974 that the Nuclear Regulatory 
Commission believe would improve their operations; and we are 
going to have a chance to examine those. And like you, I 
appreciate the importance of the make up of the committee today 
to bring us first hand from the very top what your needs are.
    Specifically, I have some questions about changing the 
foreign ownership of power reactors, the fee structure, and how 
these reforms are going to improve the efficiency and operation 
of the Commission in carrying out its licensing and regulatory 
functions on behalf of the United States nuclear industry.
    As the responsible agency of the Federal Government for 
regulating the civilian use of radioactive materials, including 
industrial applications, medical and academic uses, we have 
some questions on this matter.
    Mr. Dingell has raised some questions on several aspects of 
this topic in a recent letter, and I am sure would be 
interested in the Commission's response to those issues.
    With that, I just ask unanimous consent to put my entire 
statement in the record, and yield back my time.
    Mr. Barton. Without objection, so ordered.
    The gentleman from North Carolina, Mr. Burr is recognized.
    Mr. Burr. Thank you, Mr. Chairman.
    Mr. Barton. For an opening statement only.
    Mr. Burr. I thank the chairman. I thank you for holding 
this hearing on H.R. 2531.
    Let me say that I am interested in hearing from both panels 
in detail about the progress being made to assure that user 
fees paid the NRCC--NRC--are devoted to regulation. Since its 
inception in 1990, some of NRC's activities unrelated to the 
regulation of nuclear power plants have been paid for with user 
fees. Estimates on the expenditures of user fees for unrelated 
programs is estimated at near $50 million.
    Even though the Appropriations Committee that has 
jurisdiction over the NRC has urged the White House and the NRC 
to remove these unrelated expenditures from user fees to 
licenses, the Administration and the OMB in particular have yet 
to accept this request. It has been noted that the NRC fiscal 
year 2000 budget recommendation to the OMB included a proposal 
that these unrelated programs be funded--being funded by user 
fees be supported by general fees. OMB is reported to have 
overruled this proposal.
    Also, Mr. Chairman, I am concerned about the NRCC--the NRC 
walking away from its responsibilities to regulate the disposal 
of low activity radioactive waste produced----
    Mr. Barton. I think you meant NRC, not NRCC?
    Mr. Burr. I canceled that last slip.
    I am concerned about the NRC walking away from its 
responsibilities to regulate the disposal of low activity, 
radioactive waste produced to support our atomic weapons 
program. I understand that, with the NRC's blessing, this 
radioactive material is being sent to California and Idaho for 
disposal in standard landfills not licensed by the NRC. I am 
interested in hearing the Commission's explanation for not 
regulating this nuclear waste.
    Again, I thank the chairman for this hearing, and look 
forward, and welcome our witnesses.
    Mr. Barton. Yes, the NRCC eliminated its low-level nuclear 
waste program many years ago.
    Now, I would like to welcome the gentlelady from Missouri, 
Ms. McCarthy, for an opening statement.
    Ms. McCarthy. Thank you, Mr. Chairman, and I would request 
that I could revise and extend my comments. I will be very 
brief this morning. I thank you.
    Mr. Barton. Without objection.
    Ms. McCarthy. Thank you very much for this hearing and look 
forward to the discussions that we will have, and I am 
particularly interested in your thoughts--our panelists' 
thoughts--and justifications for those sections which do call 
for ending the on record hearing requirements for allowing 
foreign ownership of nuclear facilities and centralizing the 
anti-trust review process. Those three sections I am concerned 
about, and how, as you address them, you plan to protect the 
consumers. And I do share the chairman's concern that we 
advance wisely on these as we look to these issues of 
disclosure and equity; and that must be the foundation of our 
actions as we reauthorize this most important act.
    I look forward to the testimony today, Mr. Chairman, and 
will revise my remarks and submit them appropriately.
    Mr. Barton. The Chair recognizes the former Congressman, 
Mr. Chapman, from the great State of Texas, whose cell phone 
rang as soon as he walked in the room a minute ago, so he had 
to step outside. Glad to have you with us.
    Lukewarm applause from the Republican side.
    The gentleman from Kentucky, Mr. Whitfield, is recognized 
for an opening statement.
    Mr. Whitfield. Mr. Chairman, thank you. I am glad to see 
you in such good mood today. And I would just say----
    Mr. Barton. It is early.
    Mr. Whitfield. We are running a little bit late today, so I 
am not going to make a long opening statement. I am delighted 
we are having this hearing. I have 1 of the 2 uranium 
enrichment plants in the country in my district, and do have a 
few questions about some of your proposed changes for the NRC. 
I would yield back the balance of my time.
    Mr. Barton. I thank the gentleman. The gentleman from Ohio, 
Mr. Sawyer, is recognized for an opening statement.
    Mr. Sawyer. Mr. Chairman, I thank you for holding this 
hearing. I look forward to the testimony from our witnesses. I 
would like to associate myself with everything that has been 
said so far, and yield back the balance of my time.
    Mr. Barton. The gentleman from Tennessee, Mr. Bryant, is 
recognized.
    Mr. Bryant. To continue rolling on this, I think we are all 
interested in hearing from this panel. I would simply thank you 
for holding this hearing, and I do want to associate myself 
with the remarks specifically of Mr. Burr, in this case, and 
yield back the balance of my time.
    Mr. Barton. The gentleman from Massachusetts, Mr. Markey, 
is recognized for an opening statement.
    Mr. Markey. Thank you, Mr. Chairman, and we welcome our new 
Chair----
    Ms. Dicus. Thank you.
    Mr. Markey. [continuing] of the Nuclear Regulatory 
Commission. Congratulations.
    Ms. Dicus. Thank you.
    Mr. Markey. You have already served on the Commission, and 
you know that the Commission is buffeted by many winds, that 
you are in the middle of a clamor on all sides. The nuclear 
industry is crying that the burden of regulations must be 
jettisoned so that it can sail swiftly in the competitive race. 
Neighbors of nuclear plants are yelling that they risk being 
sunk in the environmental and safety undertow.
    Some of my colleagues are shooting shots across the bow, 
warning that industry must be left alone. I may even have had a 
word of two on some of these subjects from time to time. And 
so, as you take the helm, I offer you a simple compass point 
through the noise and the distractions.
    As you know, the sole purpose, the sole purpose of the 
Nuclear Regulatory Commission is to ensure that our nuclear 
power plants and other nuclear facilities are as safe as 
possible. The NRC was deliberately split off from the old 
Atomic Energy Commission 25 years ago precisely so that it 
could have only one purpose. When your licensees tell you that 
they cannot afford safety measures, that they will have to shut 
down unless you save them from having to spend more money on 
safety--you can sympathize, of course, but their economic 
issues are not your problem. There is nothing wrong with saving 
money and avoiding unnecessary expense, but that is not your 
job. That is why we split it off 25 years ago.
    I am deeply concerned that, as nuclear utilities rush to 
compete in newly deregulated electricity markets, safety is 
being sacrificed. And I am concerned that the NRC has not been 
sufficiently vigilant in its oversight. For example, as 
utilities cut payrolls and shorten plant outages, workers have 
been complaining about excessive overtime. Plants are being run 
and repaired by workers who are dead on their feet. Shortened 
plant outages and cost concerns also are the reasons it is 
taking decades to fix faulty fire barriers in plants throughout 
the country.
    Utilities are even complaining about the expense of 
security equipment and personnel to protect against terrorist 
attack. Faced with realistic drills that reveal security 
weaknesses, they have sought not to increase security, but to 
end the drills. The NRC has reacted by decreasing overtime 
inspections, giving licensees hundreds of exceptions to fire 
regulations, and suspending security drills.
    At the same time, the NRC is being accused, sometimes by 
its own staff, of bowing to undue influence by the industry it 
is supposed to regulate, the NRC is relaxing Sunshine Act 
Rules, which were intended to ensure that the public business 
is conducted in public view.
    The NRC actually has revived a rule it had left for dead 14 
years ago that would allow the Commission to meet in secret, 
without a recording or a transcript, and perhaps without any 
record that the meeting occurred as long as there is not an 
intent to discuss final decisions.
    The proposed rule presumes the public will keep its ``Eyes 
Wide Shut'' on nuclear safety. This is the context in which we 
look at the authorization bill, H.R. 2531.
    I certainly support making sure that the NRC has sufficient 
funds to carry out its public safety mandate, and I am happy to 
support additional security authority that the NRC seeks. But 
it seems to me that allowing foreigners, possibly even Iraq and 
Iran, to own a nuclear power plant on our soil will add another 
threat to our security. Taking hearings off the record would 
send another signal that the Commission seeks to operate by 
secrecy and stealth rather than transparency and openness. And 
running roughshod over EPA's standards for Superfund sites 
suggests that those who live near a nuclear plant do not 
deserve the same environmental protection which neighbors of 
chemical plants receive.
    I have concerns about a number of other provisions in this 
bill and several other aspects of NRC's current oversight of 
its licensees. I intend on pursuing them both in this hearing, 
and, if possible, with you personally so that I can raise my 
concerns and see how the NRC is going to deal with them.
    I thank you, Mr. Chairman.
    [The prepared statement of Hon. Edward J. Markey follows:]
   Prepared Statement of Hon. Edward J. Markey, a Representative in 
                Congress from the State of Massachusetts
    Thank you, Mr. Chairman.
    I would like to warmly welcome our new Chairman of the Nuclear 
Regulatory Commission, Ms. Greta Joy Dicus. I look forward to working 
closely with you. Since you have already served a few years on the 
Commission, you know that the Commission is buffeted by many winds, 
that you are in the middle of a clamor from all sides. The nuclear 
industry is crying that the burden of regulations must be jettisoned so 
it can sail swiftly in the competitive race. Neighbors of nuclear 
plants are yelling that they risk being sunk in the environmental and 
safety undertow. Some of my colleagues are shooting shots across the 
bow, warning that industry must be let alone. I may even have a word or 
two to say to you from time to time.
    And so as you take the helm, I offer you a simple compass point 
through the noise and the distractions. As you know, the sole purpose 
of the NRC is to ensure that our nuclear power plants and other nuclear 
facilities are as safe as possible. The NRC was split off from the rest 
of the old Atomic Energy Commission precisely so that it could have 
that one purpose. When your licensees tell you they cannot afford 
safety measures, that they will have to shut down unless you save 
them--you can sympathize, of course, but their economic issues are not 
your problem. There is nothing wrong with saving money and avoiding 
unnecessary expense, but we must not sacrifice safety on the altar of 
profit.
    I am deeply concerned that as nuclear utilities rush to compete in 
newly deregulated electricity markets, safety is being sacrificed, and 
I am concerned that the NRC has not been sufficiently vigilant in its 
oversight. For example, as utilities cut payrolls and shorten plant 
outages, workers have been complaining about excessive overtime. Plants 
are being run and repaired by workers who are dead on their feet. 
Shortened plant outages and cost concerns also are the reasons it is 
taking decades to fix faulty fire barriers in plants throughout the 
country. Utilities are even complaining about the expense of security 
equipment and personnel to protect against terrorist attack--faced with 
realistic drills that reveal security weaknesses, they have sought not 
to increase security but to end the drills. The NRC has reacted by 
decreasing overtime inspections, giving licensees hundreds of 
exceptions to fire regulations, and suspending security drills.
    At the same time that the NRC is being accused--sometimes by its 
own staff--of bowing to undue influence by the industry it is supposed 
to regulate, the NRC is relaxing Sunshine Act rules intended to ensure 
that the public business is conducted in public view. The NRC actually 
has revived a rule it had left for dead fourteen years ago that would 
allow the Commission to meet in secret without a recording or 
transcript and perhaps without any record that the meeting occurred, as 
long as there is no intent to discuss final decisions. This proposed 
rule presumes the public will keep its ``Eyes Wide Shut'' on nuclear 
safety.
    This is the context in which we look at the authorization bill, 
H.R. 2531. I certainly support making sure that the NRC has sufficient 
funds to carry out its public safety mandate. And I am happy to support 
additional security authority that NRC seeks. But it seems to me that 
allowing foreigners--possibly even Iraq or Iran to own a nuclear plant 
on our soil will add another threat to our security. Taking hearings 
off the record would send another signal that the Commission seeks to 
operate by secrecy and stealth rather than transparency and openness. 
And running roughshod over EPA's standards for Superfund sites suggests 
that those who live near a nuclear plant do not deserve the same 
environmental protection which neighbors of chemical plants receive.
    I have concerns about a number of other provisions in the bill and 
about several other aspects of NRC's current oversight of its 
licensees, and I hope to explore some of them in questions. But mostly 
I hope that our new Chairman will keep a steady hand on the tiller and 
guide the Commission and the industry always in the direction of 
greater public health and safety and environmental protection.

    Mr. Barton. Thank you, Congressman Markey. The gentleman 
from Illinois, Mr. Shimkus, for an opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman, I also want to 
associate my comments with Congressman Burr, and I want to 
focus on the user fee issue. Truth in budgeting, I think this 
Congress has----
    Mr. Barton. Could we have order so that Mr. Shimkus' 
opening statement can be heard, please?
    Mr. Shimkus. Gosh. Thank you, Mr. Chairman.
    But we have cast a lot of votes since I have been a member 
on pulling trust funds off budget--the Highway Trust Fund, the 
Aviation Trust Fund. We believe we have done that with Social 
Security. I think the standards as we continue to do--move to 
truth in budgeting, those standards should also filter down 
through agencies and commissions. That brings up the question 
about the use--the fees collected to the NRC and--for operation 
or programs versus the regulatory aspects. I know there is some 
questions out there, and so I will be listening for in your 
comments and statements and probably follow up with some 
questions later on. But I think if we are willing to start 
pulling apart the budgetary process so that the public 
understands where our fees are collected and where they are 
going to, I think the commissions and agencies of this 
government also should do the same. And so I look forward to 
the hearing, and I yield back my time, Mr. Chairman.
    Mr. Barton. Now the distinguished vice chairman, Mr. 
Stearns of Florida, for an opening statement.
    Mr. Stearns. I thank my colleague and the chairman. I have 
no opening statement, and I look forward to the hearing.
    Mr. Barton. Okay. Hearing--seeing no other members present 
that wish to make an opening statement, all members not present 
that do come to the hearing will have their statements in the 
record.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Thank you, Chairman Barton. Nuclear energy plays an important role 
in our everyday lives, from providing a reliable and emission-free 
source of electricity to bringing us many life-saving technologies in 
the medical field. The Nuclear Regulatory Commission has the 
responsibility to ensure that these nuclear reactors and nuclear 
materials are used in a safe and responsible manner. The Commission 
also plays a critical role in the Yucca Mountain repository for high-
level radioactive waste, and, as the Commerce Committee considers ways 
to reorganize the troubled Department of Energy, the NRC may become 
involved in the external regulation of some of those DOE facilities and 
operations. The Commission also provides invaluable assistance to other 
Federal agencies and to international partners on matters of nuclear 
safety. I would encourage the Subcommittee to move promptly on 
legislation reauthorizing the NRC. As the annual operations of the NRC 
are funded almost entirely by fees paid by the reactor and materials 
licensees, it is critical that we renew the authority for the NRC to 
collect such user fees. We have only 10 weeks left before the current 
authority expires, so I hope the Subcommittee will move this bill 
expeditiously.
    Certainly give serious consideration to the other elements in NRC's 
legislative proposal. Many of these ideas have merit, and were part of 
H.R. 3532 as reported out of the Commerce Committee last year. But I 
urge the Members not to get so wrapped around some of the more 
difficult issues that we lose sight of our primary objective, which is 
to make sure that NRC can collect the user fees so it stays in business 
next year.
    I look forward to hearing the testimony of the Commissioners, and 
of the other witnesses before us today.
                                 ______
                                 
Prepared Statement of Hon. Peter Deutsch, a Representative in Congress 
                       from the State of Florida
    Mr. Chairman, thank you for holding today's hearing on H.R. 2531, 
The Nuclear Regulatory Commission Authorization Act for Fiscal Year 
2000. In reviewing the list of witnesses today, I look forward to 
hearing from the Nuclear Regulatory Commission (NRC) on the regulation 
of byproduct materials under Section 11(e)(2) of the Atomic Energy Act. 
I understand that a ruling by the NRC is permitting the disposal of low 
level radioactive waste into standard landfills not licensed by the 
Commission. I am also aware that Ranking Member Dingell recently wrote 
the Commission on this subject with a request that the NRC respond by 
Thursday, July 22, 1999. As the disposal of radioactive waste in 
unlicensed standard landfills is of great concern to many Americans, I 
look forward to hearing from the NRC on this important health and 
safety matter.

    Mr. Barton. Without objection at this point in the record, 
we would now like to welcome the Commissioner and Mr. Fields. 
We are going to recognize the distinguished chairwoman, 
Commissioner Dicus. I understand that Commissioner Merrifield 
and Commissioner McGaffigan also have a brief statement. And 
Mr. Fields, and then we will take questions from the panel. So, 
Chairwoman, we welcome and you are recognized for such time as 
you may consume.

 STATEMENTS OF HON. GRETA JOY DICUS, CHAIRMAN; ACCOMPANIED BY 
  HON. EDWARD MCGAFFIGAN, JR., COMMISSIONER; HON. JEFFREY S. 
 MERRIFIELD, COMMISSIONER, NUCLEAR REGULATORY COMMISSION; AND 
   HON. TIMOTHY FIELDS, JR., ASSISTANT ADMINISTRATOR FOR THE 
  OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Dicus. Thank you, Mr. Chairman and members of the 
subcommittee. Of course, I am pleased to appear today to 
discuss the NRC's authorization for fiscal year 2000, as well 
as NRC's legislative proposals. And as is noted, I have two of 
my colleagues with me today--Commissioner Edward McGaffigan, to 
my left, and Commissioner Jeffrey Merrifield, to my right. And 
is noted, Commissioner Diaz regretfully could not be with us 
today due to a prior engagement.
    As you know, the past year at the NRC has been a time of 
intense, but rather carefully structured change, both 
organizationally and in our fundamental programs. These changes 
have been accelerated and enhanced by the constructive interest 
shown by our congressional oversight committees and by our 
other stakeholders.
    I believe it is fair to say that our stakeholder 
interactions are both more extensive and more productive than 
ever before. The NRC is improving its internal efficiency and 
effectiveness, such as streamlining its operations and 
consolidating its functions. We are changing our regulations to 
be more risk informed. We have entered the first phase of 
implementing our new reactor oversight process. We are making 
improvements in the areas of power reactor license renewal, 
license transfers, spent fuel dry cast storage, decommissioning 
uranium recovery, fuel cycle facility and licensing, and 
medical oversight.
    We have streamlined our hearing process for reactor license 
renewals and license transfers. Our proposed fiscal year 2000 
budget, when adjusted for inflation, represents the lowest 
budget in the last two decades.
    Similarly, by the end of this fiscal year, our staffing 
levels will be the lowest in 20 years. We also have integrated 
our performance plan and our budget in a manner that links 
agency performance goals, strategies, performance measures, and 
resources consistent with the Government Performance and 
Results Act.
    I would like to review very briefly and quickly the 
legislative proposals we have submitted for consideration of 
the 106th Congress.
    We have urged the approval of several amendments that would 
help to deter terrorist activity related to nuclear facilities 
and special nuclear materials: one, to authorize guards at 
Commission-designated facilities to carry and use firearms 
where needed, to prevent radiological sabotage or the theft of 
special nuclear materials; two, to make it a Federal crime to 
bring unauthorized weapons or explosives into NRC licensed 
facilities; and three, to clearly prohibit sabotage during the 
construction phase of production, utilization, and waste 
storage facilities.
    We also have proposed a number of amendments to increase 
Commission efficiency and flexibility. These include: first, to 
allow continuation of a Commissioner's service past term 
expiration under certain circumstances, to maintain a 
Commission quorum, and to offset delays in the confirmation 
process; two, provide flexibility on hearings associated with 
the Commission licensing of new uranium enrichment facilities; 
three, to make explicit that a combined construction and 
operating license would allow up to 40 years of operation; and 
four, to eliminate the requirement for an NRC office in the 
District of Columbia.
    Two proposed amendments would eliminate what we feel are 
duplicative regulatory roles. One is to eliminate NRC's anti-
trust reviews; and two, establish NRC and Agreement State 
jurisdiction over radiological clean-up criteria for facilities 
that are licensed by the Agreement States or the NRC.
    Now, the final two proposed amendments would relax what we 
feel are either unnecessary or outdated provisions. One, which 
has already been mentioned, eliminating prohibitions on foreign 
ownership of power or research reactors; and two, providing 
general gift acceptance authority commensurate with the 
provisions that other agencies have.
    I would like now to take this opportunity to acknowledge 
and thank you for your efforts, Mr. Chairman, in introducing, 
by NRC request, and to Congressman Hall both our 
reauthorization bill and our legislative proposals. And 
moreover, I would like to thank all of the members of this 
subcommittee for the sustained interest that you have taken in 
supporting and improving the NRC. We value your continued 
interest and your support, and I thank you very much.
    [The prepared statement of Greta Joy Dicus follows:]
  Prepared Statement of Greta Joy Dicus, Chairman, Nuclear Regulatory 
                               Commission
                              introduction
    Mr. Chairman and members of the Subcommittee, the Commission is 
pleased to appear before you to discuss the agency's authorization for 
Fiscal Year (FY) 2000 as well as the NRC's legislative proposals. I am 
pleased to be accompanied today by my colleagues, Commissioner Edward 
McGaffigan, Jr., and Commissioner Jeffrey Merrifield. Commissioner Nils 
Diaz regretfully was unable to attend today due to prior engagements. I 
will begin by providing the Subcommittee with a summary of ongoing NRC 
efforts designed to increase our efficiency and effectiveness in 
nuclear safety regulation.
                                summary
    The highest NRC priority is to fulfill our fundamental mission of 
ensuring the adequate protection of public health and safety and the 
environment. Our main focus in FY 2000 will be to achieve the following 
performance goals for our regulatory program: maintaining safety; 
reducing unnecessary regulatory burden; enhancing public confidence; 
and increasing our operational effectiveness, efficiency, and realism. 
Congressional and stakeholder interest has served to reinforce, 
accelerate, and expand our efforts to review and improve our regulatory 
programs, and to pursue further change to achieve these four 
performance goals.
    The NRC is improving its internal efficiency and effectiveness, 
streamlining its operations, and consolidating its functions. We are 
changing our regulations to be more risk-informed. We are making 
improvements in the areas of power reactor license renewal, license 
transfers, spent fuel dry cask storage, decommissioning, uranium 
recovery, fuel cycle facility licensing, and medical use. We have 
streamlined our hearing process for reactor license renewals and 
license transfers, and are considering broader changes. We are 
consolidating and streamlining NRC organizations and operations. We 
also have integrated our Performance Plan and our budget, in a manner 
that links agency performance goals, strategies, performance measures, 
and resources, consistent with the Government Performance and Results 
Act (GPRA).
Significant Accomplishments
    In testimony last year, the Commission described a broad range of 
proposed improvements to our regulatory programs. Examples of the 
substantial progress we have made since that time include the 
following:

<bullet> Developing a comprehensive revision to the NRC reactor 
        assessment, inspection, and enforcement programs;
<bullet> Establishing and adhering to an aggressive schedule for 
        processing license renewal and license transfer applications;
<bullet> Issuing guidance for streamlining NRC adjudicatory 
        proceedings;
<bullet> Providing expanded opportunities for stakeholder participation 
        in NRC rulemakings, policy development, and program changes;
<bullet> Approving the issuance of proposed risk-informed, performance-
        based regulations for medical use, fuel cycle facilities, and 
        high-level waste disposal, and taking initial steps toward 
        risk-informing our reactor regulations;
<bullet> Completing research to support the revision of an industry 
        standard on reactor pressure and temperature limits, which 
        would reduce licensee burden by expanding the operational 
        window for plant startups and shutdowns.
<bullet> Reducing unnecessary NRC and licensee burdens associated with 
        low-level enforcement issues;
<bullet> Determining, in a timely fashion, that the proposed 
        privatization of the U.S. Enrichment Corporation met regulatory 
        requirements;
<bullet> Completing the review of several dual-purpose spent fuel cask 
        designs;
<bullet> Realigning the three major NRC program offices, achieving an 
        overall 8:1 staff-to- manager ratio, and reducing our overall 
        staffing and resource requirements; and
<bullet> Achieving Year 2000 readiness in NRC information systems, 54 
        days ahead of schedule, and overseeing the successful industry 
        efforts to ensure Y2K readiness for all nuclear power plant 
        systems that support safe plant operations.
Planning, Budgeting, and Performance Management Implementation
    As part of our efforts to ensure the effectiveness and efficiency 
of agency operations, as well as our implementation of GRPA, the NRC 
has implemented the Planning, Budgeting, and Performance Management 
(PBPM) process. The result has been (1) the establishment of a 
sensible, reliable process for defining agency goals and establishing 
strategic direction; (2) cost-effective strategies for achieving those 
goals; (3) effective resource allocations linked directly to 
implementing our strategic direction; and (4) the ability to measure 
and assess our progress and overall performance. This system both 
fosters the flexibility needed to respond to emerging changes and 
ensures the durability of current regulatory reforms.
    The NRC has continued to make significant progress in implementing 
the PBPM process. Revisions to the NRC Strategic Plan and the 
development of the integrated FY 2000 Budget/Performance Plan were the 
initial PBPM efforts. The integrated FY 2001 Budget Request/FY 2001 
Performance Plan will reflect the continued evolution of this process. 
An evaluation of the NRC's PBPM process conducted by an external 
consultant found that the process is sound and that it has improved our 
integrated planning process.
    We are continuing to refine the implementation of the PBPM process 
in order to strengthen the linkage between our performance goals, 
strategies, and resource requirements in developing our FY 2001 budget 
request. A review of the initial NRC Strategic Plan (FY 1997-FY 2002) 
was conducted during the Fall of 1998. As a result of that review, the 
agency is further refining the Strategic Plan to reflect our regulatory 
reform efforts. The Office of Nuclear Reactor Regulation, aided by an 
external consultant, initiated a systematic review of the desired 
outcomes and specific measurements for success. The same disciplined 
review has since been completed in the Office of Nuclear Regulatory 
Research and in the Office of Nuclear Material Safety and Safeguards 
(high-level waste program). These efforts have identified performance 
goals and strategies, and those key activities that contribute most to 
meeting our goals.
Progress on Streamlining the Organization
    As part of our effort to be more effective and efficient and to 
reduce supervisory overhead, the Commission has realigned its major 
program offices. As an examples, the Office of Nuclear Reactor 
Regulation (NRR) has reduced from seven divisions to five, resulting in 
a net reduction of 15 supervisory positions. The other major program 
offices have achieved similar reductions, and we have reduced overhead 
even further by eliminating the Office for Analysis and Evaluation of 
Operational Data (AEOD) and transferring its functions to other 
offices. In total, these and other NRC office realignments will result 
in the elimination of 88 managerial and supervisory positions.
    The Commission has made notable progress in improving the NRC 
staff-to-manager ratio. When this effort was initiated in September 
1993, the NRC had slightly over 700 managers and supervisors. That 
number has steadily declined, and the realignments described above will 
reduce it to about 330 by the end of FY 1999, thereby achieving our 
stated goal of an 8:1 staff-to-manager ratio.
    We also have continued to reduce at a controlled pace the overall 
number of NRC employees, expressed in terms of full-time equivalent 
(FTE) staff years, using buyouts, early retirements, and attrition. By 
the end of this fiscal year, actual NRC staffing levels are projected 
to be approximately 2835 FTE, the lowest level in more than 20 years, 
down 600 FTE since 1993. The NRC FY 2000 budget request of $471.4 
million and 2810 FTE, as submitted to Congress, will allow us to 
continue the important regulatory changes discussed in this testimony, 
while continuing to ensure the fulfillment of our public health and 
safety mission. We will continue to look for ways to increase 
operational and regulatory efficiency; however, further reductions may 
not be possible without compromising our fundamental mission.
Legislative Proposals
    The Commission has submitted a number of legislative proposals for 
the consideration of the 106th Congress. We are pleased to acknowledge 
that the Chairman of this Subcommittee, Mr. Barton, has by NRC request 
introduced both our reauthorization bill and our legislative proposals. 
We urge the approval of several amendments that could help to deter 
terrorist activity related to nuclear facilities and special nuclear 
material: (1) to authorize guards at Commission-designated facilities 
to carry and use firearms where needed to prevent radiological sabotage 
of the facility or to prevent theft of materials that could be used for 
nuclear explosives; (2) to make it a Federal crime to bring 
unauthorized dangerous weapons or explosives into NRC-licensed 
facilities; and (3) to clearly extend our prohibitions on sabotage to 
cover the construction phase of production, utilization, and waste 
storage facilities. We also propose a number of amendments designed to 
increase Commission efficiency and flexibility: (1) allow continuation 
of a Commissioner's service past term expiration, under certain 
circumstances, to maintain a Commission quorum and to offset delays in 
the confirmation process; (2) provide flexibility on hearings 
associated with Commission licensing of uranium enrichment facilities; 
(3) make explicit that the duration of a combined construction and 
operating license would allow up to 40 years of operation; and (4) 
eliminate the requirement for the NRC to maintain an office in the 
District of Columbia. Two proposed amendments are designed to eliminate 
duplicative regulatory roles: (1) eliminating NRC antitrust reviews; 
and (2) establishing NRC and Agreement State jurisdiction over 
radiological cleanup criteria for facilities licensed by them. The last 
two amendments would relax unnecessary or outdated provisions: (1) 
eliminating prohibitions on foreign ownership of power and research 
reactors; and (2) providing general gift acceptance authority 
commensurate with the provisions of other agencies.
                fy 2000 authorization request highlights
    On May 4, 1999, the NRC submitted proposed legislation which would 
authorize appropriations for FY 2000. The proposed legislation would 
authorize an FY 2000 NRC budget of $471,400,000, including $465,400,000 
for Salaries and Expenses Appropriation, and $6,000,000 for the 
Inspector General Appropriation. The NRC continues to recognize the 
high priority on reducing Federal spending emphasized by the 
Administration and the Congress. This budget, when adjusted for 
inflation, represents the lowest budget in the history of the NRC--a 25 
percent reduction over the past seven years. In spite of the 
constrained fiscal environment, this budget fully supports the NRC 
ability to fulfill our fundamental health and safety mission, while 
continuing the most comprehensive reform effort in the history of the 
agency. Again, however, we urge caution in contemplating further 
reductions. A budget summary is located in Appendix (1).
    The resources for the Nuclear Reactor Safety Arena support a 
comprehensive oversight program, including reactor inspection and 
reactor licensing activities for 103 operating reactors and a safety 
research program. The reactor oversight program will continue to bear a 
strong relationship to facility performance. However, we expect that 
these programs will change as a result of our on-going reevaluation of 
the reactor regulatory program. In anticipation of these changes, a 
reduction in event assessment/incident response activities has been 
included in the budget estimates. In addition, the budget estimates 
reflect anticipated reductions in reactor inspection activities due to 
continued improved plant safety performance and expected efficiencies 
to be gained from improvements in the inspection process. The budget 
includes funding for the review of two new reactor license renewal 
applications in FY 2000.
    The Nuclear Materials Safety Arena supports an increase primarily 
from costs associated with making our materials, fuel cycle, and waste 
regulations more risk-informed and, where appropriate, performance-
based; development and implementation of the new NRC registration 
program for certain industrial devices; initiation of research into the 
development and demonstration of risk assessment methods for dry cask 
storage; and enhanced efforts to develop the technical basis for 
performance criteria of dry storage casks under seismic loading 
conditions. The increase is partially offset by reductions associated 
with Ohio becoming an Agreement State.
    The Nuclear Waste Safety Arena supports an increase primarily in 
the NRC high-level waste repository program activities, and ongoing 
decommissioning activities to work off the licensing backlog, to 
complete the Standard Review Plan for decommissioning, and to support 
an increased level of rulemaking activity. The increase is partially 
offset by a reduction in the number of inspections needed at uranium 
recovery facilities.
    The International Nuclear Safety Support Arena reflects a change in 
how program funding is obtained. For FY 1999, the NRC renegotiated its 
reimbursable agreements with the Agency for International Development 
(AID) to recover NRC FTE costs for providing nuclear safety assistance 
to the countries of the Former Soviet Union (FSU). In FY 2000, the NRC 
will include the AID-related FTE costs for support of FSU and Central 
and Eastern European countries within the general fund portion of the 
requested appropriation.
    The Management and Support Arena supports a decrease primarily 
based on agency-wide program reductions and efficiencies. Funding also 
decreases in information technology and management, as investments in 
the design and start-up of the Agency-Wide Document Access and 
Management System (ADAMS) are completed and the agency moves to a new 
integrated financial and resource management system (STARFIRE).
User Fees
    The Omnibus Budget Reconciliation Act of 1990 currently requires 
the NRC to collect approximately 100 percent of its budget (less the 
appropriations from the Nuclear Waste Fund) from user fees. This 
requirement expires at the end of FY 1999 and reverts to 33 percent. 
The NRC's authorization bill, which is consistent with the President's 
budget, includes a legislative proposal to extend the requirement for 
100 percent fee recovery through FY 2004. The Commission continues to 
be sensitive to the fairness and equity concerns that 100 percent fee 
recovery entails for our licensees. Our authorization bill also will 
permit the NRC to charge other Federal agencies Part 170 inspection and 
licensing fees, thereby helping to mitigate, to a very small degree, 
some of the fairness and equity concerns expressed by the NRC, the 
Congress, and NRC licensees.
    The discussions that follow provide the Subcommittee with further 
details of NRC's program activities and a description of our 
legislative recommendations.
                 Summary of Program Activities by Arena
                         nuclear reactor safety
    In the nuclear reactor arena, maintaining the safety of 103 
operating nuclear power reactors remains our highest priority. In this 
context, the Commission intends to reinforce, accelerate, and expand 
efforts to improve NRC efficiency and effectiveness, to streamline our 
operations, and to consolidate our functions where appropriate. We are 
committed to making these improvements without compromising our mission 
of protecting public health and safety and the environment. We also are 
committed to the goal of using risk information and risk analysis as 
part of a policy framework that applies to all phases of our nuclear 
regulatory oversight, including licensing, inspection, assessment, 
enforcement, and rulemaking.
Risk-Informed, Performance-Based Regulation
    The Commission is making substantial modifications to the NRC 
regulatory approach to become more risk-informed and, where 
appropriate, performance-based; to enhance our safety focus; to 
eliminate unnecessary regulatory burden; to improve the effectiveness, 
efficiency, predictability, and transparency of our processes; and to 
maintain public confidence in what we do. Recent accomplishments 
include increasing stakeholder involvement, refining NRC internal 
practices, completing NRC pilot programs, and laying the foundation for 
risk-informing NRC reactor regulations over the longer term.
Reactor Performance Assessment, Inspection, and Enforcement (The 
        Oversight Process)
    As previously stated, the Commission is taking a more risk-informed 
and, where appropriate, performance-based approach in the oversight of 
nuclear reactors. We have made considerable progress in identifying 
necessary changes to the assessment, inspection, and enforcement 
processes to improve their objectivity; to make them more 
understandable, predictable, and risk-informed; and to focus on aspects 
of performance that have the greatest impact on safe plant operation. 
These efforts have been guided, in part, by four performance goals, as 
previously stated, used as ``filters'' to evaluate, prioritize, and 
sunset activities. Each activity is examined to see how it: (1) 
maintains public safety; (2) eliminates unnecessary NRC and licensee 
burden; (3) enhances public confidence; and (4) makes NRC activities 
more effective, efficient, and realistic.
    The NRC staff has proposed to the Commission a new power reactor 
assessment framework, which builds upon the cornerstones of licensee 
performance that must be monitored to ensure that nuclear power reactor 
operations do not pose unacceptable risks to the public. The 
cornerstones support the NRC mission by ensuring that: (1) initiating 
events are reduced; (2) mitigation systems are available, reliable, and 
capable of performing their intended functions; (3) barriers are 
sufficient to limit the release of radioactivity; (4) adequate 
emergency preparedness functions are maintained; (5) licensees have 
implemented adequate programs to protect the public and workers from 
radiation; and (6) security measures are in place to protect against 
radiological sabotage. As part of the assessment framework, the NRC 
staff has identified performance indicators, performance indicator 
thresholds, and risk-informed inspections that would supplement and 
verify the validity of the performance indicator data.
    This assessment framework provides a natural basis for a risk-
informed baseline inspection program, one that identifies the minimum 
level of inspection required, regardless of licensee performance, to 
ensure adequate NRC oversight and independent assessment of licensee 
performance. Developed using a risk-informed approach, the proposed 
baseline inspection program includes a comprehensive list of 
inspectable areas within each cornerstone of the assessment framework. 
The Commission also has developed an interim Enforcement Policy that is 
integrated with the risk-informed inspection and assessment processes.
    The new reactor oversight process will integrate assessment of the 
performance indicators with the results of the risk-informed baseline 
inspections. This integration will allow the NRC to make objective, 
predictable, and timely conclusions regarding licensee safety 
performance, and to communicate these results effectively to the 
licensees and to the public. The process includes specific thresholds--
tied to the cornerstones of safety--that will trigger commensurate 
licensee and/or NRC action if they are exceeded.
    We have made considerable progress in reshaping these NRC 
regulatory programs. Pilot inspections were begun in June 1999. Our 
intent is to make major process changes incrementally, to allow testing 
and adjustment during piloting and implementation. Much of the work 
that remains in FY 1999 and FY 2000 relates to bench-marking, 
conducting pilots, developing procedures, and training the NRC staff in 
the new processes.
Enforcement Program Changes
    In parallel with these long-term improvements to the oversight 
process, the NRC has made several short-term changes to its enforcement 
program to reduce unnecessary NRC and licensee burden. On July 27, 
1998, we issued enforcement guidance to clarify our existing 
Enforcement Policy. The changes ensure that: (1) licensees are given 
appropriate credit for identifying and correcting violations; (2) NRC 
and licensee resources are not expended on violations that do not 
warrant formal citations; (3) written responses to Notices of Violation 
are not required when necessary information already is docketed 
elsewhere; and (4) cases involving multiple examples of the same 
violation are treated consistently. The agency-wide implementation of 
this guidance has resulted in a significant reduction in the number of 
low-level (Severity Level IV) violations, which otherwise would absorb 
NRC and licensee resources in amounts disproportionate to the safety 
significance of the violations.
    On January 22, 1999, the Commission approved a change to the 
Enforcement Policy that will expand the use of non-cited violations. 
The change was published in the Federal Register February 9, 1999, and 
became effective March 11, 1999. Except in limited circumstances, 
individual Severity Level IV violations now will not be cited, so long 
as they have been entered into the licensee corrective action program. 
Accordingly, the NRC inspection program will place more emphasis on 
assessing the effectiveness of licensee corrective action programs. 
This is consistent with the thrust of the risk-informed inspection 
process described earlier. In addition, in June 1999, the Commission 
approved changes to the Enforcement Policy that will address the use of 
risk considerations in enforcement decisions and eliminate the use of 
``regulatory significance,'' which was not well-defined as an 
escalating factor for certain enforcement actions.
Reactor Licensing
    By better focusing resources and improving internal procedures, the 
NRC has greatly reduced its licensing action backlog in FY 1999, and 
expects to eliminate this backlog completely in FY 2000. We are working 
with our stakeholders to improve the license amendment review process 
and shorten the review time. We have also initiated improvements to our 
10 CFR 2.206 process for allowing the public to petition the NRC to 
take certain actions at licensed facilities.
    As part of our commitment to risk-informed regulation, we have 
changed internal NRC operating practices. This has included providing 
additional guidance, training, and management attention to ensure that 
risk-informed licensing actions are given the appropriate priority. The 
completion of numerous plant-specific risk-informed licensing reviews 
in FY 1999 has helped to sharpen the focus on safety while reducing 
unnecessary regulatory burden. We also have worked to improve and 
clarify our requirements and guidance for facility changes, as well as 
our guidance for maintaining updates to plant final safety analysis 
reports (FSARs), which are used as reference documents for safety 
analyses. The Commission considers the progress made to date in these 
areas a significant regulatory success, because the NRC and many of its 
stakeholders worked closely in developing processes that both maintain 
safety and eliminate unnecessary NRC and licensee burden.
    The NRC has improved the timeliness of reviews for converting power 
reactor licenses to improved standard technical specifications. This 
conversion improves consistency in interpreting and applying these 
requirements. In total, licensees for approximately 89 reactors have 
decided to convert to the new technical specifications, which licensees 
have projected will save from $150,000 to over $1,000,000 annually per 
site. To date, applications to convert have been received from 58 
units, of which 49 units have been given approval, 23 since July 1998, 
which has eliminated the large backlog of applications under review 
over the last two years. We expect to issue approvals for an additional 
4 units during the remainder of FY 1999. Work on applications will 
continue through FY 2000.
Reactor License Renewal
    Establishing a stable, predictable, and timely license renewal 
process is a top NRC priority. The Commission has issued a policy 
statement laying out its expectations for a focused review of license 
renewal applications, built upon our license renewal regulations. To 
date, all milestones for the license renewal reviews have been met. 
Using case-specific orders, the Commission has established an 
aggressive but reasonable adjudicatory schedule for reviewing the 
Calvert Cliffs and Oconee applications. Revised goals are to complete 
the license renewal process in 30 months. We also have prepared 
procedures to control the reviews and to resolve generic renewal 
issues. NRC management meets monthly with the applicants to monitor 
progress and the resources expended, and to resolve renewal issues.
    We also understand that we will receive the next license renewal 
application in December 1999 from Entergy for their Arkansas Nuclear 
One plant. Other applications from the Hatch and Turkey Point plants 
are expected in 2000, and we have asked for sufficient resources in our 
FY 2000 budget to handle the anticipated new applications. Lessons 
learned from the initial reviews may help to streamline later reviews 
even further.
License Transfers and Adjudicatory Processes
    The Commission has issued a final rule to establish an informal 
streamlined hearing process for license transfers. Under this newly-
adopted rule (Subpart M to 10 CFR Part 2), the Commission expects to 
complete informal hearings and issue final decisions on most license 
transfer applications within about 6-8 months of when the application 
is filed.
    The NRC has completed final Standard Review Plans (SRPs) for 
antitrust and financial qualifications reviews, and a draft SRP for 
foreign ownership issues. A final SRP for foreign ownership issues is 
currently being considered by the Commission. SRPs document the process 
and criteria to be used by the NRC staff in performing its reviews, 
which improves the focus, effectiveness, predictability, timeliness, 
and efficiency of the process. In April 1999, the NRC completed its 
review and approval of the license transfer requests for Three Mile 
Island Unit 1 and the Pilgrim station.
    The Commission currently is developing a proposed rule that would 
provide a more comprehensive streamlining of its adjudicatory 
processes. Concurrently, the Commission has been monitoring closely its 
adjudicatory tribunals to ensure appropriate adherence to the 
substantive and schedular provisions of the Commission Rules of 
Practice.
Reactor Safety Research
    The NRC research program continues to contribute in a significant 
way to our success in achieving performance goals in the reactor arena. 
Research efforts are underway to resolve important safety issues such 
as the operation of air-operated valves, which could result in a safety 
problem if key valves failed when called upon to perform a safety 
function. The program also facilitates NRC support for industry 
initiatives and contributes to the reduction of unnecessary burden. For 
example, working cooperatively with the American Society of Mechanical 
Engineers (ASME), NRC-sponsored research established the technical 
bases for changing the basic fracture toughness curves for determining 
nuclear plant pressure and temperature limits. This provided a 
significant burden reduction for the majority of operating plants.
    In addition, current research is re-evaluating pressurized thermal 
shock for reactor pressure vessels (RPVs). Work in this area has shown 
significant potential for reduction of unnecessary burden through 
technical advancements in materials assessment, fracture mechanics, and 
non-destructive evaluation. The research program also is enhancing our 
understanding of new nuclear technologies, such as proposals to 
increase fuel burn-up without increasing the risk to the public health 
and safety. We are working to consolidate the several computer programs 
now used for thermal-hydraulic and severe accident analysis. Our 
research also is supporting the framework for moving to a more risk-
informed and, where appropriate, performance-based regulatory approach 
through pioneering work in probabilistic risk assessment. Building on a 
long history of advancing PRA technology and recent successes such as 
risk-informing reactor piping inspection processes, we are focusing our 
research efforts on providing the technical bases for risk-informing 
NRC's reactor regulations.
Other Significant Reactor Rulemakings
    The Commission also has underway other significant rulemakings 
affecting reactor licensees. The first is a revision to Appendix K of 
10 CFR Part 50, which recognizes the ability of new flowmeter 
technologies to more accurately measure water flow rates. We have 
informed OMB that this rule will likely constitute a major rule because 
it will provide more than $100 million in annual benefits to our 
licensees, by allowing them to increase their electrical generating 
capacity by one percent. This is an example of NRC recognizing the 
advantage of updated technology.
    The second rulemaking is a revision to Part 50 to allow reactor 
licensees to use revised source terms in design basis accident 
radiological analyses. This rule is also expected to reduce unnecessary 
regulatory burden, reduce worker radiation exposure, and improve 
overall safety. It is the result of extensive NRC research and analysis 
over the past twenty years, which has led to a much better 
understanding of accident source terms.
                        nuclear materials safety
    In a manner similar to initiatives evolving in the reactor safety 
arena, we are enhancing our regulatory programs for nuclear materials 
safety. The NRC and Agreement States regulate more than 23,000 specific 
users of radioactive materials in medical, academic, industrial, and 
commercial applications, in addition to more than 100,000 general 
licensees. Thirty States currently are Agreement States. Ohio is likely 
to become an Agreement State later this year, with Oklahoma and 
Pennsylvania expected to become Agreement States in FY 2000, Minnesota 
in FY 2002, and Wisconsin in FY 2003. Our testimony highlights some of 
the many and diverse program improvements underway in the nuclear 
materials arena.
Medical Regulation
    The NRC staff is reviewing public comments on our proposed 
revisions to the medical use regulations in 10 CFR Part 35. The 
revision of Part 35 will achieve several specific improvements in the 
medical use regulatory program. These improvements would make the rule 
more performance-based and would focus the regulations on medical 
procedures that pose the highest risk, from a radiation safety aspect, 
with a corresponding decrease in the oversight and regulatory burden 
for lower risk activities. The proposed revision of the Medical Policy 
Statement and a proposed revision to Part 35 were published in the 
Federal Register for public comment on August 13, 1998, and we have had 
the benefit of many stakeholder interactions since that time. The 
Commission will be reviewing a final draft rule this summer, and we 
expect to complete this rulemaking in early 2000.
    The revisions to Part 35 are being developed using an enhanced 
participatory process, which is intended to develop a final rule that 
will be accepted broadly, and includes participation by several medical 
professional organizations, the Organization of Agreement States, the 
Conference of Radiation Control Program Directors, the NRC Advisory 
Committee on the Medical Use of Isotopes, and other stakeholders. We 
have solicited early public input through Federal Register notices, 
public meetings with medical professional societies and boards, open 
meetings of the groups developing the revised policy statement and rule 
language, public workshops, and Internet postings of relevant 
background documents.
Spent Fuel Storage
    The NRC has made significant progress in its review of dual-purpose 
cask systems for spent fuel storage and transportation. By December 
2000, we anticipate that all six of the dual purpose cask system 
reviews in process and two of the transportation reviews should be 
completed.
    The NRC issued a license to the DOE for the TMI-2 fuel debris 
storage facility at the DOE Idaho Operations Office (DOE-ID) in March 
1999. That same month, we issued a license to Portland General Electric 
(Trojan) for an independent spent fuel storage facility, and we expect 
to issue another to Rancho Seco prior to the end of 1999. We 
transferred the Fort St. Vrain independent spent fuel storage 
installation license to the DOE-ID in June 1999. We will continue to 
maintain an aggressive licensing review schedule for the proposed 
Private Fuel Storage facility located on the Skull Valley Band of 
Goshute Indian Reservation in Utah. We also are continuing to work with 
the DOE on projects involving spent fuel storage and management.
    As in other arenas, we have worked to make our spent fuel storage 
oversight more effective and timely while ensuring safety. We have 
initiated process changes to enhance and focus technical reviews, to 
develop guidance for those reviews, to reduce the time-frame for 
storage cask certification rulemakings, to enhance our reviews based on 
lessons learned, to ensure consistency in licensee change processes, 
and to improve communication with internal and external stakeholders.
Mixed Oxide Fuel (MOX)
    In accordance with the regulatory oversight responsibility for 
mixed oxide (MOX) fuel assigned to the NRC in the Strom Thurmond 
National Defense Authorization Act for Fiscal Year 1999 (Public Law 
105-261), the Commission has initiated preparatory activities for the 
licensing of a MOX fuel fabrication facility and subsequent irradiation 
of the fuel in commercial reactors.
    The Commission notes that the NRC FY 2000 budget request did not 
include resources to conduct work related to the DOE MOX fuel program 
because, at that time, the NRC had planned to continue to carry out 
such work through its reimbursable agreement with the DOE. However, 
because Public Law 105-261 subsequently gave NRC the authority to 
license a MOX facility, this work is now a part of the NRC mission. As 
a result, the NRC must use its appropriated funds to carry out this 
effort, and will not continue its reimbursable agreement with the DOE. 
We are making changes to our budget to accommodate this new 
responsibility.
    These appropriated resources will be used to meet with the MOX 
applicant and to review topical programs related to the license 
application for the fuel fabrication facility, such as safeguards, 
criticality safety, radiation protection, and quality assurance, as 
well as early issues related to environmental review and the use of MOX 
fuel in commercial power reactors. A license application is anticipated 
in November 2000, and, given current projections for the licensing 
review (including the completion of an environmental impact analysis), 
we would expect final licensing to occur in FY 2003. We also have 
determined those aspects of MOX fuel irradiation that necessitate 
beginning research in FY 2000 to support the licensing action.
External Regulation of the Department of Energy (DOE)
    The Commission recognizes the position of the Secretary of Energy 
in his recent letter to Congress, withdrawing support for external 
regulation of DOE facilities by the NRC. However, based on the 
preliminary results of the pilot projects and our observations to date, 
the Commission continues to believe that the NRC could regulate 
substantial portions of DOE in a manner that would be cost-effective 
and relatively straightforward, and that would accomplish the 
objectives of external regulation. The cost to the DOE could be 
minimized--and could even result in a net savings--by reducing the 
level of DOE oversight to a level consistent with a corporate oversight 
model. The NRC had substantial technical and policy differences with 
the views presented by the DOE in its March 31, 1999 report to Congress 
on the results of the pilot program. Consequently, we did not concur in 
this report, and instead have recently issued an independent report to 
Congress and other stakeholders.
Research Contributions
    Research is contributing significantly to performance goals in the 
nuclear material safety arena. For example, research provides the 
technical basis to address licensing questions related to the 
structural integrity of dry cask storage systems. Research also is 
being conducted to provide the technical basis to grant credit for fuel 
burn-up in the licensing of spent fuel transportation casks.
Hanford Tank Waste Remediation System Program
    The NRC continues to assist the DOE in its River Protection 
Project--Privatization (formerly known as the Hanford Tank Waste 
Remediation System (TWRS) program). In conjunction with this effort, we 
have recruited highly competent staff with waste solidification and 
vitrification expertise and experience; gained extensive understanding 
of the DOE plans for removal and vitrification of the radioactive and 
highly toxic wastes from the underground storage tanks; and developed a 
licensing Standard Review Plan and regulatory basis for the possible 
future NRC licensing of the DOE Hanford vitrification facility. 
However, the Department of Energy has made significant changes in its 
approach to this project in the past year, which in turn have 
significant implications for the timing of any NRC licensing of any 
phase of this project. The Commission recently directed the staff to 
consult with the appropriate Congressional committees, including of 
course this committee, on how and whether to continue NRC's involvement 
in light of the DOE changes.
                          nuclear waste safety
    The NRC has launched similar initiatives to improve the 
effectiveness and efficiency of our regulatory programs in the nuclear 
waste safety arena. The NRC continues to progress in its reviews and 
pre-licensing consultation under existing law related to the DOE 
program to develop a high-level radioactive waste repository. The 
Commission firmly believes that a permanent geologic repository is the 
appropriate mechanism for the nation ultimately to manage spent fuel 
and other high-level radioactive waste (HLW). In accordance with the 
statutory direction in the Nuclear Waste Policy Act and the Energy 
Policy Act of 1992, the NRC, before licensing a repository, must 
consult extensively with the DOE to develop a regulatory framework. 
Further, if the DOE recommends a site for a repository, the NRC must 
evaluate the adequacy of the DOE site characterization and waste form 
proposal. Ultimately, if the DOE submits a license application for a 
repository, the NRC must determine whether it can authorize repository 
construction, receipt of waste, and final repository closure. The NRC 
is also making significant progress in its programs for nuclear 
facility decommissioning, uranium recovery, and low-level waste 
management.
High-Level Waste--Yucca Mountain Status and Key Issues
    In FY 2000, the NRC expects to finalize a performance-based 
regulatory framework by issuing 10 CFR Part 63. As called for by the 
Energy Policy Act of 1992, Part 63 would implement health-based 
standards that would apply solely to the proposed Yucca Mountain 
repository. The proposed Part 63, which we published for public comment 
on February 22, 1999, establishes licensing criteria to evaluate the 
performance of the repository system at Yucca Mountain, Nevada. Over 
the course of the public comment period (which was extended in response 
to stakeholder requests), we have conducted five public meetings in 
Nevada on the proposed technical criteria.
    In parallel with the development of Part 63, the NRC continues to 
develop a Yucca Mountain review plan and to resolve key technical 
issues to prepare for reviewing the DOE license application expected in 
2002. These activities aid in the ongoing review of the DOE draft 
license application and provide guidance to the DOE on what is needed 
for a complete and high quality application. To that end, we will 
continue to evaluate the implementation of the DOE quality assurance 
program. We expect to complete our review of the DOE draft 
Environmental Impact Statement (EIS) for the Yucca Mountain site in FY 
2000. The NRC staff has prepared a plan for EIS review that will 
include the consideration of public concerns in the preparation of NRC 
comments.
Decommissioning Program
    Decommissioning involves removing radioactive contamination in 
buildings, equipment, groundwater, and soils to such levels that a 
facility can be released for either unrestricted or restricted use. The 
NRC is continuing to encourage timely cleanup of approximately 40 
material and fuel cycle facility sites through the implementation of 
its Site Decommissioning Management Plan (SDMP). The NRC expects to 
remove at least three sites from the SDMP list in FY 1999 and FY 2000. 
The NRC also will continue to oversee the decommissioning of 19 
commercial power reactors and hundreds of other licensed facilities. 
The NRC monitors licensee actions to store or dismantle and 
decontaminate the facilities in a safe manner while maintaining the 
licensed configuration of the facility and managing the use of 
decommissioning funds as described in the regulations. The NRC will 
continue to enhance the decommissioning program to add stability, 
predictability, and efficiency to the process by incorporating 
additional experience into rules and guidance documents.
    In FY 1999, the NRC initiated the consideration of a rulemaking to 
establish criteria for release of solid materials with low levels of 
radioactive contamination, in order to establish a regulatory framework 
more consistent with existing requirements for air and liquid releases. 
The process will include facilitated public meetings to obtain early 
stakeholder input on major issues associated with such a rulemaking, 
including conducting a scoping process related to the scope of 
environmental impacts. In addition, last month we published an issues 
paper in the Federal Register for public review, to provide background 
information in preparation for public workshops in the Fall of 1999 and 
analysis of stakeholder views in FY 2000. In parallel with these 
activities, we will continue to develop the technical basis, draft 
environmental impact statement, draft regulatory analysis, and draft 
regulatory guidance needed to accompany any proposed action.
    In FY 2000, the NRC will finalize decommissioning guidance to 
provide an overall framework for dose assessment and decision-making at 
sites undergoing decommissioning. We will continue development of a 
Standard Review Plan for decommissioning materials sites and power 
reactor license termination plans, to facilitate the NRC staff review 
of licensee submittals in a manner that is timely, efficient, 
consistent, and ensures the protection of public health and safety. In 
addition, we will continue a pilot study during FY 2000 involving five 
materials sites. Based on this experience, recommendations will be made 
to streamline the decommissioning submittal and review process for 
materials sites.
                  international nuclear safety support
    The NRC carries out a low-cost but high-impact program of 
international nuclear safety activities that supports United States 
domestic and foreign policy interests in the safe, secure, and 
environmentally acceptable use of nuclear materials, energy, and in 
nuclear non-proliferation. This program ensures, through active 
participation in mutually beneficial bilateral and other international 
efforts, that the NRC supports the U.S. policy of strengthening nuclear 
regulatory regimes abroad and fostering a global nuclear safety 
culture, as well as ensuring the security of strategic special nuclear 
material.
    The public and NRC licensees derive tangible and intangible 
benefits from these international activities. Public confidence in 
nuclear energy as a technology is strongly impacted by the public 
perception of how safely nuclear operations are conducted--whether 
domestically or abroad. In addition, as a major supplier of nuclear 
fuel, equipment, and technical services, the United States depends on 
an orderly and predictable export licensing regime to maintain 
marketability. NRC assistance also helps in the prevention or 
mitigation of problems in countries with weak or embryonic nuclear 
safety and nuclear regulatory cultures. NRC participation in 
international safeguards and non-proliferation activities directly 
supports the assessment of potential threats against the U.S.
    Cooperation with foreign countries in the area of nuclear safety 
provides a considerably larger operational experience base than exists 
in the United States alone. As one aspect of this cooperation, the NRC 
maintains extensive research agreements with organizations in many 
foreign countries. This cooperative approach helps to leverage our 
research resources, and recognizes the inherently international 
character of the nuclear business. The resultant resolution of safety 
issues leads to benefits for the U.S. nuclear power industry and, more 
importantly, aids considerably in the prevention of nuclear accidents 
in countries with weak or embryonic nuclear safety cultures.
Export Licensing and Non-Proliferation Activities
    The NRC reviews and takes action on approximately 75 to 100 import 
and export license applications per year. In addition, the NRC actively 
participates in international export control through groups such as the 
Nuclear Suppliers Group and the Zangger Committee, to ensure that 
export policies are consistent among nuclear supplier states. The NRC 
also helps the U.S. to meet its obligations under Article IV of the 
Nuclear Non-Proliferation Treaty, including support for bilateral and 
International Atomic Energy Agency (IAEA) sponsored exchanges of 
equipment, materials, and scientific and technological information on 
the peaceful uses of nuclear energy. Within the limits of available 
resources, the NRC also provides technical assistance to U.S. policy 
makers in connection with (1) the U.S.-Russia agreement to make 
permanent the cessation of plutonium production for nuclear weapons; 
(2) the U.S.-Russia-IAEA Trilateral Verification Initiative on excess 
weapons material; (3) the process of making decisions on how to dispose 
of excess plutonium; and (4) the Fissile Material Cut-Off Treaty. 
Finally, the NRC is working closely with the Executive Branch to 
facilitate the effective implementation of the Strengthened Safeguards 
System of the IAEA.
Bilateral and Multilateral Activities
    Since the demise of the Soviet Union, particular emphasis has been 
placed by the United States and the international community on 
addressing both nuclear safety and nuclear materials safeguards 
concerns in the countries of the former Soviet Union (FSU) and in 
central and eastern European countries (CEE). The NRC strongly supports 
these efforts, and has focused its role primarily on strengthening the 
nuclear regulatory authorities of these countries. We conduct programs 
(funded primarily through the U.S. Agency for International Development 
(AID), DOD, and DOE) to train regulators from FSU and CEE countries on 
the creation and/or strengthening of their regulatory capabilities. We 
continue to see positive results from our assistance efforts with the 
Russian, Ukrainian, Kazakh, Armenian, Czech, Slovak, Lithuanian, 
Bulgarian, and Hungarian regulators. Much of this success can be 
attributed to their own willingness and desire to enhance their nuclear 
safety and regulatory infrastructure, and their growing expertise in 
the application of Western safety and safeguards review tools.
Vice-Presidential Commissions
    Two examples of high-level Commission opportunities to focus on 
nuclear safety with top U.S. and foreign government officials are the 
U.S.-Russian Joint Commission on Economic and Technological 
Cooperation, chaired by the U.S. Vice President and the Russian Prime 
Minister, and the U.S.-South African Binational Commission (BNC), 
chaired by the Vice President and the South African Deputy President. 
Both commissions have achieved measurable results in enhancing nuclear 
safety, and we look forward to continued cooperative efforts in this 
area.
International Safety Conventions
    The NRC has worked extensively in the development of the Convention 
on Nuclear Safety (CNS)--the first instrument to address directly the 
safety of nuclear power plants worldwide. This Convention obliges 
contracting parties to establish and maintain proper legislative and 
regulatory frameworks to govern safety. On April 11, 1999, the United 
States became a party to the Convention, and participated in the final 
plenary of the first Review Meeting in April 1999. The U.S. also 
deposited its National Report, which had been prepared by the NRC. We 
anticipate fully participating in all aspects of the Convention's 
preparatory, organizational and review meetings in the future.
    International conventions on waste management and liability also 
have been negotiated, as integral parts of U.S. efforts to enhance 
global nuclear safety . These conventions are undergoing Executive 
Branch review and likely will be forwarded by the President to the 
Senate for its advice and consent to ratification in calendar year 
1999.
                      management and support arena
    As stated earlier, our FY 2000 budget request supports a decrease 
in the area of management and support, primarily based on agency-wide 
program reductions and efficiencies, with additional decreases due to 
the completion of milestones in information technology and management. 
A particular area of emphasis, which I will cover in more detail, is 
our effort to resolve Year 2000 computer issues.
Year 2000 Implementation
    All 88 of our internal mission-critical, business-essential and 
non-critical systems have been examined and, as needed, fixed with 
regard to the Year 2000 (Y2K) problem. This work was accomplished 
almost two months ahead of the OMB-established milestone, and well 
under budget.
    The one NRC mission-critical system that is directly linked to 
operating nuclear power plants is our Emergency Response Data System 
(ERDS). This application performs the communication and data 
transmission functions that provide near real-time data to NRC incident 
response personnel during declared emergencies. We have verified that 
this system has been made Y2K compliant and that the interface of the 
system with licensed facilities is functional.
    Externally, the NRC is working with nuclear power plants and our 
other licensees to ensure Y2K readiness for those systems needed to 
operate and shut down plants safely, recognizing the importance of 
ensuring electrical grid reliability and the safety and security of 
radioactive materials. Based on the results of our audits, we have 
concluded that licensee management oversight of the Y2K readiness 
programs generally has been aggressive and is contributing to the 
success of nuclear facility Y2K readiness efforts. Nonetheless, NRC 
inspectors assigned to power reactor sites have reviewed licensees Y2K 
programs to ensure that all facilities are taking appropriate actions. 
Based on our reviews, we believe that our licensees are devoting the 
necessary resources to their programs to meet their readiness 
schedules.
    In July 1999, the NRC received reports from all 103 operating 
nuclear power plants indicating that there are no Y2K-related problems 
that directly affect the performance of safety systems. Sixty-eight of 
these plants indicated that all of their computer systems are ``Y2K 
ready.'' The remaining 35 plants reported that they have additional 
work to complete on a few non-safety computer systems or devices to be 
fully Y2K ready, and provided their schedules for completing this work. 
Of the 35 plants, about one-third have remaining work involving systems 
needed for power generation. Other plants have work that deals with 
plant monitoring and administrative systems. I would emphasize that 
none of the remaining work affects the ability of the plants to shut 
down safely, if needed. Typically, the remaining Y2K work to be 
completed after July 1 of this year is dependent on a scheduled plant 
outage this fall, or the delivery of a replacement component.
    The NRC will continue to monitor the progress at those plants that 
have remaining items of work, and will independently verify completion 
of these items, including Y2K contingency plans--procedures for dealing 
with unexpected events. All licensees are expected to be Y2K ready and 
to have contingency plans in place before December 31. If, by the end 
of September, we believe that any needed Y2K readiness activities will 
not be completed in advance of the December 31 to January 1 transition, 
we will take appropriate action, including the issuance of shutdown 
orders, if necessary.
              Legislative Proposals to the 106th Congress
    The Commission has submitted a number of legislative proposals for 
the consideration of the 106th Congress. We are pleased to acknowledge 
that the Chairman of this Subcommittee, Mr. Barton, has by NRC request 
introduced both our reauthorization bill and our legislative proposals. 
These proposals are designed to improve our safeguards provisions, to 
increase our efficiency and flexibility, to eliminate duplicative 
regulatory roles, and to relax unnecessary or outdated provisions. Each 
of the individual proposals is discussed below.
Improvements to NRC Safeguards Provisions
    Carrying of Firearms by Licensee Employees: This amendment would 
authorize guards to carry firearms at Commission-designated facilities 
owned or operated by a Commission licensee or certificate holder, at 
any NRC-licensed or certified facility where there are special nuclear 
materials present, and while engaged in transporting special nuclear 
materials. The guards would be authorized to use the weapons, in 
circumstances defined by Commission regulations and guidelines, where 
necessary to prevent sabotage of a facility designated by the 
Commission or to prevent theft of materials capable of being used for 
nuclear explosives. The purpose of the amendment is to help mitigate 
licensee guards' reluctance to use their weapons in defending such 
facilities and transports against attack because of fear of prosecution 
under State laws that provide that weapons may be used only to protect 
the user's own life or the life of another. The amendment could provide 
the possibility of shielding the guards against prosecution by state 
authorities for discharge of firearms in the performance of official 
duties. The authority that would be provided by this amendment already 
exists with respect to guards at Department of Energy facilities and 
DOE guards transporting special nuclear materials.
    Unauthorized Introduction of Dangerous Weapons: This amendment 
would allow the Commission to issue regulations that would, in effect, 
make it a Federal crime for an individual who has not received prior 
authorization to bring any dangerous weapon, explosive, or other 
dangerous instrument likely to produce substantial injury or damage 
into facilities subject to NRC licensing authority. Currently, the NRC 
may impose sanctions against the licensee, but no Federal law permits 
imposing criminal sanctions against the individual responsible for 
bringing the weapon or other dangerous instrument on site. Enactment of 
this amendment would assist NRC licensees in their efforts to safeguard 
licensed nuclear facilities and materials against nuclear theft or 
radiological sabotage.
    Sabotage of Production, Utilization, Uranium Enrichment, Fuel 
Fabrication, or Waste Facilities: Section 236 of the Atomic Energy Act 
currently addresses sabotage or attempted sabotage of production, 
utilization, and waste storage facilities. However, it can be argued 
that this provision is not applicable during the construction phase of 
such facilities. Past events have indicated that sabotage can occur 
during the construction phase that is not discovered until the 
operational phase, and thereby has the potential to impact public 
health and safety. This amendment would make it a Federal crime to 
sabotage such facilities during the construction phase, if the 
sabotaging action could jeopardize public health and safety. In 
addition, this amendment would extend these sabotage provisions--for 
all phases--to other types of facilities, including (1) waste treatment 
facilities, (2) waste disposal facilities, and (3) uranium enrichment 
and nuclear fuel fabrication facilities licensed or certified by the 
NRC. Enacting criminal sanctions to help deter sabotage and increasing 
the range of facilities covered will provide further protection of the 
public health and safety.
Increased Efficiency and Flexibility
    Continuation of Commissioner Service: This amendment would allow a 
Commissioner whose term has expired to continue in office (subject to 
the removal power of the President) until whichever of the following 
occurs first: (1) his or her successor is sworn in, or (2) the 
expiration of the next session in Congress after the expiration of the 
Commissioner's fixed term of office. Enactment of this amendment would, 
in most circumstances, allow the Commission to maintain a quorum of at 
least three individuals, even when the terms of several successive 
Commissioners have expired without their reappointment, thus avoiding 
the potential disruption of agency business due to the loss of a 
quorum. It would also be helpful for cases in which a Commissioner is 
renominated, but with insufficient time for the Senate to act before 
the expiration of the prior term. Such a holdover provision would 
enable the Commission to operate in accordance with the intent 
expressed by the Congress in the Energy Reorganization Act of 1974, 
that the NRC should have a 5-member Commission. Holdover provisions are 
found in the organizational statutes of the majority of independent 
regulatory agencies.
    Hearings on Licensing Uranium Enrichment Facilities: This amendment 
would improve the hearing process associated with NRC licensing of 
uranium enrichment facilities by eliminating the requirement for such a 
hearing to be ``on the record.'' Hearings that are required to be ``on 
the record'' must conform to the more elaborate formalities prescribed 
by the Administrative Procedure Act. Such hearings, if not 
appropriately disciplined, can be inefficient, protracted, and costly. 
This amendment would not eliminate the possibility that the Commission 
might determine that a formal hearing is appropriate for the licensing 
of uranium enrichment facilities, but it would give the Commission the 
flexibility to determine which type of hearing is most suitable.
    Duration of Combined Construction and Operating Licenses: The 
Commission is seeking a technical correction that would make the 
duration of a combined construction and operating license consistent 
with the duration of a license for an initial operating license under 
the circumstances where the construction and operating phases are 
licensed separately. The Atomic Energy Act authorizes the NRC to 
specify a duration of up to 40 years for any commercial license it 
issues, including an initial operating license for a nuclear power 
plant. The Energy Policy Act of 1992 amended the Atomic Energy Act to 
make explicit that the NRC can issue a combined license for 
construction and operation of a nuclear power plant. However, the 
Energy Policy Act did not make explicit that the duration of a combined 
license should allow for up to 40 years of operation. In the absence of 
such an explicit provision, it might be argued that the period of 
operation under a combined license is limited to 40 years from the time 
authorization is given to construct the plant. There is no safety 
reason for such a limit.
    Office Location: This amendment would change the requirement that 
the NRC maintain an office for the services of process and papers with 
the District of Columbia (DC). The Atomic Energy Act requirement that 
the NRC maintain such an office was enacted before the Commission 
consolidated the agency in Rockville, Maryland, and there is no longer 
a sound reason for maintaining the DC office. The elimination of the 
requirement could result in a monetary savings for the agency because 
it would eliminate the need to maintain a DC address for hand or mail 
delivery of documents. Commission efficiency could be enhanced if this 
statutory requirement were eliminated.
Elimination of Duplicative Regulatory Roles
    Elimination of NRC Antitrust Reviews: This amendment would 
eliminate the Commission's antitrust review authority with respect to 
pending or future applications for a license to construct or operate a 
utilization or production facility. At the time of enactment of the 
Atomic Energy Act provisions requiring NRC antitrust reviews in 
connection with application for a Commission license to construct or 
operate a commercial utilization or production facility, the NRC 
appeared to be in a unique position to ensure that the licensed 
activities of nuclear utilities would not create a situation 
inconsistent with the nation's antitrust laws. Today, however, the 
NRC's antitrust reviews unnecessarily duplicate other agencies' 
efforts, particularly those of the Department of Justice and the 
Federal Energy Regulatory Commission. The amendment would preserve the 
Commission's authority to enforce antitrust conditions in licenses 
issued before the amendment became effective, and it would not affect 
the Commission's legal authority with respect to those conditions.
    Actions Relating to Source, Byproduct and Special Nuclear Material: 
The Commission has issued regulations that establish radiological 
criteria for the termination of licenses that fall under its regulatory 
authority and are protective of public health and safety. Creation of 
an additional cleanup standard by Federal statute or regulation may 
make it extremely difficult for the cleanup of a site to reach 
finality. This amendment of the Comprehensive Environmental Response, 
Compensation and Liability Act of 1980 (CERCLA) would make clear that 
the standards issued by the Commission and its Agreement States would 
govern cleanup of Atomic Energy Act material at facilities licensed by 
them. There would, however, be an exception that will allow the 
Commission or an Agreement State to invoke the application of CERCLA in 
the rare circumstance where that is necessary to effect adequate 
cleanup.
    This amendment would also include in the CERCLA definition of 
``Federally permitted release'' Atomic Energy Act material that is 
released in accordance with NRC regulations following termination of a 
license issued by the Commission or by an Agreement State. This would 
make the treatment of such releases consistent with the treatment of 
releases under a current NRC license.
Relaxation of Unnecessary or Outdated Provisions
    Elimination of Foreign Ownership Prohibitions: These amendments 
would eliminate the current restrictions on foreign ownership of 
utilization facilities (power and research reactors). These 
restrictions were originally enacted at a time when commercial 
development of nuclear power was in its very early stages, but the 
situation has changed significantly since then. Today, commercial use 
of nuclear power is common in many countries, and the underlying 
technology is widely known. The Commission would continue to scrutinize 
applicants for licenses to ensure that issuance of a license to a new 
owner would not be inimical to the common defense and security or to 
the health and safety of the public.
    Gift Acceptance Authority: This amendment would provide the NRC 
with general gift acceptance authority. To implement this new 
authority, the Commission would be required to establish criteria to 
ensure that the acceptance of a gift would not compromise the integrity 
of the work of the agency. The issue of NRC gift acceptance authority 
has arisen a number of times in recent years, primarily with respect to 
acceptance of library and training materials from outside sources. Many 
other government agencies currently have such authority.
                               Conclusion
    Over the past few years, we have made substantial progress in 
improving our regulatory programs, and we have accelerated that 
progress in the past year. Our interactions with this Subcommittee have 
contributed to this success, and we welcome your continued constructive 
oversight. With sufficient resources, strong leadership, and broad 
support, we plan to continue our efforts to enhance the effectiveness 
and efficiency of the NRC by pursuing the paths that already have been 
charted. The Commission fully expects that new areas will continue to 
arise, requiring attention and additional effort. As with current areas 
of reform, we will continue to ensure stakeholder involvement in the 
change process. We believe that we have laid the groundwork not only 
for significant short-term adjustments, but for enduring improvements 
to the NRC regulatory paradigm, institutionalized and stabilized 
through incorporation into our performance-based planning process.

                         FY 2000 BUDGET SUMMARY
                             (in thousands)
------------------------------------------------------------------------
                  Program                    FY 1998   FY 1999   FY 2000
------------------------------------------------------------------------
Nuclear Reactor Safety....................   224,009   210,350   210,043
Nuclear Materials Safety..................    61,724    61,708    63,881
Nuclear Waste Safety......................    32,635    38,742    42,143
International Nuclear Safety Support......     5,102     3,931     4,840
Management and Support....................   148,530   150,269   144,493
  Subtotal (S&E)..........................   472,000   465,000   465,400
Inspector General ($K)....................     4,800     4,800     6,000
  Total (NRC).............................   476,800   469,800   471,400
------------------------------------------------------------------------


    Mr. Barton. Would I guess go with Mr. McGaffigan. He's 
getting the microphone, and then Mr. Merrifield.

              STATEMENT OF EDWARD MCGAFFIGAN, JR.

    Mr. McGaffigan. Mr. Chairman, I don't have a prepared 
statement, but I want to comment very briefly about the 
Superfund provision that is in our legislative package and put 
some context on that provision.
    First, I want to say that we appreciate the support of this 
subcommittee for this provision in the last Congress. At the 
request of Mr. Hall and then chairman Mr. Schaeffer, the 
provision was in identical form included in Mr. Oxley's 
Superfund legislation, H.R. 3000.
    We believe that we are at a fundamental policy difference 
with our colleagues at EPA. We promulgated a rule through the 
full Administrative Procedure Act process in July 1997 that set 
what we believed to be a protective standard for 
decommissioning and license termination at our facilities. The 
standard was based on voluminous analysis and public comment. 
But it did not come out the way the EPA would have liked it to 
come out. We believe the 25 millirem all pathways standard is 
protective of public health and safety. Our colleagues at EPA, 
who will speak soon, will say that that is not adequately 
protective; and that further actions under Superfund might be 
required.
    This same issue comes up repeatedly. It came up in the 
high-level waste hearing, as you recall earlier this year. It 
comes up in the EPA's dealings with the States on what the 
standards should be for so-called technologically enhanced 
naturally occurring radioactive material--oil field by-
products, that sort of thing. And when we are in fundamental 
disagreement, when an independent regulatory agency is in 
fundamental disagreement with the Administration, we 
respectfully suggest that the Congress should break the tie.
    We would be happy to testify as to why we think our 
standard is protective. It is basically the same argument that 
we made earlier this year during the high-level waste hearing, 
and I won't go further.
    Thank you, sir.
    Mr. Barton. Thank you. Mr. Merrifield?

              STATEMENT OF HON. JEFFREY MERRIFIELD

    Mr. Merrifield. Thank you, Mr. Chairman. I would certainly 
associate myself with my remarks of my fellow Commissioners. I 
just want to expound briefly and extemporaneously on two issues 
that have been raised by the members this morning--this 
afternoon.
    The first one is on the fee-base issues. This subcommittee 
is considering the way in which we go about paying for the 
programs that we regulate at the NRC. Under law, we as an 
agency are required to seek funding for all of the activities 
that we have, and so ultimately those fees are passed off to 
licensees. As has been noted by various members, we as an 
agency, we the Commissioners, have taken a position that we 
believe that up to 10 percent of the activities we conduct 
should be taken off of that fee base and should be paid for by 
general revenues, as they are issues that are more 
appropriately distributed among all of the American people, not 
just the licensees.
    Some of these programs that have been targeted include some 
of the activities we have relative to Agreement States, those 
States which are responsible for running some of their own 
programs in conjunction with us; some of our international 
activities; some of our work in terms of regulating Federal 
agencies, which also are passed off to the licensed utilities 
and other licensees.
    We do feel and do believe that the issue of moving toward 
general revenues makes sense. The one point I would want to 
leave with the members of this subcommittee: we believe those 
activities are very important activities--and just because we 
want to move those off the fee base does not take away from the 
fact that they are important. The international activities, 
many of which were subject to statutory requirements, are 
vital. We have good relationships with many of our foreign 
counterparts. The American role in maintaining the safety of 
nuclear power plants across the world is vital.
    Similarly, although there are many States which have taken 
responsibility for some of the regulation for radioactive 
materials in their State, the fact remains that they depend on 
the NRC to come up with the underlying regulations. Even if 
every State were to decide to become an Agreement State, we 
would still need to have the moneys to be able to establish 
those regulations. So they are important, and I want to bring 
that to your attention.
    The second issue is the Sunshine Act. I know that has 
raised some concerns on the part of this committee and others. 
We have had a comment period on our efforts to be compliant 
with the Supreme Court decisions on how our Commission acts 
relative to our public disclosure. The point I certainly would 
want to make is this Commission is clearly dedicated toward the 
notion of openness and having full stakeholder involvement.
    What we have found, and Commissioner McGaffigan and I have 
been talking about this and we initiated this issue at the 
Commission, we do not have an opportunity for the collegiality 
the Congress originally intended for Commissions such as the 
NRC. We have not had an ability to sit down and do the big 
picture thinking about how where we want to go as an agency; 
how we want to view ourselves as an agency. Those are issues 
that we feel are important sometimes to be able to kick around 
amongst the five of us.
    In addition, we really want to have those in discussions a 
big picture way. We want them to be discussions, be we do not 
want them to be decisionmaking meetings. Any of the public 
meetings that we have now, we have committed to maintaining in 
full public view.
    There are many other commissions out there which have 
already moved toward aligning themselves with the Supreme Court 
decision. At the Defense Facilities Nuclear Safety Board, for 
example, the members of that Commission meet on a daily basis 
to discuss these very issues. I think it is important to 
increase the collegiality, to make us work more effectively as 
a Commission. And certainly I and the other Commissioners would 
be happy to discuss with you our thoughts on that matter.
    Thank you.
    Mr. Barton. And representing the Environmental Protection 
Agency, Mr. Fields.

              STATEMENT OF HON. TIMOTHY FIELDS, JR.

    Mr. Fields. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here this afternoon to talk 
about the role of the Superfund program in facilities that are 
currently or previously licensed by the Nuclear Regulatory 
Commission.
    Before I begin to address language on the legislative 
provisions before us, it is important to note that EPA expects 
that implementation of the NRC regulations of July 21, 1997, 
which are the radiological criteria for license terminations 
will result in cleanups within the Superfund protective risk 
range at the vast majority of sites.
    But for a small, but important, group of sites we believe 
that the legislative provisions being considered today would 
result in not providing assurances to the public that NRC 
licensees are decommissioning in a manner that is protective 
human health and the environment.
    The Superfund law and the implementing regulations, namely 
the National Contingency Plan, do not differentiate risks 
caused by radioactive contamination as compared to non-
radioactive contamination. Remedial actions under the Superfund 
must be protective, i.e., generally within the risk range of 
ten to the minus fourth, ten to the minus sixth risks for all 
exposure pathways and all contaminated media--groundwater, 
surface water, sediment, air, other biodia.
    Further, groundwater should be returned to beneficial reuse 
we believe, which includes meeting maximum contaminant levels 
for all contaminants, including radionuclides within the 
groundwater plume where maximum contaminant levels are relevant 
and appropriate for the site. It is this view that we have that 
current or potential future sources of drinking water, which 
are the source of drinking water, as you know, for more than 50 
percent of the American people comes from groundwater. We 
believe this is a valued national resource. It must be 
protected to levels suitable for drinking water.
    The Superfund policy, therefore, is that a site--if a site 
cannot be cleaned up to a protective level for a reasonably 
anticipated future land use because it is not cost effective or 
practicable, then a more restricted land use should be chosen 
that will meet protection levels. EPA does not generally expect 
that the future anticipated land use for most NRC sites will be 
residential.
    Since September 1983, we have had one policy on the books, 
which is that we will generally defer to the NRC's Corrective 
Action Program and not place NRC sites on the Superfund 
national priorities list. However, as EPA indicated in the 
Federal Register published that year if we determine that the 
sites that are not on the national priorities list are not 
going to be cleaned up in a protective way, we would consider 
placing those sites on the Superfund list or taking appropriate 
Superfund response action. That remains EPA's position today.
    EPA expects to continue to work in a cooperative fashion 
with the Commissioners and the Chairman of the Nuclear 
Regulatory Commission as we have in the past on a site-specific 
basis. We are concerned with the potential inefficiencies of 
this situation and the potential impediments to cleanup caused 
by the threat of dual regulation.
    As a result, EPA urges again that we work together with the 
Nuclear Regulatory Commission on a memorandum of understanding, 
outlining consultation requirements and procedures for EPA to 
use in those rare cases where a site-specific application of 
NRC's decommissioning rule might result in a cleanup that is 
not protective of human health and the environment.
    EPA stands ready to work with the Nuclear Regulatory 
Commission on the completion and implementation of such an MOU. 
While we clearly believe that NRC ought to be the lead 
regulator, with EPA consulting and providing advice.
    Last, in conclusion, EPA believes that the areas of 
difficulty between EPA and NRC regarding our cleanup programs 
mainly involve issues of groundwater remediation, overall 
cleanup levels, and last methods of providing for restricted 
land uses where necessary, to establish cost effective cleanup 
levels.
    EPA believes that citizens should be protected within the 
Superfund risk range and have ground waters restored to 
beneficial uses where practicable, regardless of the type of 
contaminant--radionuclide or otherwise. EPA cannot support 
legislative initiatives that would hinder our ability and 
responsibility to protect human health and the environment.
    Mr. Chairman, thank you very much for being able to present 
my testimony and look forward to responding to questions.
    [The prepared statement of Hon. Timothy Fields, Jr. 
follows:]
Prepared Statement of Hon. Timothy Fields, Jr. Assistant Administrator, 
Office of Solid Waste and Emergency Response, Environmental Protection 
                                 Agency
                              introduction
    Good afternoon, Mr. Chairman, and Members of the Subcommittee. I am 
pleased to have the opportunity to appear before you to discuss the 
role of the Superfund program at facilities currently or previously 
licensed by the Nuclear Regulatory Commission (NRC).
    Before I begin to address language in H.R. 2531, it is important to 
note that EPA expects that the NRC's implementation of its Radiological 
Criteria for License Termination (``decommissioning rule,'' see 62 FR 
39058, July 21, 1997) will result in cleanups within the Superfund risk 
range at the vast majority of sites. For a small but important group of 
sites, however, I believe that the legislative provision being 
considered today would not provide assurances to the public that NRC 
licensees are decommissioning in a manner that is protective of human 
health and the environment.
              opposition to proposed amendments to cercla
    Section 207 of H.R. 2531 is the portion of the bill that would 
amend the Comprehensive Environmental Response, Compensation, and 
Liability Act of 1980 (CERCLA). The Administration has already opposed 
legislative provisions similar to those in section 207. On September 3, 
1997, former NRC Chairman Shirley Ann Jackson sent a letter to Senator 
John H. Chafee which proposed that the same legislative provisions that 
are in section 207 be included in legislation reauthorizing CERCLA. In 
a March 25, 1998 letter to Senator Joseph Lieberman, EPA stated the 
Administration's opposition to NRC's draft legislative language.
                how radiation is addressed under cercla
    Section 101(14) of CERCLA defines radiation as a hazardous 
substance subject to actions conducted under the statute. In 
particular, radionuclides are designated generically as hazardous air 
pollutants by Clean Air Act (CAA) section 112, and CERCLA section 
101(14)(E) defines the term ``hazardous substance'' to include CAA 
hazardous air pollutants.
    CERCLA and the National Contingency Plan (NCP) do not differentiate 
risks caused by radioactive contaminants from those caused by non-
radioactive contaminants. Remedial actions under CERCLA must be 
protective (i.e., generally within the risk range of 10<SUP>-</SUP>\4\ 
to 10<SUP>-</SUP>\6\) for all exposure pathways in all contaminated 
media (e.g., soil, ground water, surface water, sediment, air, 
biota).<SUP>1</SUP> Further, ground waters should be returned to 
beneficial reuse, which includes meeting Maximum Contaminant Levels 
(MCLs) for all contaminants including radionuclides within the ground 
water plume, where MCLs are relevant and appropriate for the site. It 
is this Administration's position that current or potential future 
sources of drinking water are a valued national resource and should be 
protected to levels suitable for drinking water.
---------------------------------------------------------------------------
    \1\ ``Risk Assessment Guidance for Superfund: Volume I--Human 
Health Evaluation Manual (Part A)'', EPA/540/1-89/002, December 1989.
---------------------------------------------------------------------------
    EPA's CERCLA policy states that if a site cannot be cleaned up to a 
protective level (i.e., generally within the 10<SUP>-</SUP>\4\ to 
10<SUP>-</SUP>\6\ risk range) for the ``reasonably anticipated future 
land use'' because it is not cost-effective or practicable, then a more 
restricted land use should be chosen that will meet a protective level. 
EPA does not generally expect that the future anticipated land use will 
be residential for most large NRC sites.
               number of nrc sites epa expects to address
    EPA anticipates that there will be a very small number of sites 
that will be affected by our differences of opinion with NRC on what 
constitutes protectiveness of human health and the environment. This is 
consistent with the December 1997 NRC Inspector General report that 
states, ``NRC and EPA officials agree that a relatively small number of 
sites will not initially clean up to the CERCLA standards.''
                      epa action at nrc facilities
    Since September 8, 1983, EPA has generally deferred listing on the 
National Priorities List (NPL) sites that are subject to NRC's 
corrective action authority because NRC's actions were generally 
believed to be consistent with the CERCLA requirement to protect human 
health and the environment.<SUP>2</SUP> However, as EPA indicated in 
the Federal Register notice announcing the policy of deferral to NRC, 
if EPA ``later determines that sites which it has not listed as a 
matter of policy are not being properly responded to, the Agency will 
consider listing those sites on the NPL'' (see 48 FR 10661). This 
remains EPA's position.
---------------------------------------------------------------------------
    \2\ EPA has the authority to choose not to respond to certain types 
of releases under CERCLA because existing regulatory or other authority 
under other Federal statutes provides for an appropriate response. As a 
policy matter, EPA has generally chosen not to list releases of source, 
byproduct, or special nuclear material that is currently licensed by 
NRC. This general deferral policy never applied to facilities where NRC 
has terminated the license, or the current license is issued by a State 
pursuant to a delegation of authority from the NRC pursuant to section 
274 of the Atomic Energy Act (42 U.S.C. 2021).
---------------------------------------------------------------------------
    Even with EPA's policy of deferral to NRC, EPA has taken action at 
formerly or currently licensed NRC sites that posed a threat to human 
health or the environment. In some instances, EPA response actions have 
occurred in cooperation with NRC to address contamination not addressed 
by NRC, including non-radiological (chemical) contamination or off-site 
contamination. At other sites, EPA has taken action to address formerly 
licensed material that posed a threat to human health and the 
environment. Whenever possible, EPA attempts to work cooperatively with 
NRC to resolve site issues.
    If the release of radionuclides into the environment from a 
facility is in complete compliance with a legally enforceable permit 
issued in accordance with the Atomic Energy Act (e.g., an NRC or NRC 
Agreement State license), such a release will be exempt from CERCLA 
liability provisions as a ``federally permitted release'' under CERCLA 
sections 101(10)(K) and 107(j) until after the license is terminated. 
If the release of radionuclides violates the terms of the license in 
any manner, however, CERCLA liability will exist for the licensed 
material even before the license is terminated.
                      memorandum of understanding
    EPA expects to continue to work cooperatively with NRC on a site-
specific basis. We are concerned with the potential inefficiencies of 
this situation and the potential impediments to cleanup caused by the 
threat of dual regulation. EPA and NRC have exchanged draft Memoranda 
of Understanding (MOUs). EPA would like to enter into an MOU with NRC 
outlining consultation procedures for EPA to use in those rare cases 
where a site-specific application of NRC's decommissioning rule might 
result in a cleanup level that is not protective. EPA stands ready to 
work with NRC on the completion and implementation of an MOU with the 
goal of ensuring the selection of cost-effective cleanups that are 
protective of human health and the environment and that facilitate the 
beneficial reuse of properties formerly licensed by NRC.
                               conclusion
    EPA believes that the outstanding issues between EPA and NRC 
cleanup programs mainly involve issues of ground water remediation, 
overall cleanup goals, and methods of providing for restricted land 
uses when necessary to establish cost-effective cleanups goals. EPA is 
committed to using the full range of alternatives available to achieve 
cleanup of ground waters that are current or potential future sources 
of drinking water in a reasonable time period and to selecting cleanup 
goals that reflect reasonably anticipated land uses so that cleanups 
are protective of human health and the environment over the long term. 
EPA's experience with remediating Superfund sites has shown that these 
objectives are achievable with limitations on land use, and the use of 
institutional and engineering controls.
    EPA believes that citizens should be protected within the NCP risk 
range (generally 10<SUP>-</SUP>\4\ to 10<SUP>-</SUP>\6\) and have 
ground waters restored to beneficial reuse where practicable, 
regardless of the type of contaminant. The Agency cannot support 
legislative initiatives that would hinder EPA's ability and 
responsibility to protect human health and the environment.
    Mr. Chairman, thank you for this opportunity to address the 
Subcommittee. I would be pleased to answer any questions you or the 
other Members may have.

    Mr. Barton. Thank you, Administrator Fields. The Chair 
wants to remind our panel and also the committee we are 
expecting a number of votes in about 10 minutes. I think 
there's one 15-minute vote and--excuse me--three 5-minute 
votes, so we are unfortunately going to have to--excuse me--
suspend to go do that. I especially want to remind my minority 
friends the second panel was put on at the request of the 
minority, so I expect some minority members to be here when the 
minority--when the second panel--and that's not necessarily to 
Mr. Sawyer. He just happens to be the only one here.
    Mr. Sawyer. I will share the message, Mr. Chairman.
    Mr. Barton. Yes. The Chair recognizes himself for the first 
5 minutes of questions.
    Madam Chairwoman, it is very unusual for a Federal agency 
to request that part of its jurisdiction be eliminated. But 
yet, in your NRC proposal, you do--the Commission requests that 
it be relieved of its anti-trust review.
    If we do that, what other agencies would perform anti-trust 
review for nuclear power plants and companies that own them?
    Ms. Dicus. Okay, there are two agencies that conduct the 
reviews that the NRC currently conducts. The Department of 
Justice and the FERC conduct these same reviews, and for us to 
do it also does not add value to the process. They are quite--
the other two agencies do the job quite capably. For us to do 
it simply adds in some cases costs and time, so we feel that it 
is adequately covered, and there is no reason for us to perform 
those reviews.
    Mr. Barton. Does the--do the other Federal agencies that 
would do the review, do they share your view on this, the 
Commission's view on this?
    Ms. Dicus. I have not discussed personally this with the 
other agencies. I would assume that they would, and would not 
have a problem with that. We would have to get back to you on 
that.
    Mr. Barton. Well, you noticed that a similar provision was 
in the administration electricity deregulation----
    Ms. Dicus. That is true.
    Mr. Barton. [continuing] proposal.
    Ms. Dicus. Yes.
    Mr. Barton. So I would take that that the Clinton 
Administration at least at the Presidential level supports the 
proposed change?
    Ms. Dicus. Yes, the administration supports this change.
    Mr. Barton. Okay. The--a number of the Republicans in their 
opening statements showed support or concern anyway about the 
fact that right now the Commission, by law, has to request 100 
percent funding through user fees. It is my understanding that 
in the budget submission to the OMB, the Commission did request 
authority to get some funds from general revenue. Can you 
comment on that?
    Ms. Dicus. Sure, I would be happy to, and that is correct. 
In fact, for the last few years, we have requested to get 
perhaps up to as much as 10 percent, as Commissioner Merrifield 
testified, of our budget off the fee base because of the 
activities that we have that are important activities we think 
to the public health and safety, but are--really benefit the 
American people as a whole. We have not been successful in 
getting OMB to agree to this.
    Mr. Barton. Mr., oh--Commissioner.
    Mr. McGaffigan. Just one brief point--there is one little 
piece of our legislative package that addresses part of this 
issue. We will solve the problem--if you pass this piece of the 
package--of subsidizing our review of other Federal agencies 
out of the fee base. We have part of our proposal within the 
authorization bill as opposed to the legislative package, and 
that is about a $2.8 million fairness and equity issue that 
would be solved within the overall $50 million issue if that 
provision were to be enacted. But that is the only piece that 
we got out of OMB.
    Mr. Barton. Okay. Administrator Fields, first I--I just 
want to thank you for the work you have done with me on the dry 
cleaning issue. We are still working on that, and I hope my 
office has stayed in contact with your staff as we have worked 
with Senator Kerry and the industry to try to get agreement. 
But I really appreciate your openness on that.
    Mr. Fields. You are welcome, sir.
    Mr. Barton. On this issue, Commissioner McGaffigan 
basically said he wants Congress to break the tie. Does the EPA 
share that view of the Congress as a referee? Is the EPA 
willing to let the Congress break the tie on some of these who 
sets the standard and how do they set it issues that seems to 
be perennial between your agency and the Regulatory Commission?
    Mr. Fields. No, we do not share that view. We do not think 
this is something that Congress needs to break the tie on. We 
think that there is some valid approaches as to how you make 
decisions about remedy that provide for protection of 
groundwater and appropriate cleanup goals. I would like to sit 
down with Mr. McGaffigan to talk----
    Mr. Barton. Maybe we can give you all pistols that--for 30 
paces.
    Mr. Fields. About how we might--how we might work together 
on a--what we have suggested is a memorandum of agreement. We 
are not trying to take the lead. We believe that the Nuclear 
Regulatory Commission ought to be the lead regulator in this 
regard, and, like I said in my testimony, we believe that 90 
percent of the time, we are going to be in agreement. But we 
think that there are a few cases where we need to have some 
clear agreement as to how we will interact and how we agree on 
cleanup approaches for groundwater and overall cleanup goals. 
And we are currently in disagreement. We think that we can sit 
down and write out--develop a memorandum of agreement that 
would make clear how we resolve disputes between the two 
agencies, and that is the best way to go. And we would love to 
do that.
    Mr. Barton. But now is not it true that you all have been 
in disagreement for a number of years, that this is not----
    Mr. Fields. That is correct.
    Mr. Barton. How many----
    Mr. Fields. We have been----
    Mr. Barton. How many years to the best of your 
recollection?
    Mr. Fields. We have been--I have--we have been working on 
this for more than 2 years.
    Mr. Barton. More than 2 years. But is not it----
    Mr. Fields. In terms of----
    Mr. Barton. Is not it a point in fact----
    Mr. Fields. Trying to develop a memorandum of agreement 
that would allow us to arrive at some compromise in this area.
    Mr. Barton. Mr. Commissioner McGaffigan, how long have you 
all been in disagreement?
    Mr. McGaffigan. As best I can tell, sir, a better part of a 
decade. And you go back to----
    Mr. Barton. So you are in disagreement about how long you 
have been in disagreement?
    Mr. McGaffigan. Well, it depends how you define it. We 
provided comments to EPA about the Waste Isolation Pilot Plant 
back in around 1991.
    Mr. Barton. That was my understanding also that it--I am 
not saying Mr.----
    Mr. Fields. I am not talking about--I was not talking about 
that situation.
    Mr. McGaffigan. But it is the same fundamental issue.
    Mr. Barton. I understand. My time has expired. The Chair 
would recognize Mr. Sawyer for 5 minutes.
    Mr. Sawyer. Thank you, Mr. Chairman. Let me apologize to 
you and Mr. Shimkus for my disorderliness, as he began his 
opening statement----
    Mr. Barton. It was more Mr. Markey than you.
    Mr. Sawyer. Is not that always the case, Mr. Chairman?
    Mr. Barton. He is not here to defend himself.
    Mr. Sawyer. Let me just ask the question that the chairman 
and I were talking about on our way trying to find our hearing 
this afternoon. The whole question of the proposal in the bill 
to limit the prohibition on foreign licensure to production 
facilities is a substantial change in policy. Could you talk a 
little bit about your sense of whether or not there are 
sufficient security standards. How that can be ensured, and 
your sense of motive for making this change in the first place.
    Ms. Dicus. Certainly. The issue--the NRC, if a company, a 
foreign-owned company, had an interest in buying, for example, 
a nuclear power plant, we have currently, and we would maintain 
if there were any changes in the law, the ability to look at 
that company and to ensure that there is no reason that the 
sale of one of our facilities to a foreign-owned company would, 
in any way, endanger the security of the United States. We 
would maintain that capability and that would be part of our 
decision to say yes or no to such a transaction.
    And second, should we say yes to such a transaction and 
then we were to find some additional information, or if there 
would be some sort of change in the process that was not--it 
might be not in the best interest of the American public, we 
can revoke that license.
    Mr. Sawyer. Yes, sir.
    Ms. Dicus. You want to go further?
    Mr. McGaffigan. If I could just expand on the motivation.
    Ms. Dicus. That's good.
    Mr. McGaffigan. The restructuring of the electric power 
industry in this country, in some sense, is the motivating 
force. We looked at this provision, and we regard it as 
archaic. And I will tell you my own thought process. There are 
very sensitive facilities, from a non-proliferation 
perspective, namely the fuel cycle facilities that produce the 
fuel that goes in the reactors, that deal with vast quantities 
of special nuclear material. Those fuel cycle facilities are 
licensed under a different provision in the Atomic Energy Act. 
And it has the provision that Chairman Dicus just talked 
about--this common defense and security finding, inimicality 
finding, we call it. But almost all of those facilities are 
today owned by foreign entities--West European entities. The 
sole exception is the General Electric Company. Westinghouse 
was the most recent to be bought by a foreign entity. So we 
have made determinations under this inimicality clause that 
certainly would prevent Iraq, Iran, North Korea--any nation of 
that sort--to own any of our nuclear power plants if this 
provision were enacted.
    So it was really an effort to look at the restructuring, 
look at the global commerce. The nuclear power plants are not 
as sensitive as the fuel cycle facilities. We, indeed, have 
exported our nuclear power plant technology to all of the 
countries whose nationals I could consider possible owners--the 
Japanese, the French, the British, the Germans, et cetera. They 
build American power plants--Westinghouse or GE. So there is 
not a security issue with regard to many countries. There is a 
security issue with regard to others, but there is another 
clause that would prevent us from selling to the bad guys.
    Mr. Sawyer. Is there an economic motive behind all of this 
that--particularly with the--with restructuring, both on the 
State level and the national level impending?
    Mr. Merrifield. I am jumping in. I guess, from my 
standpoint, this is sort of a free market issue. We have--if 
you were a user of power--you are sitting at home. You get 
power flowing through the line that may come from an oil-
generated plant, a gas-generated, coal-, or nuclear. Nuclear 
power plants are the only energy-producing plants in the United 
States that cannot be bought by a foreign company. Now, the old 
test in the Atomic Energy Act, as was expounded by the two 
Commissioners, is a two-part one.
    The first one is there foreign control--this does not allow 
foreign ownership to get a controlling majority.
    The second part of the test is the inimicality, and that 
relates to either someone in the United States or someone 
outside of the United States.
    What we are saying with our proposal is we want to--in 
order to align us with the rest of the power production 
industry, we would take away the majority ownership test, but 
we could still make that inimicality determination. And we 
still have the ability to take that license away if later on, 
having given that license, we determine it is not in the 
national interest to allow that licensees to keep----
    Mr. Sawyer. Just one further. And you are assuring me that 
this has little to do with the costs that might well be 
stranded to a domestic industry and the willingness of foreign 
investors to bet on the ability to get those recovered in some 
way, even if at bargain basement prices?
    Mr. Merrifield. I do not think that--when I think of 
myself, that did not factor into my determination.
    Ms. Dicus. No, I do not think so.
    Mr. Merrifield. I mean, logically, it is very difficult to 
make--when the Atomic Energy Act was first put together, there 
were concerns about having foreigners have access to this 
technology.
    Mr. Sawyer. Sure. Sure.
    Mr. Merrifield. The nuclear industry and its technology is 
very widespread. The reason for having that distinction, that 
wall----
    Mr. Sawyer. It is simply the security distinction that no 
longer applies in your view?
    Ms. Dicus. Right.
    Mr. Merrifield. Right. Right.
    Mr. Sawyer. Thank you, Mr. Chairman.
    Mr. Barton. No one has ever accused the Congress of being 
logical, but many have said we are archaic, so that proposal 
still has problems.
    The gentleman from Kentucky, Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Fields, now I take it that you would be opposed, and 
your agency is opposed to the definitional change of federally 
permitted release that they are proposing?
    Mr. Fields. Yes.
    Mr. Whitfield. Is that correct?
    Mr. Fields. Yes, that is correct.
    Mr. Whitfield. And why are you all opposed to that?
    Mr. Fields. Well, we are concerned that this--that the 
changes that are being proposed to the cleanup provisions would 
result in certain inadequate being occurred--occurring. And we 
are proposing that the legislation not be changes to CERCLA or 
the Superfund law, but rather allow us to retain the current 
legislative language that is in the Superfund law in terms of 
defining what is a radionuclide, for example. The current 
definition in 101 defines radionuclides as hazardous air 
pollutants. Radionuclides under the clean air--are defined as a 
hazardous air pollutant under the Clean Air Act. Under the 
Superfund law, they automatically get adopted as hazardous 
substances--under the Superfund law; and therefore, come out of 
the jurisdiction of the Superfund authorities. We believe that 
that authority is appropriate for all contaminants--
radionuclides as well as non-radionuclides. And, therefore, we 
do not believe that ought to be changed. We believe that 
ought--that current legislative construct in the current 
legislation ought to be retained.
    Mr. Whitfield. Now is there any----
    Mr. Merrifield. Congressman, I am sorry. I would not mind 
responding to that if I could?
    I think there are 3 things, 3 points I want to make. First, 
you know, our mission, as it is the EPA's is to protect public 
health, safety, and the environment, so an accusation that we 
would not be able to do that in a sufficiently high caliber, 
certainly I would find that somewhat objectionable.
    Second, in comparison, we went out, and we used the best 
science available to us. We went to all of our international 
counterparts to determine what is the best way to come up with 
a standard.
    Now, there are some countries that have a somewhat 
different standard. They may go with 20 millirem, or 15 
millirem, but the one thing that we did find out, EPA, in their 
efforts to try to have a separate groundwater standard is the 
only agency in the world that calls for a separate groundwater 
standard. Each and every other international agency that 
regulates this area calls for a single standard--all pathways.
    The third point that I would make is, you know, we are 
little territorial. You know, our business is regulating 
nuclear energy and nuclear materials and protecting public 
health and safety. We have got 2,800 people in our agency who 
worry about this all day long--280 of them are Ph.D.s. And I 
would compare our record and our expertise with any portion of 
the Federal Government. I note, for example, the Office of Air 
and Radiation--the folks that they have there at EPA who worry 
about controlling radioactive issues. They have got 60 people 
and 5 Ph.D.s, and we certainly--we feel pretty fair in making 
that comparison.
    Mr. Fields. I just want to interject on that point, I did 
not address that point, but it----
    Mr. Barton. It sounds like you are out gunned; you are out 
Ph.D'd, anyway.
    Mr. Fields. Well, this is a--this is an issue that the 
position the EPA has taken on this issue, Congressman, is one 
that is not just supported by EPA, but it is the entire 
remainder of the administration, including the Department of 
Energy, for example, who regulates and manages a lot of 
radionuclide cleanups as well, so this is not just an EPA 
position on--just let me finish my comment. It is not an EPA 
position on what the appropriate protection is for cleanup of 
these radionuclide sites. This is an administration point of 
view, not shared by my colleagues in the Nuclear Regulatory 
Commission, but I assure you this is not just an EPA position.
    Mr. McGaffigan. Sir, just on that last point, I would point 
out that the DoE did try to propose a rule very similar to 
ours, and they did get a letter from EPA saying it was not 
supportive of the administration's Superfund principles. But 
the DoE would like to have adopted a rule for cleanup of its 
facilities. It was very similar, with the identical standard--
almost identical.
    Second, our rule--earlier it was talked about us riding 
roughshod over an EPA standard. We adopted our standard by 
rule. The EPA standard that we are talking about, we get in 
letters. We get in guidance documents. Senator Domenici, 
Senator Murkowski, and Senator Nickles sent a letter to the 
administration asking whether one of these guidance documents 
was a rule, and the answer was it was not. And so they are 
trying to trump our rule.
    Mr. Barton. They being?
    Mr. McGaffigan. They being the EPA, with guidance----
    Mr. Barton. You seem like such a nice guy, too.
    Mr. McGaffigan. Yes, and he is.
    Mr. Merrifield. He is a very nice guy.
    Mr. McGaffigan. Yes, and that is frustration we have. As 
Commissioner Merrifield said, we did adopt this based on the 
best science that we had available to us--a bipartisan 
commission--3 Democrats and 2 Republicans. And we are at 
loggerheads. All the EPA proposals for the MOU that has been 
talked about would read as follows: change your rule to our 
rule by MOU. I personally think that somebody would sue us if 
we did that, because we would have violated due process. Having 
adopted a rule through the proper procedure, we would undermine 
it through an MOU. So we are at loggerheads.
    Mr. Whitfield. You know the NRC said that they may be 
territorial. I assumed that the EPA would not be territorial.
    Mr. Fields. We would not be territorial.
    No, but, Congressman, if the NRC had finalized the 
regulation that they proposed, that the same great scientists 
at the NRC proposed prior to the final, we would have accepted 
that. That would have been--that we believe that rule would 
have been protective. And we said that. NRC changed their 
position between the proposal and the final rule that came out 
in 1997. The proposal was fine with EPA, but the change in 
the--from final--from proposal to final is what caused the 
problem and the concern we have today.
    Mr. Whitfield. You know, Mr. Chairman, that was not my main 
question.
    I have 2 or 3 specific questions I would like to submit to 
Ms. Dicus in writing and get answers.
    Ms. Dicus. Okay. Certainly.
    Mr. Barton. Without objection. And if you are willing to 
come back and they want to stay, you can get a second round.
    Mr. Whitfield. I may do that.
    Mr. Barton. Mr. Hall is recognized for 5 minutes, and at 
the end of Mr. Hall's 5-minute question period, we will suspend 
until approximately 4 p.m., because we have two votes on the 
floor.
    Mr. Hall.
    Mr. Hall. Mr. Chairman, we can suspend now if would like 
to. I will submit my questions in writing. I do not know what 
questions have been asked, and I hate to waste their time.
    Mr. Barton. Okay. Then we will recognize Mr. Shimkus for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, I have got a----
    Mr. Barton. He will--he--his will be the last questions.
    Mr. Shikmus. Mine will be relatively quick. Going back to 
the user fees, and, Mr. Merrifield, you mentioned that under 
the proposal that internally by charging the other agencies, 
that is how you could make up some of the shortfall, was that 
correct?
    Those who benefit from the NRC?
    Ms. Merrifield. Right. Right now, we believe we have about 
$2.8 million worth of services that we provide to the Army, the 
Air Force, DoE--we should be able to get from them.
    Ms. Shimkus. Right. Okay. Let me--let me try to get this 
shorter. Okay, what about externally? Do you provide services 
to people or agencies or nations outside----
    Mr. Merrifield. Well, we have--we have, you know, we 
regulate non-profit educational institutions, for example. The 
non-profits, they do not have the same kind of taxing 
structure, because we have to have 100 percent----
    Mr. Shimkus. But could we then also offset some of the cost 
by charging those who are receiving benefits from your 
services?
    Mr. Merrifield. In that particular case, I am not certain 
whether Congress would want to impose, in effect, a tax or 
fee----
    Mr. Shimkus. Well, what about internal, are we providing 
any assistance outside the United States?
    Mr. Merrifield. Chairman?
    Mr. Shimkus. To other countries?
    Ms. Dicus. Yes, we do have an international program and we 
do provide assistance. Some of that funding is provided to us 
through AID, the Agency for International Development, and 
through some other things. Some of it, some of our 
international programs is paid off the fee base, which would be 
one of the programs that might best benefit from the general 
funds.
    One of our major programs is the Agreement State program, 
and that is the most costly one coming out the fee base for 
support to the Agreement States, in addition to oversight of 
the Agreement States.
    Mr. Merrifield. And we believe that those are valuable 
programs that benefit all American people, and for that reason, 
we think it ought to be paid for by the general fund.
    Mr. Shimkus. And there will be a conflict obviously with 
budgetary principles, but I wanted to get those answered.
    Thank you, Mr. Chairman.
    Mr. Barton. The--does Mr. Ehrlich wish to ask a full round 
of questions?
    Mr. Ehrlich. Mr. Chairman, I may ask a full round of 
questions, but I would like to submit those questions----
    Mr. Barton. For the record. Okay.
    Mr. Ehrlich. Yes, sir.
    Mr. Barton. Okay, the gentleman----
    Mr. Ehrlich. I appreciate it.
    Mr. Barton. From North Carolina.
    Mr. Burr. Just for one question, Mr. Chairman, because I 
did get in on the tail end as well. Mr. Fields, is--are--is the 
science at EPA that much better than the science at NRC?
    Mr. Fields. We believe----
    Mr. Burr. Or is the science the same, and you just have a 
policy difference?
    Mr. Fields. I am sure that the Nuclear Regulatory 
Commission has great scientists working for them. I think we 
have good scientists working for us. We have a science advisory 
board that works for EPA that coordinates science that is used 
at EPA----
    Mr. Burr. What would your scientists say if they looked at 
their scientists' information?
    Mr. Fields. That would be an interesting question to say. 
All I can say is that the--our scientists have supported our 
position, the policy position we have taken, on groundwater 
cleanups and what is a protective cleanup within the risk 
range. I will be happy to have our----
    Mr. Burr. A key word in there, and I hope----
    Mr. Fields. Scientists take a look at the background 
documents that support NRC's science, and see what they say.
    Mr. Burr. Hope, a key word in there, and I would hope that 
you would do that. Your scientists have supported your policy 
decision, not your--necessarily the science behind what you are 
after, and I am--and that is a very, very important difference 
that you and the EPA need to realize in this difference that 
the two parties have. I would yield back.
    Mr. Barton. We are going to suspend until a little before 4 
p.m. We have got two votes. I am going to go ahead and 
officially let this panel go. There is going to be lots of 
questions that people want to put into the--submit to you for 
the record, and then we will be involved at the personal level 
and the staff level in working through your proposal. If you 
all wish to stay, and other members come back and want to ask--
if you are willing to come back to the table, that is a little 
irregular, and, as high-powered administration appointees, you 
do not--you will not be required to do that--but, you know, if 
you are going to stay anyway, that we might could get some 
questions from some of the people that are not here right now.
    But we appreciate the--this panel and you are officially 
relieved of duties. So if you need to go back to your offices, 
you can do that. We will come back in a little before 4 p.m.
    Ms. Dicus. Okay.
    Mr. Barton. For the second panel.
    Ms. Dicus. Thank you.
    [Brief recess.]
    Mr. Barton. The subcommittee will come back to order.
    We now want to hear from our second panel. We have Mr. 
Ralph Beedle, who is the Senior Vice President and Chief 
Nuclear Officer for the Nuclear Energy Institute, and we also 
have Mr. David Adelman, who is the project attorney for the 
Natural Resources Defense Council in New York, but his office 
is here in Washington, DC, I think.
    We are going to put your entire statements in the record. 
We will recognize you, Mr. Beedle, for 5 minutes, and then we 
will recognize Mr. Adelman for 5 minutes. And then, Mr. Burr 
and I will have some questions and hopefully some of the 
Democrats will also be back and have some questions.
    So welcome to the committee.

  STATEMENTS OF RALPH BEEDLE, SENIOR VICE PRESIDENT AND CHIEF 
    NUCLEAR OFFICER, NUCLEAR ENERGY INSTITUTE; AND DAVID E. 
  ADELMAN, PROJECT ATTORNEY, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Beedle. Thank you very much, Chairman Barton and member 
of the committee.
    I am the Chief Nuclear Officer for the Nuclear Energy 
Institute and a Senior Vice President for that organization. 
NEI is the policy setting organization for the U.S. nuclear 
energy industry. We represent more than 275 member 
organizations worldwide, including every U.S. nuclear utility, 
suppliers, fuel cycle companies, engineering and consulting 
firms, radiopharmaceutical laboratories, universities, and 
labor unions.
    Nuclear power plants produce nearly 20 percent of the 
Nation's electricity and provide the largest source of emission 
free energy in the United States. This energy source must be 
sustained to meet the energy, economic, and environmental 
protection demands of the 21st century.
    U.S. nuclear energy has built a solid record of safe, 
efficient performance at the Nation's 103 nuclear power 
reactors, making it a global leader in the advanced nuclear 
power technology. The industry continues to be committed to 
safe nuclear plant operation, and must be accompanied--and that 
must be accompanied by the Nuclear Regulatory Commission 
ability to fulfill its mission for a strong and credible 
regulator.
    Electric utilities continue to transition to a competitive 
electricity market, and the NRC must improve its efficiency and 
effectiveness in its regulations.
    In the past year, the Nuclear Regulatory Commissioners and 
staff have taken initial steps toward meaningful regulatory 
reform. The industry applauds the agency's demonstrations that 
difficult issues can be resolved, and important decisions made 
in an efficient and timely manner. It is important that 
Congress understand and continue to provide ongoing oversight 
of and support for the Nuclear Regulatory Commission in its 
transition to a regulatory process that uses risk insights to 
focus resources on those areas most important to maintaining 
the high standards of safety.
    The task at hand is sustaining the effort that the 
Commission started last year. This transition is an objective, 
safety-focused regulatory process that will require a view of 
statutory provisions, some of which are no longer relevant.
    Specifically, I would like to expand on three points that 
the industry believes merit congressional attention.
    First, the cost of NRC programs that are not directly 
related to the regulation of NRC licensees should not be paid 
for by licensees. This was the issue that Congressman Burr 
raised earlier. Examples of these programs are the 
international activities, work in support of Federal agencies, 
and NRC Agreement States. This committee last year, in a report 
on H.R. 3532, stated and I quote: ``the NRC utilizes annual 
charges assessed against licensees to cover the cost of 
administering programs that do not directly relate to the 
regulation of or provide a direct benefit to these licensees.''
    In fact, the NRC itself has recommended, as you have been 
told earlier, that this be deleted from their budgeting 
process, but that was overturned by the Office of Management 
and Budget.
    This committee, in reauthorizing the NRC, should remove 
these items from the user fee base.
    The second item is that the NRC must develop a long-range 
strategic plan for regulatory reform and continue its 
transition to a nuclear plant oversight process that focuses 
resources on those areas most important to maintaining safety.
    And the third, the industry does, indeed, support the NRC's 
legislative proposals contained in H.R. 3521. Of particular 
importance is the designation of the NRC's residual radiation 
standard as the sole requirement for NRC license facilities for 
the cleanup of radioactive materials. Congress also should 
approve proposals to allow foreign ownership of the commercial 
nuclear power plants and eliminate the need for the NRC to 
conduct anti-trust reviews.
    We recommend that an additional provision be considered, 
one that would provide the NRC with the flexibility to redefine 
its organizational structure. The agency is currently 
restrained from doing so by the Atomic Energy Act of 1954 and 
the Energy Reorganization Act of 1974, which require that the 
NRC establish and maintain specific offices and functions. The 
industry believes that the NRC is in the best position to 
determine the organizational arrangements that will enable it 
to fulfill its mandate to assure public health and safety.
    Mr. Chairman, continued oversight of the NRC by this 
subcommittee is important to ensure that the necessary steps 
toward the broad reform of the agency are being taken in a 
comprehensive and timely manner. The NRC has made tremendous 
progress during the past year, but it must establish a long-
term vision and work plan for making the regulatory framework 
of the commercial nuclear energy industry risk-informed and 
performance-based and focused on those areas that are most 
important to protect the public health and safety.
    Mr. Chairman, I want to thank the subcommittee for the 
opportunity to present the views of the industry and welcome 
any questions that members might have.
    [The prepared statement of Ralph Beedle follows:]
 Prepared Statement of Ralph Beedle, Chief Nuclear Officer and Senior 
                Vice President, Nuclear Energy Institute
    Chairman Barton, Ranking Member Hall and members of the 
subcommittee, my name is Ralph Beedle. I am chief nuclear officer and 
senior vice president of the Nuclear Energy Institute. The Institute is 
the Washington-based policy organization for the U.S. nuclear energy 
industry and more than 275 members in nuclear-related fields. In 
addition to representing every U.S. utility that operates a nuclear 
power plant, NEI's membership includes nuclear fuel cycle companies, 
suppliers, engineering and consulting firms, national research 
laboratories, manufacturers of radiopharmaceuticals, universities, 
labor unions and law firms.
    Nuclear power plants produce nearly 20 percent of the nation's 
electricity and provide the largest source of emission-free energy in 
the United States. Unlike any other electric generation source, nuclear 
power is unique because the costs of the entire electricity production 
lifecycle--including the uranium fuel manufacturing process, NRC 
regulation, waste management and plant decommissioning--are included in 
the electricity cost to consumers. Nuclear energy's clean air benefits 
are affordably priced, with production costs that are a fraction of a 
cent more than production costs of coal-fired electricity and that are 
significantly less than natural gas, oil, solar or wind power.
    The U.S. nuclear energy industry has built an exceptional record of 
safe, efficient performance at nuclear power plants, making it the 
global leader in advanced nuclear power technology. And as the nation's 
electricity demands grows as a result of a robust economy and the 
expansion of sectors such as information technology, the importance of 
nuclear generation will increase. Increasingly stringent U.S. clean air 
regulations and international carbon dioxide reduction goals also will 
underscore the importance of nuclear energy.
    But the industry's continued safe and efficient nuclear plant 
operation must be accompanied by the Nuclear Regulatory Commission's 
ability to fulfill its mission as a strong, credible regulator. As 
utilities continue to make the transition to a competitive electricity 
market, the NRC must seek to maintain public trust and confidence in 
the safety of nuclear energy while improving the efficiency and 
effectiveness of its regulations.
    Not surprisingly, the transition to an objective, safety-focused 
regulatory process will require a review of statutory provisions are no 
longer relevant in the evolving regulatory environment and as extensive 
operating experience has been gained at the nation's 103 nuclear power 
plants.
    The Institute fully supports the NRC's legislative proposals 
contained in H.R. 3521. I would like to expand on three nuclear 
regulatory issues that the industry supports--some of which are 
contained in NRC's proposal--and that are significant enough to merit 
congressional attention:

<bullet> The cost of NRC programs that are not directly related to 
        regulating NRC licensees should not be included in user fees 
        assessed to those licensees;
<bullet> The need for NRC to develop a long-term plan for reforming 
        regulatory procedures and to continue its transition to a 
        regulatory culture that draws on 30 years of regulatory and 
        industry experience and lessons learned;
<bullet> The industry supports NRC's legislative proposals detailed in 
        Title II of H.R. 3521. Of particular importance to the nuclear 
        industry is the designation of NRC standards for residual 
        radiation as the sole requirement for the radiological cleanup 
        of Atomic Energy Act material at NRC-licensed facilities as 
        well as the proposals to allow foreign ownership of nuclear 
        plants and to eliminate antitrust reviews conducted by the NRC. 
        In addition to the NRC proposals mentioned above, the industry 
        believes Congress should grant the NRC greater management 
        flexibility by eliminating Atomic Energy Act requirements so 
        that NRC may reorganize its staff and programs amid the 
        agency's transition to objective, safety-focused regulatory 
        practices.
Adjusting NRC's User Fee
    For the past nine years, the NRC has submitted a budget that is 
essentially fully funded through user fees collected from its 
licensees. Last year, Congress approved a single-year extension to the 
NRC's authority to collect this 100-percent user fee. The agency's user 
fee initially was set at 33 percent of NRC's budget. However, Congress, 
as part of the Omnibus Budget Reconciliation Act of 1990, required the 
agency to recover approximately 100 percent of its budget authority by 
assessing annual fees upon NRC licensees.
    Under the 1990 law, NRC licensees must pay for the cost of NRC 
activities devoted to regulation. However, some of NRC's activities are 
unrelated to the regulation of nuclear power plants. Among the 
unrelated programs for which licensees should not bear the costs are: 
international activities; oversight of agreement states; license review 
work for other federal agencies; fee reductions to subsidize nonprofit 
educational institutions and small entities; decommissioning management 
and reclamation activities; and other generic activities. These 
activities, totaling approximately $50 million annually, should be 
removed from the user fee. If these activities are required, they are 
more appropriately financed with general revenues.
    This recommendation is not a new concept. Last year, this 
committee, in its report on H.R. 3532, stated that ``the NRC utilizes 
annual charges assessed against licensees to cover the costs of 
administering programs which do not directly relate to the regulation 
of, nor provide a direct benefit to, these licensees.'' <SUP>1</SUP> 
The Senate Environment and Public Works Committee agreed and in its 
1998 report accompanying S. 2090, stated that the ``concerns about fair 
and equitable assessment of fees continue to be relevant today.'' 
<SUP>2</SUP> That committee concluded that ``the cost of such 
activities should not be recovered through fee collection, but rather 
through direct appropriation.''
---------------------------------------------------------------------------
    \1\ Report No. 105-680 to accompany H.R. 3532, August 6, 1998.
    \2\ Report No. 105-223 to accompany S. 2090, June 25, 1998.
---------------------------------------------------------------------------
    Congressional appropriators are well aware of the legitimacy of 
these arguments. Just last week, the House Appropriations Subcommittee 
on Energy and Water urged the NRC and the White House to remove these 
expenditures from user fees to licensees. Meanwhile, the Senate 
Appropriations Committee last year appropriated $33 million from 
general revenues to pay for several NRC programs. That provision, 
however, later was dropped.
    Even the NRC is in agreement on this matter. A 1994 report from the 
NRC Inspector General concluded that NRC's existing user fee should be 
adjusted to ``minimize licensees' major concerns about fairness, equity 
and the administrative burden of fees.''<SUP>3</SUP> The trade press 
reported that the NRC's fiscal year 2000 budget recommendation to the 
Office of Management and Budget included a proposal that these programs 
be supported by general revenues, not user fees.<SUP>4</SUP> OMB was 
reported to have overruled this proposal.
---------------------------------------------------------------------------
    \3\ Report to the Congress on the U.S. Nuclear Regulatory 
Commission's Licensee Fee Policy Review, February 1994.
    \4\ ``OMB Rejects NRC Efforts To Remove Generic Activities From Fee 
Base,'' Inside N.R.C., March 1, 1999.
---------------------------------------------------------------------------
    In addition, the NRC has, in our view, failed to meet the 
requirement that user fees ``to the maximum extent possible have a 
reasonable relationship to the cost'' of the services being rendered. 
Nearly 80 percent of the user fee is collected as a generic assessment 
levied against NRC licensees; the remainder is levied for discrete 
services. The NRC has, in effect, created a ``miscellaneous'' category 
that encompasses most of its budget. This practice is not only contrary 
to sound and accountable budgeting, but also counter to congressional 
mandates.
    Mr. Chairman, authorizers, appropriators, regulators and the 
industry alike agree that the user fee should be adjusted to eliminate 
approximately $50 million in unrelated fees. This subcommittee, given 
its jurisdiction on this issue, is the appropriate body to authorize 
the user fee adjustment and recommend the NRC institute more 
accountable budget practices.
NRC Reform Focuses on Issues Most Important To Safety
    The NRC deserves recognition for taking initial, positive steps 
toward regulatory reform based upon the industry's improved safety 
performance and efficiency gains during the past three decades. 
Specifically, the new power reactor oversight process that is being 
tested at nine pilot plants should focus NRC and industry resources on 
matters most important to safety. Under the new process, NRC 
inspections, plant assessments and enforcement actions will have a 
greater safety focus than in the past. Additionally, the NRC has 
applied insights from probabilistic risk analyses to adjust 
requirements in the areas of in-service testing, in-service inspection, 
quality assurance and plant technical specifications.
    Although real progress has been made, the improved safety focus 
applied in the aforementioned activities needs to be incorporated 
throughout NRC regulation and agency processes for overseeing the 
industry. This measure is necessary to ensure consistency across 
requirements and processes and to best utilize NRC and industry 
resources.
    In addition, NRC's reform effort must be sustained and its gains 
must be tangible. Change is a difficult, sometimes slow process. To 
ensure the NRC's continued success in this endeavor, the agency should, 
at this subcommittee's request, formulate a multi-year blueprint that 
provides a detailed set of key planning assumptions and measurable 
goals to be met as part of its effort to become a more safety-focused 
and performance based body. This multi-year blueprint should serve as a 
living document that is updated annually.
    Specifically, the subcommittee should urge the NRC to develop and 
implement a long-range strategy to include the following principles:

<bullet> a safety-focused regulatory framework that incorporates risk 
        insights;
<bullet> an efficient and accountable regulatory agency;
<bullet> an integrated NRC strategy for achieving the objectives of 
        regulatory reform;
<bullet> a specific timetable and milestones to ensure the NRC's long-
        range plan is implemented on schedule; and
<bullet> staff resources and a fully accountable budget that supports 
        fundamental NRC reform while focusing on significant regulatory 
        activities for the future, such as license renewal.
    In addition, this multi-year plan should include an annual 
accounting of meaningful NRC objectives with measurable results. It 
also should recognize improved plant safety and performance and account 
for new demands on the regulatory process as a result of the transition 
to a competitive electricity market.
    The industry recommends that this subcommittee request annual and 
multi-year reports from the NRC documenting its progress in 
implementing regulatory reform with an attainable budgeting process.
Industry Supports NRC's Legislative Proposals
    Mr. Chairman, the NEI supports the 11 legislative proposals the NRC 
submitted to Congress under Title II of H.R. 3521. Although most of the 
proposals pertain to procedural measures, three deserve a more detailed 
explanation.
    First, this subcommittee is uniquely positioned to resolve the 
impasse between the NRC and the Environmental Protection Agency in 
setting radiation cleanup standards for NRC-licensed facilities. This 
duplicative regulation exists in many areas, but is most apparent in 
establishing residual radiation standards for the remediation of 
radioactive materials at NRC-licensed sites.
    Resolving this impasse is particularly important at sites where 
nuclear plants closed and are in the process of being torn down. The 
NRC has set a radiation cleanup standard based on sound science and 
experience that fully protects public safety and the environment. 
Because the EPA has traditionally followed a significantly different 
radiation standard compared to the NRC. In fact, the EPA has threatened 
to intervene at sites once the NRC has determined that radiation 
standards will be met and has withdrawn its own regulatory oversight of 
the property. Therefore, decommissioned sites face contradictory dual 
federal regulation regarding the same issue.
    The NRC implemented a 1997 rule for license termination that 
insures full protection of public health and safety through a 
comprehensive radiation protection program based on limiting the total 
radiation exposure to the public. The NRC issued its rule after four 
years of thorough scientific study and extensive public input including 
more than 7,000 comments from the scientific and professional 
community, state, tribal and local governments, environmental groups 
and NRC licensees. The EPA was an active participant in the NRC's 
process. The NRC has used its rule to successfully decommission more 
than 70 sites.
    The EPA's continued efforts to develop a radiation standard and to 
ignore the NRC standard inappropriately focuses resources on a 
bureaucratic stalemate. This effort detracts from the primary mission 
of safe and effective site cleanup. It violates the Clinton 
Administration's 1993 Executive Order that restricts federal agencies 
from creating duplicative regulations that result in an unreasonable 
expense to the American people. The EPA's guidance is inconsistent with 
the NRC's deliberate, scientific approach to decommissioning standards 
for nuclear power plants.
    The second NRC proposal is a shared goal of the nuclear energy 
industry--to improve the efficiency of the nuclear regulatory process 
by eliminating statutory requirements that the NRC conduct antitrust 
reviews while preserving NRC authority on existing antitrust license 
conditions.
    Section 105c of the Atomic Energy Act affords the NRC broad 
authority to conduct antitrust reviews when power plant licenses are 
issued. Under that authority, the operating licenses of 34 commercial 
nuclear power plants contain antitrust provisions. As the industry 
moves forward in a competitive market, utilities will be making 
decisions regarding restructuring of their companies that the NRC may 
conclude have potential antitrust implications. These decisions could 
become subject to antitrust reviews by the NRC under Section 105c. Yet 
Congress has given other federal agencies comprehensive responsibility 
to enforce antitrust laws affecting electric utilities. For example, 
the Justice Department, the Federal Trade Commission, the SEC and state 
governmental agencies all will examine restructuring decisions for 
potential antitrust issues.
    As such, Section 105c no longer serves a valid purpose and should 
be rescinded. Instead, the NRC should focus its resources on its 
fundamental mission of protecting public health and safety. Although 
the industry recommends that section 105c be repealed, sections 105a 
and 105b continue to serve valid purposes. Section 105a clarifies that 
federal antitrust laws apply to NRC licensees, and section 105b 
requires the NRC to report to the U.S. attorney general any information 
that might represent a violation of antitrust laws.
    The third NRC proposal concerns the Atomic Energy Act's restriction 
on foreign ownership of U.S. commercial nuclear power plants. This 
provision seems somewhat of anachronism because of the global political 
and worldwide economic changes that have occurred since the passage of 
the Atomic Energy Act. The statute prohibits the NRC from issuing a 
commercial reactor license to a foreign entity; to any entity which is 
owned, controlled, or dominated by a foreign entity; or if the NRC 
determines that license issuance would be ``inimicable to the common 
defense and security'' of the United States. The subcommittee should 
eliminate this outdated provision, as recommended by the NRC and the 
industry.
    The Atomic Energy Act's foreign ownership provisions were drafted 
at the infancy of the nuclear age, when the United States had good 
reason to restrict access to nuclear technology by prohibiting foreign 
ownership of U.S. facilities. Times have changed and prohibiting 
foreign ownership of commercial facilities by U.S. allies no longer 
makes sense. In fact, the prohibition on foreign ownership eliminates 
sources of investment capital and operating expertise that we should be 
encouraging, not discouraging. Therefore, the industry agrees with the 
NRC that the statute should be amended to remove the prohibition on 
foreign ownership and to reflect the new global business environment, 
where large capital-intensive projects are routinely developed by 
multi-national corporations and financed through international credit 
markets. The amendment should, however, preserve the NRC's authority to 
take all steps necessary to protect the common defense and security of 
the United States.
    In addition to the NRC proposals mentioned above, the industry 
believes Congress should grant the NRC greater latitude to reorganize 
its staff and programs amid the agency's transition to a new, 
streamlined approach regulatory practices. Currently, the NRC is 
restrained from doing so by a statutory relic. The Atomic Energy Act of 
1954, as amended, and the Energy Reorganization Act of 1974 require the 
NRC to establish specific offices and functions.
    The industry believes the NRC is best positioned to determine what 
organizational arrangement will enable it to fulfill its legal mandate 
to protect public health and safety and the common defense and security 
associated with the use of nuclear materials. In our view, Congress 
should not mandate the NRC's organizational structure. Those 
requirements merely create an unwarranted burden for the agency and 
should be repealed by this subcommittee.
Conclusion
    In summary, Mr. Chairman, the industry supports most of NRC's 
legislative amendments, including the agency's objectives to enhance 
security at NRC-licensed facilities, to eliminate restrictions on 
foreign ownership of power reactors and research reactors and to 
eliminate NRC's antitrust review authority for pending or new 
applications for a license to construct or operate a nuclear plant.
    The industry also looks to this subcommittee to adopt authorizing 
language that would accomplish the following goals:

<bullet> The reauthorization of the NRC's user fee in a manner that 
        does not require NRC licensees to pay for programs that do not 
        directly benefit them;
<bullet> The NRC's submission to Congress of a long-term blueprint for 
        regulatory reform that provides measurable objectives and 
        anticipated results. This strategic plan would serve as a 
        valuable resource for stakeholders involved and affected by 
        NRC's reform efforts;
<bullet> The industry supports NRC's legislative proposals detailed in 
        Title II of H.R. 3521. Of particular importance to the nuclear 
        industry is the designation of NRC standards for residual 
        radiation as the sole requirement for the radiological cleanup 
        of Atomic Energy Act material at NRC-licensed facilities as 
        well as the proposals to allow foreign ownership of nuclear 
        plants and to eliminate antitrust reviews conducted by the NRC. 
        In addition to the NRC proposals mentioned above, the industry 
        believes Congress should grant the NRC greater latitude by 
        eliminating Atomic Energy Act requirements so that the NRC can 
        reorganize its staff and programs amid the agency's transition 
        to a new, streamlined approach regulatory practices.
<bullet> The elimination of impediments to NRC's reform, including 
        language in the Atomic Energy Act of 1954 and the Energy 
        Reauthorization Act of 1974 that prevent the NRC from 
        determining its own organizational structure.

    Mr. Barton. Thank you, Mr. Beedle. Mr. Adelman.

                 STATEMENT OF DAVID E. ADELMAN

    Mr. Adelman. First, I would like to thank the committee for 
giving me the opportunity to speak today. My testimony will 
focus on two issues. First, the Army Corps of Engineers 
implementation of the formerly utilized----
    Mr. Barton. Pull the microphone up a little bit closer. 
Thank you, sir.
    Mr. Adelman. My testimony will address two issues. First, 
the Army Corps of Engineers implementation of the formerly 
utilized Site Remediation Action Program, or FUSRAP. NRDC is 
specifically concerned about the disposal of radioactive 
materials at unlicensed facilities. NRDC opposes this based on 
policy, legal, and technical grounds.
    The second issue I will address concerns the two amendments 
proposed to the Superfund law, where NRC facilities would be 
exempt from Superfund actions if they were closed according to 
NRC regulations. NRDC strongly opposes this, based both on 
policy and technical bases.
    The FUSRAP program began in 1974 to clean out Manhattan 
Project sites, and involves removing and disposing of large 
quantities of radioactive waste. The Army Corps of Engineers 
decision to dispose of some of that material in unlicensed 
facilities is based on a highly formalistic argument that 
Uranium Mill Tailings Act of 1978 does not apply retroactively. 
In other words, that it does not apply to radioactive waste 
generated prior to passage of the Act in November 1978. This is 
a classic instance of form over substance.
    As a basic matter of public policy, regulation of 
radioactive materials should not be contingent on the date on 
which it was generated. In the 1978 Act, Congress adopted a new 
definition of radioactive byproduct material to extend NRC's 
regulatory authority over all radioactive waste generated in 
the course of the nuclear fuel cycle. The statute refers to 
active and inactive sites. It is implicit in these references 
that Congress' intent--that the Act applied to pre-1978 waste.
    Furthermore, in the leading case, Kerr-McGee, the court 
found that the purpose of the 1978 Act was to close the 
regulatory gap. Prior to 1978, uranium and thorium mill 
tailings and byproduct materials from their processing was not 
regulated.
    Congress' intent was to ensure that these materials were 
properly handled and disposed of in an environmentally sound 
manner.
    Disposing of radioactively contaminated waste in hazardous 
waste facility raises significant environmental concerns.
    First, it circumvents public participation processes that 
are part of NRC licensing.
    Second, it poses potentially significant risks to 
groundwater, as RCRA does not regulate radioactively 
contaminated wastes.
    Third, worker health and safety regulations do not address 
risks associated with radioactive materials.
    And fourth, hazardous disposal sites are not constructed to 
contain long-lived radioactive contaminants. In other words, 
this represents a significant erosion of radioactive waste 
disposal standards.
    Although NRDC maintains that the 1978 Act is clear, the 
policy of NRC and the Corps requires Congress to clarify the 
statute to state explicitly that it also applies to radioactive 
waste generate prior to 1978.
    The second issue I want to address are the two proposed 
amendments to Superfund exempting NRC license facilities from 
Superfund actions once their license is properly terminated.
    The proposed amendment single out NRC license facilities 
for exemption from Superfund. Accordingly, the burden should be 
on the proponents to demonstrate why releases of radioactive 
contaminants from these facilities should receive this special 
treatment. From a technical perspective, this is not 
justifiable. Cleanup of radioactive materials relies on the 
same technologies and raises the same environmental concerns, 
such as groundwater and surface waters, that cleanup of 
hazardous waste prevent.
    Once a site license terminates, EPA is the regulating 
authority. Eliminating Superfund actions removes EPA's primary 
vehicle for addressing environmental releases. This is of 
particular concern because NRC relies on a global site 
standard. As a result, a release could comply with the NRC 
standard, but violate Safe Drinking Water Act regulations. 
Accordingly, EPA must have authority to protect critical 
groundwater resources.
    NRDC urges the committee to reject the proposed amendments 
to Superfund.
    [The prepared statement of David E. Adelman follows:]
   Prepared Statement of David E. Adelman, Project Attorney, Nuclear 
               Program, Natural Resources Defense Council
    Chairman Bliley and Members of the Committee, I appreciate this 
opportunity to appear before you today to discuss certain aspects of 
H.R. 2531, a bill authorizing appropriations for the Nuclear Regulatory 
Commission (``NRC''). My comments will focus on two issues: (1) NRC 
oversight of the implementation by the U.S. Army Corps of Engineers' 
(``USACE'') of the Formerly Utilized Sites Remedial Action Program 
(``FUSRAP''); and (2) the proposed amendments to the Comprehensive 
Environmental Response, Compensation and Liability Act, (``CERCLA'' or 
``Superfund''), 42 U.S.C. Sec. 9601 et seq., which would effectively 
exempt from CERCLA all NRC-licensed facilities once their license is 
properly terminated.
    The Natural Resources Defense Council, Inc. (``NRDC'') is a 
national non- profit membership environmental organization with offices 
in Washington, D.C., New York City, San Francisco and Los Angeles. NRDC 
has a nationwide membership of approximately 450,000 individuals. 
NRDC's activities include maintaining and enhancing environmental 
quality and monitoring federal agency actions to ensure that federal 
statutes enacted to protect human health and the environment are fully 
and properly implemented. Since its inception in 1970, NRDC has sought 
to improve the environmental, health, and safety conditions at and 
surrounding nuclear facilities operated by Department of Energy 
(``DOE'') and its predecessor agencies and the commercial nuclear 
sector.
                i. implementation of the fusrap program
    FUSRAP provides for the clean-up and disposal of radioactive 
materials at various industrial facilities around the country that once 
performed work as part of the Manhattan Project and other early 
activities of the Atomic Energy Commission. DOE began implementation of 
FUSRAP in 1974, when it was recognized that a number of industrial 
sites associated with nuclear weapons and energy programs during the 
1940s, 1950s, and 1960s contained substantial levels of radioactive 
contamination (primarily uranium and thorium).
    According to DOE, a total of 46 sites have been identified for 
cleanup under FUSRAP. By 1997, cleanup had been completed at 25 of 
these sites. There are thus 21 remaining sites to be cleaned up under 
the program, located in Connecticut, Illinois, Maryland, Massachusetts, 
Missouri, New Jersey, New York and Ohio. The cleanup work under FUSRAP 
consists primarily of the treatment or removal of soil and other 
substances containing radioactive ``byproduct material,'' as defined in 
Atomic Energy Act (``AEA''), 42 U.S.C. Sec. 2014(e).
A. Congress' Transfer of Responsibility for The FUSRAP Program to USACE
    On October 13, 1997, Congress transferred administration of FUSRAP 
from DOE to USACE in the 1998 Energy and Water Development 
Appropriations Act, Pub. L. No. 105-62. Subsequently, in the Energy and 
Water Development Appropriations Act of 1999, Congress affirmed USACE's 
responsibility for and provided funding for FUSRAP. At this time, 
Congress also clarified two issues: (1) USACE's implementation of 
FUSRAP was ``subject to the administrative, procedural, and regulatory 
provisions'' of CERCLA and the National Oil and Hazardous Substances 
Pollution Contingency Plan, 40 C.F.R. Part 300; and (2) ``. . . except 
as stated herein, these provisions do not alter, curtail or limit the 
authorities, functions or responsibilities of other agencies under the 
Atomic Energy Act . . .''
    USACE, however, does not have authority to handle the radioactive 
materials involved in implementing FUSRAP. According to a letter to the 
Secretaries of Energy and Defense from Senator Pete V. Domenici and 
Representative Joseph M. McDade, the Chairmen of the Senate and House 
Subcommittees on Energy and Water Development, the transfer of budget 
authority over FUSRAP to USACE was not intended to affect DOE's 
regulatory authority over the program. Instead, Congress apparently 
expected ``that basic underlying authorities for the program [would] 
remain unaltered and the responsibility of DOE.'' <SUP>1</SUP> There is 
nothing in the Act to suggest a contrary result; the text does not 
grant USACE anything beyond budget authority over FUSRAP.
---------------------------------------------------------------------------
    \1\ Letter dated November 6, 1997 from Senator Pete V. Domenici and 
Representative Joseph M. McDade to Secretary of Energy Federico Pena 
and Secretary of Defense William S. Cohen.
---------------------------------------------------------------------------
    DOE maintains that ``[t]he [FUSRAP] transfer legislation did not 
make the Corps a DOE contractor, or otherwise subject the Corps' 
activities to the control or direction of DOE.'' <SUP>2</SUP> Further, 
while DOE defers to NRC to determine whether USACE is required to 
obtain an NRC license, the Department has stated that NRC ``should 
evaluate the licensability of the Corps' activities in the same manner 
as it would evaluate the activities of any other ``person'' within the 
meaning of the Atomic Energy Act.''
---------------------------------------------------------------------------
    \2\ Letter dated January 14, 1999, from William J. Dennison, 
Assistant General Counsel for Environment at DOE, to John T. Greeves, 
Office of Waste Management at NRC.
---------------------------------------------------------------------------
    DOE has also questioned whether USACE could rely solely on CERCLA 
authority to avoid NRC oversight. Specifically, CERCLA exempts most 
cleanup activities from federal, state, or local licensing 
requirements, 42 U.S.C. Sec. 9621(e); although, as NRC and USACE 
concede, this exemption applies only to activities at the cleanup site 
(i.e., not off-site shipments or disposal). Despite the unique 
challenges posed by environmental cleanups involving radioactive 
materials and USACE's lack of regulatory authority--or regulations--to 
handle radioactive materials, both NRC and USACE have invoked the 
CERCLA exemption to shield USACE from the AEA requirement that it 
obtain an NRC license.
    This is a profound problem for two reasons. First, the NRC has as 
its fundamental goal the safety and security of the nation's nuclear 
activities. The same cannot be said of USACE. Its institutional mission 
is, by design, focused on other matters. Certainly it must be 
acknowledged that the army's record of handling nuclear and other 
hazardous wastes is not good.<SUP>3</SUP> The dangers posed by the 
handling of radioactive waste counsel strongly in favor of NRC 
licensing of the FUSRAP program as administered by USACE. The numerous 
matters implicated by USACE's unregulated handling of FUSRAP wastes, 
including worker protection, cleanup standards, property rights and 
long term liability, can only benefit from NRC oversight.
---------------------------------------------------------------------------
    \3\ These fears have been born out at one of the sites in North 
Tonawanda, New York, where USACE has proposed a cleanup standard that 
is ten times weaker than that proposed by DOE when it was implementing 
the cleanup. To reduce costs, USACE is relying on substantially relaxed 
cleanup standards.
---------------------------------------------------------------------------
    Second, and more fundamentally, the laws governing the utilization 
and cleanup of nuclear materials are simply too important to allow them 
to be ignored. In recognition of the highly technical nature of 
radioactive materials and of the extreme dangers they pose, Congress 
reposed responsibility for the administration of those laws in the NRC 
and, to a lesser extent, DOE. In short, an environmental cleanup action 
involving radioactive materials is not your typical Superfund project, 
particularly where as here the contaminants remain hazardous for many 
thousands of years.
    Congress has commanded that, with very few exceptions, no agencies 
other than DOE be permitted to handle nuclear materials except in 
accordance with a license issued by the NRC. To now allow USACE to 
handle the radioactive materials associated with FUSRAP cleanups 
without licensing and oversight by the NRC flouts Congressional intent. 
Accordingly, as part of the transfer of authority over FUSRAP to USACE, 
Congress should require that it first obtain a license from the NRC.
B. Off-Site Disposal of FUSRAP Radioactive Wastes at Unlicensed 
        Facilities
    USACE's disposal of radioactive waste at the Safety-Kleen facility 
in Buttonwillow, California, which is not licensed by the NRC, has 
generated substantial public, state, and Congressional attention. More 
than 2,200 tons, or about 83 rail cars, of radioactive waste from a 
site in northern New York state was disposed at the Safety-Kleen 
facility, which is permitted under Part C of the Resources Conservation 
Recovery Act (``RCRA''), 42 U.S.C. Sec. Sec. 6901 et seq., but neither 
designed nor permitted to dispose of radioactive wastes. In addition, 
USACE inadvertently sent another 86 tons of radioactive byproduct 
material, mainly contaminated soil, to a non-hazardous, solid-waste 
landfill in Ohio.
    Although USACE and the NRC concede that off-site disposal of 
radioactive waste is not exempt from NRC's licensing requirements, they 
claim that radioactive waste from certain FUSRAP sites (12 out of the 
remaining 21) is not covered by the AEA and need not be disposed at an 
NRC-licensed facility. However, the same types of byproduct material 
removed from the remaining 9 FUSRAP sites are covered by the AEA, 
according to NRC and USACE, and must be disposed of at NRC-licensed 
facilities.
    The Atomic Energy Act mandates disposal of radioactive ``byproduct 
material'' at a licensed facility. 42 U.S.C. Sec. Sec. 2112, 2114 
(prohibiting transfer or receipt of byproduct material at an unlicensed 
facility).<SUP>4</SUP> Accordingly, the NRC has long had a policy 
requiring disposal of byproduct material only at licensed facilities. 
This policy is based on the goal of protecting public health and the 
environment. USACE's disposal of byproduct material from certain FUSRAP 
sites at unlicensed facilities therefore violates the AEA and is 
contrary to long-established NRC policy.
---------------------------------------------------------------------------
    \4\ In enacting the Uranium Mill Tailings Radiation Control Act 
(``UMTRCA'') of 1978, Congress expanded the definition of byproduct 
material to include ``the tailings or wastes produced by the extraction 
or concentration of uranium or thorium from any ore primarily for its 
source material content.'' 42 U.S.C. Sec. 2014(e)(2).
---------------------------------------------------------------------------
    The NRC and USACE acknowledge that radioactive wastes generated at 
the FUSRAP sites are ``byproduct materials'' as that term is defined in 
Section 11(e)(2) of the Atomic Energy Act, 42 U.S.C. 
Sec. 2014(e)(2).<SUP>5</SUP> However, they claim that because certain 
byproduct material was generated prior to 1978, the year in which 
Congress closed the loophole on NRC regulation of such waste by passing 
UMTRCA, and resulted from activities that were not licensed by the NRC 
in or after 1978, it is not covered by the AEA and need not be disposed 
at an NRC-licensed facility. Under this reasoning, such wastes could be 
disposed of at a regular landfill if they do not contain hazardous 
constituents. Accordingly, the factor governing whether FUSRAP 
radioactive wastes must be disposed of at an NRC-licensed facility is 
whether it was originally generated prior to the passage of UMTRCA.
---------------------------------------------------------------------------
    \5\ The AEA also prohibits the transfer or receipt in interstate 
commerce of any byproduct material unless licensed by the NRC or 
otherwise authorized under AEA Sections 82 and 84, 42 U.S.C. 
Sec. Sec. 2112, 2114.
---------------------------------------------------------------------------
    NRC's and USACE's assertion that UMTRCA does not apply to pre-1978 
wastes is contrary to established law. In the Findings and Purpose 
section of UMTRCA, Congress concludes that there are ``potential and 
significant radiation hazard[s] to the public'' from ``mill tailings 
located at active and inactive mill operations.'' 42 U.S.C. 
Sec. 7901(a). In this section, Congress further states that ``[t]he 
purposes of this Act are to provide''(1) in cooperation with the 
interested States, Indian tribes, and the persons who own or control 
inactive mill tailings sites, a program of assessment and remedial 
action at such sites . . . and (2) a program to regulate mill tailings 
during uranium or thorium ore processing at active mill operations . . 
.'' 42 U.S.C. Sec. 7901(b). Congress' intent in enacting UMTRCA is 
clear from this language: UMTRCA applies to byproduct material 
generated at sites closed prior to passage of the Act in 1978.
    The leading case interpreting UMTRCA, Kerr-McGee v. NRC, 903 F.2d 1 
(D.C. Cir. 1990), affirms the plain meaning of the statute. In Kerr-
McGee, the Court held that ``. . . the definition of `byproduct 
material' . . . adopted by Congress was designed to extend the NRC's 
regulatory authority over all wastes resulting from the extraction or 
concentration of source materials in the course of the nuclear fuel 
cycle.'' Kerr-McGee, 902 F.2d at 7 (emphasis in original). Moreover, it 
is implicit in the Kerr-McGee holding that UMTRCA applies retroactively 
to wastes generated prior to 1978, as the byproduct material in 
question was generated from 1931 until 1973, when the Kerr-McGee mill 
closed. This finding is further born out in the Court's finding that 
the UMTRCA legislative history evinces two purposes:
        [F]irst, to close the gap in NRC regulatory jurisdiction over 
        the nuclear fuel cycle by subjecting uranium and thorium mill 
        tailings to the NRC's licensing authority; and second, to 
        provide a comprehensive regulatory regime for the safe disposal 
        and stabilization of the tailings. Title I of UMTRCA provided a 
        specific remedial program for twenty designated inactive 
        uranium milling sites. Title II established a comprehensive 
        remedial program for mill tailings at all other sites.
Kerr-McGee, 902 F.2d at 3. In concluding, the Court found that the new 
definition of byproduct material in UMTRCA ``serves as the trigger for 
determining what materials are to be subject to the remedial program 
established by Title II''--date of generation is not a relevant factor. 
Id.
    USACE's decision to dispose of radioactive wastes in unlicensed 
facilities and NRC's decision to sanction it runs counter to basic 
common sense, technical reasoning, and established law. There is no 
basis to distinguish pre-1978 byproduct wastes from those generated 
after 1978, whether legally or scientifically. Indeed, in their own 
briefings, NRC staff have acknowledged as much by referencing portions 
of the Kerr-McGee opinion holding that UMTRCA applies to ``all'' 
byproduct material. See NRC's Staff's Brief and Evidence on Issues 
raised by The State of Utah (January 6, 1993).
    As the Conference of Radiation Control Program Directors has found, 
it make no sense from a technical perspective to base regulation of 
radioactive waste on when the material was generated--time is not a 
relevant factor when wastes remain hazardous for many thousands of 
years. Moreover, this is consistent with disposal practices at FUSRAP 
sites to date, where radioactive wastes have been disposed of at 
facilities licensed by the NRC or by agreement states or at DOE-
operated sites. The Conference has formerly recommended that the NRC 
``reconsider its position on their lack of jurisdiction over 11(e)(2) 
byproduct material processed before the enactment of UMTRCA in 1978.'' 
<SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Resolution Relating to Regulation of 11(e)(2) Radioactive 
Material, and the Transfer of the Formerly Utilized Sites Remedial 
Action Program (FUSRAP) to the U.S. Arm Corps of Engineers (May 20, 
1998).
---------------------------------------------------------------------------
    Disposal of radioactive wastes in unlicensed facilities raises 
important environment risks, as these facilities are not designed to 
handle large volumes of long-lived radioactive materials. The risks 
include threats to local groundwater (monitoring doesn't include 
radionuclides); inadequate or inappropriate worker health and safety 
regulations (inhalation standards for radionuclides are of particular 
concern); and failure to provide for long-term institutional controls 
to prevent future intrusions that could release contaminants from the 
site long after it has closed--this a particular concern where long-
lived radioactive materials, such as uranium and thorium, are involved. 
These deficiencies have important implications for DOE, which may 
become responsible for monitoring sites requiring institutional 
controls to protect the public and environment against releases of 
radioactive materials in the long-term. 42 U.S.C. Sec. 10171(b); see 
also 62 Fed. Reg. 39070 (July 21, 1997).
    Disposing of radioactive wastes at a hazardous waste facility, or a 
solid-waste landfill, also circumvents proper public oversight. Because 
RCRA permitting does not contemplate disposal of radioactive wastes 
from industrial facilities, no prior notice is provided to the public 
that radioactive byproduct materials could be disposed at such 
facilities. The public therefore has no opportunity to assess 
radioactive waste disposal at RCRA facilities. This was a central issue 
for the Safety-Kleen site, particularly following the heated debate 
over the proposed site of a low-level radioactive waste facility in 
Ward Valley, California. By avoiding any opportunity for public or 
State review and comment, the disposal of radioactive wastes at the 
Safety-Kleen facility circumvented NRC-mandated public participation 
that is required for all properly licensed radioactive waste disposal 
facilities.
    Although it is NRDC's position that the AEA clearly and 
unequivocally applies to all radioactive byproduct material, regardless 
of when it was generated, recent NRC and USACE actions demonstrate that 
further clarification by Congress of the applicability of NRC 
regulatory authority is necessary to safeguard the public and 
environment. Congressional intervention is of particular importance in 
this case because opportunities for court actions are limited under 
both Superfund and the AEA. NRDC requests that Congress add language to 
the AEA further clarifying that UMTRCA applies to both pre- and post-
1978 radioactive byproduct material.
            ii. proposed amendment to superfund in h.r. 2531
    The proposed amendments in H.R. 2531, Section 207, would preclude 
initiating Superfund cleanup actions at NRC-licensed facilities closed 
pursuant to NRC's License Termination Rule, 10 C.F.R. Subpart E. More 
specifically, the amendments propose two important changes: (1) 
releases of source, special nuclear, or byproduct material, as defined 
by the AEA, from a facility properly closed pursuant to NRC regulations 
are defined as ``federally permitted releases''; and (2) administrative 
or judicial actions may not be commenced under Superfund with respect 
to any source, special nuclear, or byproduct material subject to NRC 
decontamination standards. Remediating environmental releases from 
properly closed NRC-licensed facilities therefore could only be 
initiated by NRC pursuant to its license termination regulations.
    The NRC License Termination Rule permits additional cleanup to be 
required ``only if, based on new information, [NRC] determines that 
criteria of this subpart were not met and residual radioactivity 
remaining at the site could result in a significant threat to public 
health and safety.'' 10 C.F.R. Sec. 20.1401(c). The NRC regulations do 
not provide for public involvement, prescribe any process that must be 
followed to develop a cleanup plan, nor require financial assurances to 
ensure that facility owners will have the resources to undertake post-
closure cleanup actions. Although NRC acknowledges the importance of 
and requires that financial resources be set aside for long-term 
monitoring and maintenance at facilities where institutional controls 
are necessary, 10 C.F.R. Sec. 20.1403(c), it has not taken any measures 
to ensure that funding will be available for post-closure cleanup 
actions.
    NRC has premised its regulations on the belief that environmental 
releases from formerly licensed facilities will rarely rise to a level 
that threatens public health. 62 Fed. Reg. 39081. The NRC regulations 
therefore establish a presumption against further cleanup, unless a 
significant threat to public health exists; in other words, unless an 
environmental release that would typically be actionable under 
Superfund exists. Yet, NRC has not established any of the mechanisms 
for undertaking a cleanup that are provided for in Superfund. The NRC 
regulations say little or nothing about the circumstance requiring a 
cleanup action or how it would proceed.
    Superfund contains numerous mechanisms for undertaking cleanup 
actions to address significant environmental releases. Superfund is 
structured to ensure that environmental releases are effectively 
remediated in a timely manner, that resources are available to permit a 
cleanup to proceed, that affected communities are consulted, and that 
liability is reasonably apportioned.
    While the issues that typically complicate cleanup actions under 
Superfund may not apply in the near term, as ownership and 
responsibility is unlikely to be disputed, this is not likely to 
continue for the indefinite future. Unanticipated factors (e.g., 
failure of institutional controls, changes in land use) likely to cause 
significant releases at closed facilities are more likely to manifest 
themselves in the future, when ownership and liability issues are no 
longer clear. The analyses that support closure plans at NRC sites are 
based on assessing risks over a 1000-year period, which implies that 
long-term impacts from NRC-licensed sites are important. However, such 
estimates become more uncertain the further out in time they are 
extended. Accordingly, future risks of environmental releases therefore 
cannot be accurately predicted.
    There is no reason to exempt facilities that have been closed 
pursuant to NRC regulations from Superfund, particularly when NRC has 
not instituted any measures to ensure that post-closure cleanups can be 
effectively implemented. By its very nature, Superfund is structured to 
address major environmental releases; accordingly, there is no danger 
that it could be used to override NRC license termination regulations. 
Further, according to NRC, the potential for a major release occurring 
after a licensed facility is closed is very low; it would be the rare 
exception. It is under just such circumstances that the well-developed 
mechanisms written into Superfund will be most needed. NRDC therefore 
urges the Committee to reject the proposed amendments to Superfund in 
H.R. 2531.

    Mr. Barton. Thank you, Mr. Adelman. The Chair would 
recognize Mr. Hall for the first 5 minutes of questions.
    Mr. Hall. Mr. Chairman, ranking member Dingell has on the 
12th of July sent a letter to Chairman Dicus, and I would like 
unanimous consent to put this in record.
    Mr. Barton. Without objection, so ordered.
    [The information referred to follows:]

                    U.S. House of Representatives  
                                    Committee on Commerce  
                                  Washington, DC 20515-6115
                                                      July 12, 1999
The Honorable Greta Joy Dicus
Chairman
Nuclear Regulatory Commission
11555 Rockville Pike
Rockville, Maryland 20852
    Dear Chairman Dicus: I am writing in regard to the Nuclear 
Regulatory Commission's (NRC) regulation of byproduct materials under 
Section 11(e)(2) of the Atomic Energy Act. In particular, I am 
concerned about the NRC's regulation of disposal of wastes collected 
under the Formerly Utilized Sites Remedial Action Program (FUSRAP).
    I understand that the NRC recently determined that waste from the 
FUSRAP program generated prior to 1978 is not subject to regulation 
under Section 11(e)(2). Rather, NRC has determined that such waste may 
be sent to disposal sites regulated under the Resource Conservation and 
Recovery Act (RCRA) rather than to disposal sites regulated by the NRC. 
This raises a number of serious questions:
    (1) How will this action improve protection of the public health 
and the environment?
    (2) Please provide copies of the studies NRC used in making its 
health and safety determinations.
    (3) What are the qualitative differences in the radioactive 
constituents of pre- and post-1978 Section 11(e)(2) by-product material 
that compel NRC to require two distinct disposal standards?
    (4) Please detail the differences between NRC requirements in 
radioactive waste disposal and disposal under RCRA, specifically:
  a. What controls or protections exist at RCRA landfills that ensure 
        the protection of public health, safety and the environment 
        from radioactive byproduct materials disposed at such 
        facilities?
  b. What protections are in place to ensure worker health and safety 
        from the risks of exposure to radioactivity at RCRA landfills 
        that have accepted Section 11(e)(2) byproduct material for 
        disposal from the Army Corps of Engineers under the FUSRAP 
        program?
  c. Do RCRA sites require a performance assessment to demonstrate 
        long-term protectiveness for the disposal of radionuclides?
  d. What type of groundwater modeling is required of RCRA sites to 
        ensure protection of groundwater quality for at least 1,000 
        years?
  e. What type of public involvement have RCRA sites provided to allow 
        for public input to allow the disposal of radioactive waste in 
        facilities that have not been permitted or designed for the 
        disposal of Section 11(e)(2) byproduct material?
    (5) Overall, which sites are more protective of public health, 
safety and the environment relative to the disposal of radioactive 
byproduct wastes: RCRA landfills or NRC-regulated and licensed disposal 
facilities?
    (6) In a letter dated March 26, 1999, NRC's Office of Nuclear 
Material Safety and Safeguards concluded that a waiver under the 
Comprehensive Environmental Response, Cleanup, and Liability Act of 
1980 (CERCLA) does not apply to off-site FUSRAP disposal activities. 
What steps has the Commission taken to regulate off-site handling and 
disposal of Section 11(e)(2) byproduct material?
    (7) Does NRC require additional Congressional direction or 
authority to regulate pre-1978 Section 11(e)(2) byproduct material?
    Please provide responses to these questions no later than Thursday, 
July 22, 1999.
    Should you have any questions regarding this request, please 
contact me or have your staff contact Mr. Rick Kessler at (202) 226-
3400. Thank you in advance for your prompt attention to this matter.
            Sincerely,
                                            John D. Dingell
                                                     Ranking Member
cc: The Honorable Tom Bliley
   The Honorable Joe Barton
   The Honorable Ralph M. Hall

    Mr. Barton. Have we--have the majority staff seen this 
letter?
    Mr. Hall. I don't.
    Mr. Barton. Have you seen it? Okay.
    Do you want to tell the people what is in the letter, or do 
you just want to put it in the record?
    Mr. Hall. Well, I thought if I put it in the record, I 
would have more time to read it.
    Mr. Barton. Oh, okay. All right.
    Mr. Hall. Whatever. Mr. Adelman--I was just giving you a 
short answer, no, I will tell them if you want me to.
    Mr. Barton. No, you--go ahead.
    Mr. Hall. Mr. Adelman, NRC has determined that FUSRAP waste 
might be sent to some disposal sites regulated under the RCRA 
rather than the disposal sites regulated by the NRC. You are 
aware of that, are not you?
    Mr. Adelman. Yes, sir.
    Mr. Hall. And I think that raises some questions, and I 
would be interested in what your views are on it. Do you think 
this action improves the protection of public health and the 
environment or what effect would this action have on it?
    Mr. Adelman. The proposed--or the ongoing action represents 
an arbitrary distinction between the same types of materials--a 
material that is currently being disposed of in licensed 
facilities is the same that they are proposing to dispose of at 
the RCRA facilities. So, it is arbitrary in that sense, and 
because RCRA facilities do not have the same sorts of 
regulatory requirements, the licensed facility represents an 
incremental erosion of the standards that apply to these 
materials.
    Another important point is that RCRA facilities are 
designated to dispose of hazardous constituents. And 
radioactive--radiological contaminants would raise 
fundamentally different issues. And sites containing hazardous 
materials have different monitoring and containment 
requirements. Their--the health and safety regulations applying 
to hazardous waste facilities do not necessarily include the 
risk associated with radiological contaminants. And then the 
groundwater concerns that both the EPA and I have raised are 
also significant considerations as well.
    Mr. Hall. I'm going to wait and have to read that again. I 
see it in the record.
    You are aware of the fact that you have two distinct 
disposal standards. What are the differences in the radioactive 
constituents of pre- and post-1978 Section 11(e), subsection 2, 
byproduct material that warrants having this many--having two--
having more than one?
    Mr. Adelman. The only distinction is the date on which the 
material was generated.
    Mr. Hall. Now, say that again?
    Mr. Adelman. Unless the byproduct material is going to 
change from site to site, so there is not a--necessarily a 
consistency between material that was generated pre-1978 when 
the UMTRCA legislation was passed versus post-1978. So there is 
not a rational basis to distinguish between the two types of 
material.
    Mr. Hall. And your answer could have been none?
    Mr. Adelman. That is right.
    Mr. Hall. Instead of the long answer you gave me?
    Mr. Adelman. That is correct.
    Mr. Hall. Then why have two disposal standards?
    Mr. Adelman. I do not. There is no reason to have two----
    Mr. Hall. There is no reason for them?
    Mr. Adelman. Disposal standards.
    Mr. Hall. What controls or protections exist at the RCRA 
landfills that ensures the protection of public health, safety, 
and environment from radioactive byproduct materials disposed 
at such facilities? What protects the public there?
    Mr. Adelman. Well, there are protective measures to contain 
hazardous waste constituents, but there are no specific 
standards dedicated or targeted at radiological contaminants. 
And because, in particular, radiological contaminants are long-
lived, there is serious concerns about the ability of these 
facilities to contain those.
    Mr. Hall. And your answer there would be, if we shortened 
it down, would be almost none, right?
    Mr. Adelman. Right.
    Mr. Hall. I think I have asked all the questions I want. 
Thank you, Mr. Chairman. I yield back my time.
    Mr. Barton. Thank you, Mr. Hall. The Chair recognizes Mr. 
Burr for 5 minutes.
    Mr. Burr. I thank the chairman. Could I request that Mr. 
Hall answer my questions for me?
    I might understand them better as well.
    Mr. Barton. Get a lot of questions answered, wouldn't we?
    Mr. Hall. Mr. Adelman may be testifying by the word up 
here. He may be being paid by the word. I do not know.
    Mr. Burr. Clearly, the same accusations could be made about 
us?
    Mr. Hall. Yes, right.
    Mr. Burr. Let me ask you, Mr. Beedle, I think you 
understand--we have talked about this 10 percent of users fees 
that go obviously to things that we do not think they are in 
the spirit of how that user fee should be used. But when we 
look at the solution, which would be a change, of possible 
general revenue appropriations or some change from where we are 
today. I think you understand how difficult that is going to be 
to get to. But clearly, it is a change in the right direction, 
we would probably agree.
    Do you have any suggestions as to how we get there?
    Mr. Beedle. Well, we have had this as an issue for a number 
of years. You may recall that when the Omnibus Reconciliation 
process was started that the objective was to try and balance 
the budget, and this was one of those efforts. And we probably 
would agree that, from a national priorities point of view, 
that was a wise decision on the part of the Congress.
    But now that we are at the point where we do have a 
balanced budget, we are suggesting that the Congress go back 
and rethink the wisdom of continuing that process because you 
do have a situation where each one of our licensees pays 
something in excess of $400,000 a year for regulation by the 
NRC for activities that have absolutely no benefit to the rate 
payers. So our rate payers are actually paying these fees for 
the NRC.
    The solution? I think somehow you need to recognize that 
this is a significant inequity in the way the NRC is funded, 
and we need to approach it. And if we continue to forestall it, 
you will be having the same discussion today next year.
    Mr. Burr. Could we all be comfortable with a phase in in 
the change?
    Mr. Beedle. I would say that is certainly better than not 
addressing it all.
    Mr. Burr. And that may, in fact, be what we end up with.
    Mr. Beedle. Yes.
    Mr. Burr. But I think it is important that we at least 
throw that branch out there and say there is another way. It is 
a change that is headed in the right direction, and hopefully a 
permanent live-within-the-spirit of how it was designed, but we 
may gradually get there, which I think is recognized.
    Let me ask you----
    Mr. Beedle. I think the phased approach would be--would 
make a great deal of sense. I mean, it is--I can imagine the 
difficulty of trying to find $50 million somewhere through 
general revenues to do that.
    Mr. Burr. You heard the exchange earlier between the NRC 
and EPA. Do they agree or disagree on the issue?
    Mr. Beedle. Oh, I think they are in violent disagreement. 
There is philosophically a disagreement within NRC.
    Mr. Burr. Is it a question of science, or is it a question 
of jurisdiction and the policy differences between the two 
agencies?
    Mr. Beedle. I think it is a policy issue on the part of 
EPA.
    Mr. Burr. So you do not know of any science that the NRC 
has neglected?
    Mr. Beedle. No. We would agree with the NRC in their 
assessment of what constitutes a reasonable and achievable 
cleanup standard.
    Mr. Burr. Are there real-world situations where utilities 
have been confronted with the EPA at the eleventh hour, walking 
in and saying, no, we are in charge of this?
    Mr. Beedle. No, I think we are in a situation where we are 
extremely vulnerable. We can find a facility that is cleaned up 
to the NRC standards, and then the next day we have the very 
real potential for the EPA to come in and declare it a 
Superfund site, and have to spend additional funds to cleanup 
to an NRC--EPA standard.
    Mr. Burr. In your estimation, has there been sufficient 
public-private participation in how we got to that policy?
    Mr. Beedle. I think there was in the case of the NRC. I 
mean, there were well over 7,000 respondents to the NRC's 
public notice of the--of their standard. And, as Commissioner 
McGaffigan indicated, they have some fairly well educated, well 
trained people working on that standard. And we find that it 
makes sense.
    Mr. Burr. Do you know any industry individuals that were 
brought in by the EPA to develop their standard?
    Mr. Beedle. None. I do not know that there were any. Do not 
know--do not really have any first-hand knowledge of that.
    Mr. Burr. Let me ask you, Mr. Adelman--and I will ask you 
to comment on the same thing--but I found it in the end of your 
testimony, or close to the end. Yes, it was the end. You said 
by its very nature Superfund is structured to address major 
environmental releases. Accordingly, there is no danger that it 
could be used to override NRC license termination regulations.
    If that is true, what are you worried about?
    Mr. Adelman. Well, I think what we are worried about are 
circumstances where there is specific types of releases that 
impact standards that have been set, for example, under the 
Safe Drinking Water Act.
    Mr. Burr. Do you perceive that this is a difference between 
two agencies relative to their interpretation of science?
    Mr. Adelman. I think there are really two issues. I think 
that there is a definitely a policy element to this. If you 
look at how hazardous materials have been regulated, and the 
standards that have been set for them, and compare that to 
radiological standards, you find that the standards are more 
stringent for hazardous constituents.
    Mr. Burr. You think we need an NRC?
    Mr. Adelman. Certainly. I think we need an NRC, but I think 
we also need an EPA, because it is going to address more 
specifically environmental concerns.
    Mr. Burr. Could the EPA do the NRC's job?
    Mr. Adelman. I do not think that it's overall jurisdiction 
encompasses----
    Mr. Burr. No, but if we said, we want the EPA to be the 
regulatory body for nuclear waste, could they do it?
    Mr. Adelman. I mean, if they develop all of the personnel 
and additional technical experts to cover it.
    Mr. Burr. So the technical expertise and the personnel do 
not exist today at the EPA for them to pursue a policy that is 
an overlap to what the NRC is producing.
    Mr. Adelman. No, I would completely disagree with that.
    Mr. Burr. Well, that is what you said, though. You--I asked 
you----
    Mr. Adelman. Well, there----
    Mr. Burr. I asked you could the EPA fill in for the NRC. 
And you said if you have the personnel, if you have the 
technology, if the expertise existed at the EPA, they could do 
it.
    Mr. Adelman. If the issue were just environmental releases 
and evaluating the potential human health and environmental 
impacts associated with them, clearly EPA could do that job. 
But NRC's jurisdiction is much broader than that--it is, you 
know, regulation of specific facilities that EPA currently is 
not engaged in.
    Mr. Barton. The Chair is really intrigued by this 
philosophical discussion, but the gentleman's time has expired. 
I would encourage the two to talk in the hall.
    Mr. Burr. The Chair has been very generous in his time, and 
I appreciate that.
    Mr. Barton. Yes. Before we recognize Mr. Sawyer, we have 
got another former member of the committee, Mr. Eckart. This 
must be a pretty high dollar committee hearing. I have never 
seen two former Congressman standing at the back of the room in 
any hearing we have done yet this year. So----
    Mr. Eckart. We just want to be closest to the door.
    Mr. Barton. Yes, we are duly impressed. I just assumed you 
all on the same side of whatever issue it is. You are not on 
the same side?
    Mr. Eckart. Well, we will stand closer together so the 
targeting is easier.
    Mr. Hall. Mr. Chairman?
    Mr. Barton. Yes, sir.
    Mr. Hall. You have to really check on Mr. Eckart when he 
reports something to you. I was told one time that he was about 
to get defeated in his race, and I caught a quick plane up to 
Cleveland to help him.
    Mr. Barton. Did you campaign for or against him, which was 
it?
    Mr. Hall. And I missed a meeting with him--with him and for 
him. And he only got 78 percent of the votes.
    Mr. Barton. Well, he probably was at 49 before you arrived.
    Mr. Hall. And he did not even reimburse me for my plane 
ticket.
    Mr. Barton. He will make amends for that. Mr. Sawyer of 
Ohio is recognized for 5 minutes.
    Ms. Sawyer. It is an art form in northeast Ohio, Mr. 
Chairman.
    I--first of all, let me say that I am really impressed at 
how you moved this hearing along. I--when I left, there was a 
whole different panel here, and I thought we were still going 
on with questions.
    Mr. Barton. But everybody left. That was the problem.
    Mr. Sawyer. Everybody left, and then they didn't come back, 
huh?
    Mr. Barton. No.
    Mr. Sawyer. And now, did we do opening statements here?
    Well, I am very impressed. You guys are good. I apologize 
for not being here to hear that. When we left, I was asking 
about----
    Mr. Barton. The gentleman's time is about to expire.
    Mr. Sawyer. I was asking about the foreign ownership 
question, and we talked a little bit about security and 
economic motivations, but let me just ask about safety 
questions and exposure to liability. The question when you have 
got foreign ownership and the ability to access assets in the 
event of a substantial safety emergency is something to be 
considered on its face. But when you get into the question of 
the Price-Andersen caps on liability, at $100 million; when you 
begin to go past that in the event of a substantial problem, it 
seems to me that you run the risk of a domestic affiliate and a 
foreign parent moving assets from where they might be 
accessible in the United States to where they might not be 
accessible elsewhere. Do either of you have a comment on that 
from the point of view of foreign licensure, or is--or are my 
concerns misplaced?
    Mr. Beedle. Well, I think if you go back to the testimony 
of the NRC, the Commissioner--Commissioner Merrifield pointed 
out that our fuel processing facilities are foreign-owned, for 
the most part. I--as a chief nuclear officer, I bought fuel 
from a foreign manufacturer, components from foreign companies, 
and I think the foreign ownership question is one that does not 
make a lot of sense when you compare those things that are 
owned or controlled by some foreign entity and then a 
restriction on a power plant operation. It is a commercial 
operation, and the risk that you may have some difficulty in 
terms of liability I think is one that is addressed through the 
licensing process. The NRC provides guarantees that you have 
adequate funds for decommissioning. The insurance programs that 
the nuclear utilities participate in are robust and would 
provide that cover. And I think that the trend that we see 
today is that foreign ownership would be a partial ownership. 
You would not have a sole--solely foreign entity owning the 
facility as you have in case of the ownership of TMI, for 
example.
    So we are--we are confident that this makes sense from a 
business point of view. An economic point of view is the way 
the rest of the country operates and the business world.
    Mr. Sawyer. Mr. Adelman?
    Mr. Adelman. I actually do not have a comment on that.
    Mr. Sawyer. Thank you, Mr. Chairman.
    Mr Barton. Is that all your questions?
    Mr. Sawyer. I thought I was on the thin ice to begin with?
    Mr. Barton. No, no. Mr. Shimkus, then, would be recognized 
for 5 minutes.
    Mr. Shimkus. Thank you.
    Mr. Barton. Before we do that, the Chair would ask 
unanimous consent that all members that are not present when 
this hearing concludes, if they have questions that they be 
allowed to submit them in writing to both panels so that we get 
a complete record before we go to mark up of the 
reauthorization bill. Is there objection?
    Hearing no objection, so ordered.
    Mr. Shimkus, you are recognized for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Mr. Beedle, did you 
tell me prior to the meeting that you are a 1962 grad of the 
Naval Academy?
    Mr. Beedle. That's correct, sir.
    Mr. Shimkus. So the answers, we needed to make sure we 
review those, Chairman, for sufficiency and completeness.
    Mr. Barton. Now, you are a graduate of West Point, I think?
    Mr. Shimkus. That is right. That is why I am suspicious of 
the testimony.
    Mr. Hall. You could not get in the Naval Academy?
    Mr. Shimkus. I can see that is why. The--let me--I do have 
a question on--can you tell me, Mr. Beedle, on the Agreement 
States Program can you kind of explain what that is?
    Mr. Beedle. Well, much of the money that the NRC allocates 
to the Agreement States is to support them in their regulatory 
activity through training--a considerable amount of money goes 
into that. I would guess that that is probably the bulk of it. 
But they have that obligation to train those----
    Mr. Shimkus. Do you know of any--and you were here in the 
other--the hearing, and I asked the question in reference to 
international-type of agreements. Are you familiar with any of 
those?
    Mr. Beedle. Very few of them. The NRC provides a lot of 
consultation to foreign regulatory bodies. There is a 
International Regulators Association that undoubtedly consumes 
some funding. I think that is probably the two big components 
of that cost.
    Mr. Shimkus. Mr. Adelman, I have a question. The Natural 
Resource Defense Council, what is their agreed upon millirem 
standard for safety?
    Mr. Adelman. I am not sure we have an explicit position on 
that, but it would be, you know, in the 10 to 15 millirem area.
    Mr. Shimkus. And do you have science to back up that 
standard?
    Mr. Adelman. We certainly reviewed--we do not do 
independent analysis ourselves, but we certainly reviewed EPA 
data.
    Mr. Shimkus. So your standards are based upon the same EPA 
that does not have enough professionals to do the requirements 
in search of the NRC with the billions of Ph.D.s that they have 
there?
    Mr. Adelman. We think that the EPA personnel are well 
qualified to address these issues.
    Mr. Shimkus. Are you saying that the NRC's standards of 25 
millirem is unsafe?
    Mr. Adelman. I think that we have concerns about that, but 
the license termination rule does not just address a 25 
millirem standard. It also establishes a 100, and even in some 
cases 500 millirem standard, so, you know, it is the license 
termination rule as a whole that we have concerns about; that I 
think raises the issues that EPA has raised in front of you.
    Mr. Shimkus. Mr. Beedle, what is your comments in reference 
to the millirem standards and the NRC's technical expertise?
    Mr. Beedle. Well, we are satisfied that the NRC has gone 
about the very deliberate process of reviewing that cleanup 
standard. They have collected scientific consensus on the 
standard, and, as I indicated earlier, some 7,000 respondents 
to the proposed rule on that. So I am satisfied that the 
technical expertise that has been brought to bear to provide an 
adequate standard for protection of the public. And the concern 
that the industry has is that we end up in a dual regulatory 
situation where I need to worry about cleanup, an NRC standard, 
and then a follow-up standard published by an agency that has 
gone about it in a process that is less than open, from our 
point of view.
    Mr. Shimkus. Let me ask a final question. Do either of you 
know of another country that has a higher standard than the 25 
millirem standard?
    Mr. Beedle. I do not know of any.
    Mr. Adelman. Off the top of my head, I do not know of any.
    Mr. Shimkus. Thank you. Mr. Chairman, I yield back my time.
    Mr. Barton. The--I am going to submit my questions for the 
record in the interest of time. And since Mr. Hall said he 
would submit his questions to the first panel in writing, I 
think that balances it.
    Before we adjourn, though, since we know that Mr. Beedle 
went to the Naval Academy, it would be unfair if we did not ask 
Mr. Adelman where you graduated from. Where is your academic 
training?
    Mr. Adelman. At Stanford and Reed College.
    Mr. Barton. Stanford and Reed College. Okay.
    Gentleman, I want to thank for your presence, and this 
hearing is adjourned.
    Mr. Beedle. Could I add, beat Army, sir?
    Mr. Barton. Beg your pardon?
    Mr. Beedle. Beat Army.
    Mr. Barton. Oh, beat Army. I am not going to get into that.
    [Whereupon, at 4:31 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

                              Nuclear Regulatory Commission
                                                 September 10, 1999
The Honorable Joe Barton, Chairman
Subcommittee on Energy and Power
Committee on Commerce
United States House of Representatives
Washington, D.C. 20515
    Dear Mr. Chairman: Thank you for the opportunity to appear before 
your Subcommittee on July 21, 1999, to discuss the important issues 
regarding authorization of the Nuclear Regulatory Commission. We 
appreciate the opportunity to provide input on H.R. 2531.
    I am enclosing the NRC responses to post-hearing questions. Please 
contact me if I can be of further assistance.
            Sincerely,
                                                    Greta Joy Dicus
Enclosure: As Stated
cc: Representative Ralph M. Hall

    Question 1. A recent NRC press release states that the ``security 
program will be incorporated into the NRC's baseline inspection program 
when it is fully implemented early next year.'' My understanding was 
that the program is suspended as part of the baseline inspections until 
a new rule-making is completed.
    (A) Is that correct?
    Answer. No, a security inspection program similar to the NRC's long 
standing regional inspection program continues to be an integral part 
of the baseline inspection program.
    The ongoing OSRE inspections will continue to require licensees to 
demonstrate the response capability of their security organizations, 
including force-on-force exercises, as planned. At present, the last 
OSRE is scheduled for May 2000. The staff, with stakeholder 
involvement, is exploring options to continue the evaluation of 
licensee demonstration of contingency response capabilities during the 
period between completion of the OSREs and issuance of the final rule, 
whenever that occurs, and plans to forward its recommendation on these 
options to the Commission in September 1999. This transition plan will 
ensure force-on-force exercises continue following May 2000 though the 
completion of the rulemaking.
    In a letter dated August 31, 1999, the Nuclear Energy Institute 
(NEI) commented on the new rulemaking you mentioned. In its letter, NEI 
informed the Commission that the industry is preparing a guidance 
document for a pilot program that could be implemented in mid-2000 when 
acceptable to both the NRC staff and the industry. Key elements of the 
NEI pilot program guidance include identifying target sets based on a 
goal of preventing a radiological release that exceeded 10 CFR Part 100 
criteria, force-on-force drills and exercises, tools for evaluating the 
effectiveness of drills and exercises, and a process for correcting 
deficiencies. The Commission intends to consider the viability of the 
industry proposal within the framework of the staff's September 1999 
recommendation to the Commission.
    Question 1. A recent NRC press release states that the ``security 
program will be incorporated into the NRC's baseline inspection program 
when it is fully implemented early next year.'' My understanding was 
that the program is suspended as part of the baseline inspections until 
a new rule-making is completed.
    (B) When do you expect the rule to be finished?
    Answer. The NRC staff has proposed--and the Commission has 
approved--an aggressive rulemaking schedule to amend Part 73 to require 
periodic contingency be an integral part of the baseline inspection 
program. The rulemaking is currently expected to follow this schedule:

September 17, 1999--rulemaking plan to Commission
March 31, 2000--proposed rulemaking to Commission
May 2000--60 day public comment period
December 1, 2000--final rulemaking to Commission
May 1, 2001--final rule published
    However, at a public meeting on August 11, 1999, there was 
significant stakeholder comment on the need for a more comprehensive 
Part 73 rulemaking. If the Commission agrees to broaden the rulemaking, 
this aggressive schedule could be delayed. Furthermore, as mentioned in 
the response to the previous question, the industry has proposed a goal 
of developing, over a two-year period, a broader rule change and 
supporting industry implementing guidance.
    Question 1. A recent NRC press release states that the ``security 
program will be incorporated into the NRC's baseline inspection program 
when it is fully implemented early next year.'' My understanding was 
that the program is suspended as part of the baseline inspections until 
a new rule-making is completed.
    (C) How long does rulemaking usually take?
    Answer. In recent years, many rulemakings have taken approximately 
24 months from approval of a rulemaking plan by the Commission. 
However, many high priority rules have been adopted on a faster 
schedule. Our August 27, 1999 letter to Congressman Markey and the 
response to 1(B) discuss this proposed rulemaking schedule.
    Question 2. (A) Will you commit to including force-on-force drills 
in the baseline inspections when they start, whether or not the rule-
making is finished?
    Answer. Specific commitments at this time would be premature since 
the Commission has not reviewed the staff's proposal. The staff will 
provide options for Commission review in September 1999. NRC inspection 
of license-conducted force-on-force exercises is currently under 
discussion between NRC and its stakeholders, including the recent 
industry proposal to prepare a guidance document for a pilot program 
that includes force-on-force drills which, if found acceptable to the 
NRC and the industry, could be implemented in mid-2000. Whether force-
on-force drills are required under the auspices of the baseline 
inspection program or as a continuation of the current approach to OSRE 
is among the options being evaluated by the staff at this time.
    Question 2. (B) Will you commit to ensuring there is not a gap 
between the end of the OSRE drills next spring and the inclusion of 
drills in the baseline inspection either by continuing the OSRE program 
or beginning the baseline inspection drills?
    Answer. Specific commitments at this time would be premature since 
the Commission has not reviewed the staff's proposal. The staff is 
providing options for Commission review by September 1999 as discussed 
in our responses to 1 (A) and 2 (A).
    Question 2. (C). Does the NRC need new legislation in order to 
enable you to require licensees to conduct these drills right now?
    Answer. No, the NRC does not need new legislation in this area. 
Under the Atomic Energy Act of 1954, as amended (AEA), NRC has ample 
authority to regulate the operation of nuclear power reactors to 
promote common defense and security and to protect health or minimize 
danger to life or property. NRC exercises this authority by issuing 
licenses, conditions to licenses, and rules/regulations and orders. If 
it becomes necessary to provide NRC with reasonable assurance of 
adequate protection of public health and safety or common defense and 
security, there is no dispute that NRC has the authority under the AEA 
to require licensees to conduct safeguards performance exercises. 
However, in order to impose an enforceable requirement to conduct these 
exercises, NRC must issue an order, license condition, or regulation. 
The NRC currently believes that the proper method of implementing that 
authority is through the use of regulations similar to the method used 
by the Office of Nuclear Materials Safety and Safeguards for requiring 
the conduct of exercises at fuel facilities (10 CFR 73.46).
    Question 3. Currently the OSRE exercises are conducted under the 
supervision of the NRC, with NRC contractors who are security experts 
advising the mock adversary force on targets and methods of attack. The 
modified program would be run by the licensees.
    (A) Will the licensees determine how future drills are run, and 
will plant security forces know what targets will be attacked?
    Answer. Contrary to the implications of the question, OSRE 
exercises are not supervised or participated in by NRC staff or 
contractors. The drills and scenarios are established and conducted by 
the licensees. The NRC and contractors do observe and evaluate the 
exercises. The NRC comments on the appropriateness of the test and 
compares NRC's independent target selection against that of the 
licensee's to determine the adequacy of the exercise. As part of the 
rulemaking effort, NRC guidance on the implementation of exercises 
would be published and provide acceptable ways to conduct exercises. 
This guidance will state that drill participants will not have 
knowledge of the specific targets to be used in the drill.
    Question 3. Currently the OSRE exercises are conducted under the 
supervision of the NRC, with NRC contractors who are security experts 
advising the mock adversary force on targets and methods of attack. The 
modified program would be run by the licensees.
    (B) If so, is that a realistic simulation of a terrorist attack?
    Answer. Yes, in the modified program, the licensees conduct the 
drills; therefore, the degree of realism is limited to the licensee's 
ability to simulate a terrorist attack. As we explained in our response 
to the previous question, this is how the OSRE program is currently 
conducted. The need for support by the contractors during the 
transition period following completion of the OSREs and under the new 
rule, once completed, will be evaluated at a later date.
    Question 4. The press release also says the ``NRC will likely 
continue to use private contractors to assist in its evaluation of the 
performance of its licensees during drills and exercises'' (emphasis 
added)
    (A) Do the current NRC contractors for the OSRE program have 
security expertise that headquarters staff and regional inspectors do 
not have?
    Answer. Yes, the NRC contractors for the OSRE program have 
extensive security expertise that headquarters staff and regional 
inspectors do not have.
    Question 4. The press release also says the ``NRC will likely 
continue to use private contractors to assist in its evaluation of the 
performance of its licensees during drills and exercises'' (emphasis 
added)
    (B) Do you intend to continue to use the current contractors or 
other contractors with equivalent security expertise?
    Answer. The staff intends to continue using the current contractor 
during FY2000. The need for support by the contractors during the 
transition period following completion of the OSREs and under the new 
rule, once completed, will be evaluated at a later date.
    Question 4. The press release also says the ``NRC will likely 
continue to use private contractors to assist in its evaluation of the 
performance of its licensees during drills and exercises'' (emphasis 
added)
    (C) Will the contractors continue to advise the mock adversaries on 
how to attack the plants?
    Answer. The NRC, through the use of staff and contractors, will 
continue in its approach of critiquing exercise plans and independent 
target development to compare licensee targets as part of the process. 
This also enables the licensee to conduct a more realistic exercise.
    Question 5. I understand there has been some controversy over what 
should be the standard for success in the drills. Licensees are 
required to protect against ``radiological sabotage.''
    (A) Do you think the drills should test the licensees' ability to 
protect against core damage or only against major radioactive release 
to the atmosphere?
    Answer. Title 10, Code of Federal Regulations (CFR), Section 
73.55(a) requires that licensees be able to ``protect against the 
design basis threat of radiological sabotage.'' Radiological sabotage 
is defined in Section 73.2 as, ``any deliberate act directed against a 
plant or transport . . . which could directly or indirectly endanger 
the public health and safety by exposure to radiation.'' Therefore, the 
licensees are required to protect against acts that could endanger the 
public health and safety.
    Part 73 does not define the limits of exposure that are considered 
dangerous for the public health and safety, although limits of exposure 
are discussed in various other sections of Title 10 of the CFR. The 
staff is currently considering how to clarify expectations in Part 73 
and better define the term ``radiological sabotage,'' calling on 
standards also used in other areas of nuclear regulation, including 
Part 100. The systems and equipment necessary to prevent a radiological 
release, and therefore subject to protection by security measures, 
could be dependent on the release definition. During the remaining 
OSREs, the teams will review this issue as part of their input to the 
NRC's Safeguards Performance Assessment Task Force.
    Question 5. I understand there has been some controversy over what 
should be the standard for success in the drills. Licensees are 
required to protect against ``radiological sabotage.''
    (B) In evaluating the drills, do you think it fair to assume that 
plant operators would act perfectly to prevent radioactive release, or 
should their performance be tested in the drills?
    Answer. NRC would expect operators to respond in accordance with 
training they have received in dealing with off-normal plant 
conditions. Operator actions need to be evaluated in as realistic a 
manner as practicable to simulate actual conditions. Operators are 
already routinely examined with respect to their response to off-normal 
plant conditions, regardless of the source of the condition. An 
important element of the proposed rulemaking and related guidance will 
be how to credit operator actions during an attempt at radiological 
sabotage. The remaining OSREs will examine the integration of the 
overall actions by operations and security organizations in preventing 
radiological sabotage.
    Question 6. I would like to thank you for your recent letter 
responding to my letter on the Sunshine Act rules. In the letter you 
suggest that the Commission is ``legally prohibited'' from including 
under the Sunshine Act rules gatherings that do not meet the Supreme 
Court's narrow definition of a ``meeting.''
    (A) Do you think the NRC's old rules are illegal and have been for 
the last 15 years since the Court's ruling?
    Answer. The Commission has never asserted that its former Sunshine 
Act rules were ``illegal.'' Rather, it said that they did not follow 
sufficiently closely the intent of Congress, as explicated by the 
Supreme Court in ITT World Communications v. FCC, 466 U.S. 463 (1984). 
As the American Bar Association pointed out in its report on the 
Sunshine Act, Congress can be presumed to have had a reason for 
amending the proposed Act to give federal agencies latitude to conduct 
many types of discussions outside the context of Sunshine Act 
``meetings.'' That reason was that Congress saw a positive value in 
such discussions and expected that federal agencies would hold them.
    In its letter to you of July 19, 1999, the Commission observed in a 
footnote that one decision of the United States Court of Appeals for 
the District of Columbia Circuit held that a federal agency acted 
beyond the scope of its authority when it promulgated a broader 
definition of ``meetings'' in its regulations than was contained in the 
Sunshine Act. WATCH v. FCC, 665 F.2d 1264 (D.C. Cir. 1981). One can 
only speculate as to whether a similar challenge to the NRC's original 
Sunshine Act regulations would have yielded a similar result.
    Question 6. (B) Is there anything in the Sunshine Act or in other 
laws that actually prevents Commission gatherings from being open to 
the public?
    Answer. There may be a number of areas where the Commission could 
be legally constrained from holding a discussion in public, e.g., 
national security information or information subject to the Privacy 
Act.
    Question 6. (C) Is the Commission legally allowed to keep 
transcripts or recordings of all gatherings of a majority of the 
Commission?
    Answer. We know of no barrier to the Commission's keeping 
transcripts or recordings of any discussions among any number of 
Commissioners.
    Question 7. The revised rule is intended to foster general 
discussions by the Commission that do not now take place by allowing 
them to be secret.
    (A) Why can't the Commission hold such discussions in public?
    Answer. There is no legal barrier per se to such discussions. That 
does not mean, however, that the statute lacks an inhibiting effect. 
The Commission can only repeat the words of a unanimous Supreme Court 
in the ITT case:
        Congress in drafting the Act's definition of ``meeting'' 
        recognized that the administrative process cannot be conducted 
        entirely in the public eye. ``[I]nformal background discussions 
        [that] clarify issues and expose varying views'' are a 
        necessary part of an agency's work. [Citation omitted.] The 
        Act's procedural requirements effectively would prevent such 
        discussions and thereby impair normal agency operations without 
        achieving significant public benefit. Section 552b(a)(2) 
        therefore limits the Act's application . . .
466 U.S. 463, 469-70.
    Question 7. (B) Is there anything in the old rules that would 
prevent this?
    Answer. Nothing in the NRC's former Sunshine Act rules would 
prevent it from holding any discussions it wished to in public, as long 
as the discussions do not involve information that the Commission is 
legally constrained from discussing in public.
    Question 8. (A) Under the revised rule, could the Commission meet 
to discuss how easing government regulations could assist the nuclear 
power industry, and do so without public notice or public participation 
and without any transcript, tape, or minutes of the meeting?
    Answer. The hypothetical topic proposed in the question likely 
would, under the Commission's revised rules, fall into the category of 
discussions ``sufficiently focused on discrete proposals as to cause or 
be likely to cause the individual participating members to form 
reasonably firm positions regarding matters pending or likely to arise 
before the agency,'' and thus fall into the category of topics that can 
be discussed only in ``meetings'' if three or more Commissioners are 
present.
    Question 8. (B) Could the rules be revised in six months so that no 
record would be kept that such a meeting took place?
    Answer. The question is moot; see (a).
    Question 8. (C) If discussion of specific proposals for changing 
NRC regulations took place at such a meeting, or if the Commission made 
secret decisions at such a meeting, how would the public find out?
    Answer. Again, the question is moot; see (a).
    Question 9. Do you think that secret Commission discussions will 
``enhance public confidence'' in the NRC's work? If so, how?
    Answer. In its July 1999 Federal Register notice, the Commission 
addressed this point. It acknowledged the possibility that the NRC's 
action would diminish public confidence in the Commission, but stated 
that it believed ``that the legal and policy reasons for its action--
compliance with the Supreme Court's guidance, and the expected benefits 
in collegiality and efficiency, make this a desirable course of action, 
even if--despite the Commission's best efforts to explain its 
reasoning--some persons misunderstand or disapprove of the Commission's 
action.'' The Commission added: ``It is also possible that the 
potential enhancement of collegiality and the potential improvement in 
Commission decision-making that may result from non-Sunshine Act 
discussions will ultimately increase the public's confidence in the 
Commission's actions.''
    Question 10. I understand that the NRC has recently conducted Fire 
Protection Functional Inspections at several plants. Could you please 
summarize results of these inspections and identify the frequency of 
significant weaknesses found?
    Answer. The NRC performed three full-scope fire protection 
functional inspections (FPFI); one at River Bend Station, one at 
Susquehanna, and one at St Lucie. In addition, one reduced-scope FPFI, 
using inspection techniques developed for the full-scope inspections, 
was conducted on a licensee's fire protection program self-assessment 
at Prairie Island. At each inspection the staff found deficiencies in 
the licensee's program implementation which could result in weakening 
fire protection defense in depth. However, the NRC also found that 
licensee self-assessments using the fire protection inspection and 
assessment guidance established by the FPFI program were capable of 
identifying programmatic strengths and weaknesses.
    Examples of the deficiencies found in the inspections include such 
things as control of transient combustibles, weak fire brigade 
performance, compliance with design codes and standards for fire 
protection systems, and weaknesses in post-fire safe shutdown analysis 
and implementation. In each case, compensatory measures such as interim 
post-fire safe shutdown contingency plans or fire watches were put in 
place to mitigate the possible reduction in defense in depth while 
corrective actions were being implemented. These fire protection 
compensatory measures are to be maintained in effect until the 
inspection findings are resolved and/or final corrective actions are 
taken by the licensee organization.
    After the pilot FPFIs, the NRC staff conducted a public workshop 
with the reactor licensees to discuss the results of the FPFIs and the 
lessons learned from the FPFI program. One of the results of the FPFI 
program was renewed industry attention to nuclear power plant fire 
safety. As examples, the Nuclear Energy Institute is developing 
performance indicators for reactor fire protection and new procedures 
that will help the licensees conduct self-assessments of their fire 
protection programs. In addition, some licensees, including those that 
were not subject to FPFIs, have made voluntary changes to their fire 
protection programs and have conducted self-assessments in response to 
the lessons learned from the FPFI program. As a result of the FPFI 
program, the NRC staff concluded that it should continue to monitor 
licensee performance in this area and included reactor fire protection 
in the new reactor oversight and inspection program. This new program 
includes new risk-informed fire protection inspection procedures and a 
newly-developed tool for assessing the risk and safety significance of 
fire protection deficiencies. The staff believes that the expected 
increase in licensee self-assessments, coupled with the more frequent 
and robust NRC fire protection inspections that it will conduct under 
the new reactor oversight and inspection program, will ensure an 
adequate level of fire protection at all nuclear power plants.
Additional/Background Information.
    Fire protection program implementation findings are documented in 
the following inspection reports:

<bullet> River Bend FPFI--NRC Inspection Report Number 50-458/97-201 
        dated March 20, 1998.
<bullet> Susquehanna FPFI--NRC Inspection Report Numbers 50-387/97-201 
        and 50-388/97- 201 dated May 13, 1998.
<bullet> St. Lucie FPFI--NRC Inspection Report Numbers 50-355/98-201 
        and 50-389/98-201 dated July 9,1998.
<bullet> Prairie Island FPFI--NRC Inspection Report Numbers 50-282/98-
        016 and 50-306/98-016 dated October 9, 1998.
    Question 11. I understand that plants have recently done 
assessments of the risk of fire-induced core damage.
    (A) What is the range of core damage frequency estimated at the 
different plants?
    Answer. The values reported by licensees for fire induced core 
damage frequency (CDF) range from 2x10<SUP>-7</SUP> to 
4x10<SUP>-4</SUP> per reactor year.
Background/Additional Information.
    Quad Cities initially reported a fire induced CDF of 
5x10<SUP>-3</SUP> per reactor year in their original submittal dated 
February 17, 1997. The reported value in its revised submittal dated 
May 27, 1999, is 6x10<SUP>-5</SUP> per reactor year. The revised 
submittal is currently under review by the staff.
    Question 11. I understand that plants have recently done 
assessments of the risk of fire-induced core damage.
    (B) Is most of the range due to plant differences or to differences 
in risk assessment methods and assumptions?
    Answer. The vintage and layout of a given plant contribute to the 
differences to a certain extent; however, some of the variability can 
be attributed to differences in methods and assumptions employed in the 
analysis. The staff is currently working on identifying, analyzing and 
reducing sources of variability in fire risk assessments.
Background/Additional Information.
    Although different methods and assumptions can result in 
significant variability in the fire induced core damage frequency (CDF) 
estimates, the relative ranking of fire scenarios and dominant fire 
areas at a plant are based on relative values of CDF and not the 
absolute values. The major objective of the Individual Plant 
Examination of External Events (IPEEE) program was not to develop 
accurate CDF estimates. Rather, the major objectives were for licensees 
to: (1) Develop an appreciation of severe accident behavior, (2) 
Understand the most likely severe accident sequences that could occur 
at the plant, (3) Gain a qualitative understanding of the overall 
likelihood of core damage, and (4) Reduce, if necessary, the overall 
likelihood of core damage by modifying, where appropriate, hardware and 
procedures that would help prevent or mitigate severe accidents.
    Question 12. Given the apparent lack of quality control, how can 
the NRC implement a risk-informed inspection program for fire 
protection next year when standards for fire risk assessments will not 
be available until some years later?
    Answer. Currently available risk information (generic and plant-
specific) and risk assessment techniques (e.g., those used by the 
licensees to perform the fire analyses of the individual plant 
examination of external events (IPEEE)) and risk assessments (e.g., the 
results of the plant-specific IPEEE fire analyses) are adequate to 
support risk-informed reactor fire protection inspections to a limited 
extent. In the future, as risk assessment methods improve and mature, 
and additional experience is gained with their application, additional 
risk insights will be incorporated into the NRC fire protection 
inspection program.
    The NRC's new reactor inspection and oversight program includes a 
baseline fire protection inspection program that is based on long 
standing fire protection and post-fire safe shutdown inspection 
techniques. These techniques include both deterministic and risk 
assessment techniques designed to ensure that licensees have adequately 
implemented their fire protection programs and that they provide a 
sufficient level of fire safety to maintain one train of safe shutdown 
capability free of fire damage.
    During the fire protection functional inspection program, the NRC 
used fire risk insights from the plant IPEEEs to focus the inspections 
on those plant areas that present the highest risk from a reactor 
safety perspective. This same basic approach has been incorporated into 
the new baseline fire protection inspection program.
    In addition, under the new reactor inspection and oversight 
program, the NRC has developed an inspection finding significance 
determination process. This process, which includes both deterministic 
and risk assessment elements, will be used by the NRC and the licensees 
to evaluate fire protection findings, assess their risk impact, and 
estimate any potential change in risk they may have on the core damage 
frequency. Through the implementation of this method, NRC focus can be 
applied to important fire protection findings and their resolution.
    Question 13. The NRC has strict rules regarding drug use and drug 
testing for personnel at nuclear power plants but only vague guidelines 
regarding overtime and consequent fatigue, which can cause similar 
symptoms. As a consequence, it is common for plant personnel to work 
several 70 hour weeks in succession.
    Why does it not make sense to have strict, enforceable rules on 
working hours, as there are for drugs (and as there are on working 
hours for airline pilots and truck drivers)?
    Answer. By letter dated May 18, 1999, the NRC responded to a 
previous inquiry by you and Congressmen Dingell and Klink on this 
matter. In that response we indicated that we would be reassessing the 
Commission's ``Policy on Factors Causing Fatigue of Operating Personnel 
at Nuclear Power Plants.'' The reassessment process is expected to 
provide a basis for making a determination concerning whether the 
policy should be reaffirmed, revised, or alternative regulatory 
approaches, such as rulemaking on working hours, should be pursued. The 
reassessment is scheduled to be completed by the end of FY 2000. (See 
also the response to Question 14.)
    Question 14. Given that the NRC is aware of more than one hundred 
cases of excess overtime without required approval (and has no records 
of overtime worked with approval), and given that it is difficult to 
determine the effect of fatigue on safety incidents, why does the NRC 
plan not to review licensee use of overtime?
    Answer. During the development of the NRC's revised reactor 
oversight process, the NRC made the decision not to include monitoring 
of overtime use. This decision was based on the lack of risk 
significant findings from past inspections and event investigations 
related to working hours and is consistent with the NRC's effort to 
focus inspections on risk-significant issues. However, as part of the 
revised reactor oversight process, if performance indicators and 
inspection findings indicate problems, licensees are expected to 
determine the root cause of those problems. If the root cause is in the 
area of human performance, fatigue is one of the many possible 
contributing factors. NRC inspections are conducted to assure that 
licensees are implementing effective corrective action. In addition, 
and as noted in response to Question 13, the NRC is initiating a 
reassessment of the policy to ensure that NRC regulatory actions are 
consistent with the risk-significance of this issue. The results of 
this reassessment will be considered in making any determination 
concerning the NRC's inspection program as it relates to use of 
overtime and potential personnel impairment from fatigue.
    Question 15. The Commission recently reversed a decision to provide 
funding for state stockpiles of potassium iodide (KI), which had been 
intended to help protect the public in the event of a nuclear accident. 
According to a June 15, 1999 letter from Chairman Jackson to the 
Federal Emergency Management Administration (FEMA), the reversal was in 
part based on a 1980 NRC policy.
    (A) Is there any legal barrier to the Commission funding purchases 
of KI for states that wish to establish stockpiles?
    Answer. There is no per se legal barrier to the Commission funding 
the purchase of KI for the states that wish to establish stockpiles. 
The Commission determined as a policy matter that the NRC will not fund 
the purchase of KI for the states. This decision is consistent with the 
Commission's longstanding policy that funding for state and local 
emergency response measures has been the responsibility of those 
governments working with the licensees. The Commission believes that 
the overall cost of KI is minimal when placed in the context of 
emergency planning.
    As a separate matter, the Commission determined as a policy matter 
that the federal government should fund regional stockpiles of KI. The 
Commission stated that well placed federal stockpiles, in addition to 
any state stockpiles, is a measure the federal government should 
consider. Not every state will elect to have a stockpile (see Answer 
16(A)). Because states are not required to stockpile, the NRC believes 
that regional stockpiles may be a prudent and reasonable approach to 
making KI available to emergency response officials in the very 
unlikely event of a severe reactor accident. These regional stockpiles 
could be used to supplement local stockpiles, or when a state without a 
stockpile decides to use KI on an ad hoc basis in a nuclear emergency. 
If Congressionally approved appropriations for NRC funding were 
sufficient, NRC could consider assisting in the funding of purchasing 
KI for regional stockpiles.
    Question 15 (B). If there are policy barriers, has the NRC 
reexamined those policies?
    Answer. The NRC and FEMA are currently reexamining earlier 
positions and policies regarding KI. The goal is to identify the 
options available to the two agencies to make KI available to the 
states.
    Question 16. The Commission, in its reversal, also referred to 
concerns about cost.
    (A) How much money would it cost to fund the purchase of KI for all 
states?
    Answer. In Commission paper SECY-98-264 dated November 10, 1998, 
the estimated cost of purchasing a supply of KI was between $117K, for 
two to three states, and $3.25M for all states with nuclear power 
plants. These estimates do not include refurnishing every seven years, 
as would be required due to its shelf life. The cost for funding the 
purchase of KI depends on the current market price of KI tablets and 
the number of states that would request state stockpiles. In November 
1998, the staff reported an increase in the price of KI tablets.
    The Commission considered the cost to fund all state stockpiles, 
which, as indicated above, would be about $3.25M in a given year, with 
replacements necessary every seven years, in the context of the overall 
budget. The NRC's budget, adjusted for inflation, is the lowest it has 
been in more than 20 years. The resources to fund state stockpiles are 
not budgeted and would have to be reprogrammed from existing agency 
programs. As you know, the House is recommending a $10M reduction in 
the appropriation for FY2000 recommended by the President. See H.R. 
2605, Title IV. For these reasons, the Commission's concerns about 
costs were considered in the context of how best to spend limited NRC 
funds to produce the most comprehensive and effective national KI 
program. (See Answer 15).
    Question 16. (B) How much money has the NRC spent studying the KI 
issue since 1989?
    Answer. The total amount of NRC spending on the KI issue exceeds 
$2.6M for last 10 years (1989--1999), based on a conservative 
estimation in two components:

(1) Approximately 20 FTEs ($2M) of NRC staff was expended during the 
        period of 10 years, with an additional $240K for Rulemaking and 
        support work from October 1998 to August 11, 1999.
(2) $300K was used for a contractor's fee for study and publication of 
        NUREG/CR-6310, on ``An Analysis of Potassium Iodide (KI) 
        Prophylaxis for the General Public in the Event of a Nuclear 
        Accident,'' which was issued in 1995. The additional NRC staff 
        support for the NUREG/CR-6310 was 1 FTE ($100K) for FY91-96.
    This question, in the context of the series of questions on this 
issue seems to suggest that the NRC could have better spent the 
resources it has used over the past 10 years researching and developing 
a KI policy on funding state KI stockpiles. Funding for researching and 
developing a KI policy is a separate matter from funding state 
stockpiles.
    Just as the NRC was required to do in the past, the NRC will need 
to dedicate future resources to developing and finalizing changes to 
NRC regulations and making final changes to a national policy on KI. 
Specifically, funds will need to be expended to complete the NRC 
rulemaking requiring licensees to consider using KI as part of their 
emergency planning, and to continue working with FEMA and other 
agencies represented on the Federal Radiological Preparedness 
Coordinating Committee (FRPCC), to re-evaluate the Federal policy on 
KI. These resource expenditures are over and above the additional cost 
of funding state stockpiles.
    Question 17. The Commission now supports regional KI stockpiles. 
However, the Director of the (FEMA) stated in a April 29, 1999 letter 
to the NRC that such stockpiles would ``complicate, not strengthen 
radiological emergency preparedness.'' The Commission, in its dispute 
with the EPA over radiation release standards, emphasized its superior 
expertise.
    (A) How many emergency preparedness experts does the NRC have on 
staff, and how many does FEMA have on staff?
    Answer. NRC has about 40 specialists for emergency preparedness and 
response in its headquarters and four regions including a Regional 
State Liaison Officer in each region who serves as the NRC 
representative on the FEMA Regional Assistance Committees that assist 
state and local government officials in emergency planning. In 
addition, NRC has a significant number of nuclear and radiological 
health scientists, reactor and radiological inspectors, and other 
technical specialists on its staff. FEMA has approximately 90 
specialists in its radiological emergency preparedness program in 
headquarters and 9 regions with nuclear power plants.
    NRC and FEMA have been working together since the TMI accident in 
emergency planning, exercises, and response and have developed 
complementary roles and responsibilities. The roles and 
responsibilities of the NRC and FEMA for radiological emergency 
preparedness are defined in NRC and FEMA regulations (10 CFR 50 and 44 
CFR 350, respectively) and in a Memorandum of Understanding between the 
two agencies. The NRC is responsible for making radiological health and 
safety decisions with regard to the overall status of emergency 
preparedness, and for reactor licensee oversight and response to 
radiological events onsite and within the physical and radiological 
boundaries of the reactor facility. FEMA provides support functions to 
NRC during emergency situations and is responsible for offsite 
coordination of emergency management with state and local governments 
in the jurisdictions surrounding the reactor facility. NRC has 
significant resources and expertise in both technical and radiological 
areas to deal with reactor operations and events. FEMA provides 
specialities dealing with emergency management and associated 
logistics, particularly, for coordination with state and local 
governments and general population.
    The Commission has directed the NRC staff to work with FEMA to 
establish and resolve an appropriate policy on KI use and stockpile 
issues.
    Question 17. (B) Why do you dispute FEMA's conclusions regarding KI 
stockpiles?
    Answer. The NRC and FEMA are in agreement on many aspects of the KI 
issue. On June 14, the Commission published a proposed rule requiring 
licensees to consider, as part of their emergency planning, the 
prophylactic use of KI as a supplement to evacuation and sheltering. 
See Proposed Rule, 64 Fed. Reg. 31,737. Both the NRC and FEMA agree 
that the states will make the final decision whether to include KI for 
the general public in their emergency preparedness (EP) programs. The 
Commission believes that the overall cost of KI is minimal when placed 
in the context of emergency planning.
    However, as we state in response to Question 15(A), because states 
are not required to stockpile, the NRC believes that regional 
stockpiles may be a prudent and reasonable approach to making KI 
available to emergency response officials in the very unlikely event of 
a severe reactor accident that includes a significant early radioiodine 
component. The NRC is confident, based on a long record of coordination 
and cooperation between the two agencies, that the NRC and FEMA staffs 
will successfully resolve the KI stockpile issue.
    Question 18. How much radioactive solid materials by volume and by 
radioactivity have been released or cleared from regulatory control 
either on a ``case-by-case'' basis or through other exemption 
processes?
    Answer. The NRC has approved specific releases of solid material on 
a case-by-case basis from NRC facilities. Over the past year, these 
releases include an estimated 5000 metric tons of calcium fluoride with 
a low enriched uranium activity of approximately 3 pCi/g and an 
estimated 175,280 pounds of calcium fluoride with a natural uranium 
activity of approximately 7 pCi/g. In both cases, there would be 
little, if any impact to workers or members of the public.
    To put these releases in perspective, the Environmental Protection 
Agency encourages the recycling of coal ash, with a natural uranium 
activity that may be an order of magnitude or more higher, in building 
materials. Naturally occurring radioactive

materials at these or higher levels can also be found in fertilizers 
and other consumer products.
    Question 19. How much NRC resources (budget and staff, including 
contracts) have been and are projected to be used to issue standards 
for clearance or release of radioactive material from regulatory 
control?
    Answer. Prior to FY 1999, NRC expended $2.6 million contract 
support to develop NUREG-1640, ``Radiological Assessments for Clearance 
of Equipment and Materials from Nuclear Facilities'' for use in 
developing regulations. This report contains the technical basis for 
calculating doses from release of solid materials.
    NRC has budgeted an additional $6.5 million (30 FTE and $3.5 
million contract support) over the next 3 + years to develop 
regulations, if necessary.
    Question 20. In an attachment to a May 3, 1999 letter to me, NRC 
staff noted that ``The NRC regulatory oversight and authority does not 
extend to the U.S. offsite electrical grid system,'' and that ``FERC 
and NERC have not identified to the NRC the need to keep particular 
nuclear power plants running during the Y2K transition.''
    (A) If the NRC's mandate is the public health and safety at nuclear 
power plants, and no specific need for power has been identified, why 
does the NRC propose to allow licensee to violate health-based 
regulations in order to increase stability of the grid?
    Answer. The NRC does not propose to allow licensees to violate 
health-based regulations. If there is a need for power, the NRC 
proposes to exercise discretion upon balancing the need for power with 
the public health and safety or common defense and security of not 
operating against potential radiological or other hazards associated 
with continued operation. The NRC will exercise discretion only when it 
is clearly satisfied that safety will not be unacceptably affected by 
exercising the discretion.
    The NRC enforcement policy allows the exercise of enforcement 
discretion in certain situations to allow continued plant operation 
when it does not present an undue risk to public health and safety and 
is in the public interest. This is consistent with NRC's mandate to 
assure public health and safety.
    The following is a summary of the interim enforcement policy 
published in the Federal Register of Friday, July 30, 1999 (64 Fed. 
Reg. 41474) that will govern the exercise of enforcement discretion by 
the NRC staff. The policy would be implemented when licensees of 
operating nuclear power plants find it necessary to deviate from 
license conditions, including technical specifications (TSs), in those 
cases in which Y2K-related complications would otherwise require a 
plant shutdown that could adversely affect the stability and 
reliability of the electrical power grid. This policy does not extend 
to situations in which a licensee may be unable to communicate with the 
NRC. The policy is effective August 30, 1999 and will remain in effect 
through January 1, 2001. This policy only applies during Y2K transition 
or rollover periods (December 31, 1999, through January 3, 2000; 
February 28, 2000, through March 1, 2000; and December 30, 2000, 
through January 1, 2001). During these periods, a licensee may contact 
the NRC Headquarters Operations Center and seek NRC enforcement 
discretion with regard to the potential noncompliance with license 
conditions, including TSs, if the licensee has determined that:

(a) Complying with license conditions, including TSs, in a Y2K-related 
        situation would require a plant shutdown;
(b) Continued plant operation is needed to help maintain a reliable and 
        stable grid; and
(c) Any decrease in safety as a result of continued plant operation is 
        small (considering both risk and deterministic aspects), and 
        reasonable assurance of public health and safety, the 
        environment, and security is maintained with the enforcement 
        discretion.
    Licensees are expected to follow the existing guidance as stated in 
NRC Inspection Manual Part 9900 for Notices of Enforcement Discretion 
to the maximum extent practicable, particularly regarding a safety 
determination and notification of NRC. A licensee seeking NRC 
enforcement discretion must provide a written justification, or in 
circumstances in which good cause is shown, an oral justification 
followed as soon as possible by written justification. The 
justification must document the need and safety basis for the request 
and provide whatever other information the NRC staff needs to make a 
decision regarding whether the exercise of discretion is appropriate. 
The NRC staff may exercise enforcement discretion on the basis of 
balancing the public health and safety or common defense and security 
of not operating against potential radiological or other hazards 
associated with continued operation, and a determination that safety 
will not be unacceptably affected by exercising the discretion. The 
Director of the Office of Nuclear Reactor Regulation, or designee, will 
advise the licensee whether the NRC has approved the licensee's request 
and, if so, will subsequently confirm the exercise of discretion in 
writing.
    Enforcement discretion will only be exercised if the NRC staff is 
clearly satisfied that the action is consistent with protecting public 
health and safety and is warranted in the circumstances presented by 
the licensee.
    Although the NRC's oversight of the electric grid system does not 
extend into the design and operation of the entire grid, it covers the 
design and operation of the grid at its interface with the nuclear 
power plant, since the offsite power system is the primary and 
preferred source of power for the functioning of structures, systems, 
and components important to safety.
    Although NERC has not identified the need to keep specific nuclear 
power plants running during Y2K transitions, the need to have many 
types of generating units and sufficient reserve capacity on line as a 
precaution against Y2K events has been identified. Should a Y2K problem 
lead to the common-cause system or device failure and consequent loss 
of a particular group of generation facilities, such as gas-fueled 
generation stations, then the remaining mix of generation units and 
reserves would need to make-up the loss. Nuclear units operating during 
the Y2K transitions have been factored into the overall strategy for 
preparing the electric power systems of North America for transition 
into the year 2000.
    Question 20. In an attachment to a May 3, 1999 letter to me, NRC 
staff noted that ``The NRC regulatory oversight and authority does not 
extend to the U.S. offsite electrical grid system,'' and that ``FERC 
and NERC have not identified to the NRC the need to keep particular 
nuclear power plants running during the Y2K transition.''
    (B) How will the NRC evaluate a licensee's oral justification that 
is delivered by phone?
    Answer. During the Y2K transition, in support of the regulatory 
response facet of the NRC Y2K Contingency Plan, the appropriate NRC 
staff will be available at the NRC Headquarters Operation Center, 
prepared to process enforcement discretion requests related to the Y2K 
problem. As stated in the summary of the interim enforcement policy 
above, an oral justification supporting the licensee request for an 
enforcement discretion must be followed by a written justification. 
Based on the staff's evaluation of licensee request and justification, 
the Director of Nuclear Reactor Regulation, or designee, will orally 
advise the licensee whether the NRC will exercise enforcement 
discretion, and, if so, will subsequently confirm with a written a 
notice of enforcement discretion. The NRC will also have inspectors at 
all nuclear power plant sites to provide on-site evaluation of the 
licensee's requests and justifications.
    Question 21. (A) How will cleanups differ, and at what types of 
sites, if the cleanup standards are those favored by the NRC vs. those 
proposed by the EPA?
    Answer. NRC published a final rule establishing radiological 
criteria for decommissioning in July 1997. This rule established 25 
millirem per year (mrem/yr) from all potential exposure pathways as the 
acceptable criterion for release of licensed sites for unrestricted 
use. This dose limit is coupled with the provision that the dose be As 
Low As is Reasonably Achievable (ALARA). EPA believes that this is not 
protective of the public health and the environment and stated that 15 
mrem/yr from all pathways, with separate limits established for 
groundwater, is acceptable. The EPA limits on groundwater would be the 
maximum contaminant levels (MCLs) specified in 40 CFR 141, National 
Primary Drinking Water Regulations. We note that EPA has not 
promulgated its 15 mrem/yr standard nor its position that drinking 
water MCLs should be applied to groundwater by rulemaking. It has done 
so by guidance documents not subject to an Administrative Procedure Act 
rulemaking process. A proposed rule was withdrawn by the EPA in 
December 1996 when it was heavily criticized in the interagency 
discussions conducted by the OMB's Office of Information and Regulatory 
Affairs.
    The NRC has taken the position (Chairman Jackson letter to Senator 
John H. Chafee, dated July 16, 1998) that a 25 mrem/yr all-pathways 
dose criterion provides a dependable, risk-based regulation that is 
consistent with the recommendations of national and international 
scientific organizations. The NRC has performed extensive cost-benefit 
analyses for the application of MCLs for radionuclides in groundwater 
at, or near, decommissioned sites in the voluminous generic 
environmental impact statement that accompanied the rule and has found 
that it is not appropriate. For example, strontium-90 remediation by 
the pump and treat method to achieve the current EPA MCL of 0.06 mrem/
yr would cost $23 billion/death averted according to the GEIS.
    EPA has neither established, nor proposed, a generally applicable 
environmental standard for the cleanup of radiologically contaminated 
sites. EPA has provided guidance that an all-pathways standard of 15 
mrem/yr, in conjunction with a separate groundwater standard based on 
the maximum contaminant levels (MCLs) established under the Safe 
Drinking Water Act, should be applied to such sites. Although 
concentration goals for cleanup are site, radionuclide, and scenario 
dependent, under NRC regulations. given the same exposure scenario and 
assumptions, the cleanup of building surfaces, soil and/or groundwater 
would likely be marginally less by an insignificant amount from the 
public health and safety perspective. In addition, in these cases, less 
low-level radioactive waste would be generated. In addition, it is 
likely that imposition with the MCLs would require more complex final 
surveys to demonstrate compliance for some sites and potentially great 
costs for no safety benefit. Indeed, the GEIS found potential net 
negative health effects for soil cleanup to EPA levels at reference 
facilities because the marginal safety benefits of removing slightly 
radioactive soil in large quantities are more than offset by the 
negative health effects of transporting the material.
    In some cases, compliance with the MCLs could require additional 
groundwater treatment that would not be required under the NRC 
regulation. Such treatment could significantly delay the completion of 
decommissioning. In other cases, use of MCLs may be less protective 
than NRC's all-pathways standard because: the MCLs are based on a 
modeling approach that has not been updated since 1963 to reflect the 
current technology on the uptake and potential doses resulting from 
ingestion of radionuclides through drinking water; MCL requirements do 
not cover all radionuclides; and the use of MCLs would not provide a 
consistent risk standard for different radionuclides because the dose 
<SUP>1</SUP> at the current MCLs <SUP>2</SUP> can range from 0.01 
millirem/year for the radionuclide promethium-147 to 30 millirem/year 
for thorium-232.
---------------------------------------------------------------------------
    \1\ Calculated using EPA-570/9-76-003, ``National Primary Drinking 
Water Regulations,'' Appendix B methodology.
    \2\ Calculated using EPA-520/1-88-020, ``Federal Guidance Report 
No. 11,'' Dose Conversion Factors for Ingestion.
---------------------------------------------------------------------------
    Affected facilities would include a cross-section of medical, 
academic, and industrial facilities; fuel cycle facilities; research 
reactors; and power reactors.
    Question 21. (B) At what fraction of NRC-licensed facilities would 
the cleanups be affected?
    Answer. based on a review of the types of licensees that would be 
required to submit a decommissioning plan to NRC for approval prior to 
license termination, approximately 40% of NRC-licensed facilities 
required to submit a decommissioning plan could be affected. It is 
estimated that the same percentage of Agreement State facilities would 
also be affected.
    Question 22. (A) Is the dispute between the EPA and the NRC solely 
that of a 15 mrem standard versus a 25 mrem standard?
    Answer. No, the disagreement between the EPA and the NRC is broader 
than that of a 15 mrem standard versus a 25 mrem standard. The agencies 
also disagree on the need to demonstrate compliance with standards for 
individual pathways (e.g., drinking water/groundwater) versus 
demonstration of compliance with an all-pathways standard.
    The NRC has taken the position (Chairman Jackson letter to Senator 
John H. Chafee, dated July 16, 1998) that 25 mrem/yr all-pathways dose 
criterion provides a dependable, risk-based regulation that is 
consistent with the recommendations of national and international 
scientific organizations. The EPA faults the NRC for not establishing a 
separate, specific requirement for the groundwater pathway that 
incorporates requirements to meet specified maximum contaminant levels 
(MCLs). The NRC has performed extensive cost-benefit analyses for the 
application of MCLs for radionuclides in groundwater at or near 
decommissioned sites in the voluminous GEIS that accompanied NRC's rule 
and has found that it is not appropriate. For example, Sr-90 
remediation by the pump and treat method to achieve the current EPA MCL 
of 0.06 mrem/yr would cost $23 billion/death averted according to the 
GEIS. The NRC also believes that in some instances the application of 
MCLs in groundwater may be less protective than NRC's all-pathways 
standard because: (1) the MCLs are based on a modeling approach that 
has not been updated in over 30 years, (2) MCL requirements do not 
cover all radionuclides, and (3) MCLs do not provide a consistent risk 
basis for license termination or waste disposal.
    The health effects of 15 mrem/yr versus 25 mrem/yr are often 
characterized by EPA as a 2x10<SUP>-4</SUP> (2E-4) difference in 
lifetime cancer mortality. This is based on a linear no threshold model 
for estimating the effects of radiation, which national and 
international advisory bodies recommend be used by regulators. However, 
these bodies also recognize that applying the model at low doses and 
low dose rates is a very large extrapolation from where health effects 
have actually been demonstrated, primarily in Hiroshima and Nagasaki 
survivors who received more than 20,000 mrem in a very short time 
period. That is why they recommend a 100 mrem/yr public dose limit and 
the use of constraints on the order of 25-30 mrem/yr within that limit 
for exposures to any individual source of radioactivity. The advisory 
bodies recognize the possibility that there is potentially no health 
benefit in reducing exposures at these very low levels, less than 10% 
of natural background radiation.
    Question 22. (B) What other aspects of the site release standards 
could be affected by the proposed amendment?
    Answer. The proposed amendment would allow licensees to demonstrate 
compliance with a single all-pathways individual dose limit versus 
demonstration of compliance with two standards, an all-pathways 
standard and an individual pathway standard (e.g., groundwater).
    Question 22. (C) Do the EPA and the NRC disagree on the degree of 
risk exposed individuals should undergo, on the risk posed by a given 
level of radiation, or both?
    Answer. The NRC and the EPA generally agree on the risk posed by a 
given level of radiation and on the maximum total dose to an individual 
from all sources (i.e., 100 mrem/yr), although the NRC believes that 
there is great uncertainty of the risk, if any, posed by low levels of 
radiation. However, the NRC and the EPA disagree on the degree of risk 
that is acceptable for exposed individuals from a single source. For 
example, the NRC has proposed an annual, all-pathway, individual dose 
limit of 25 mrem/yr (1.25 x 10<SUP>-5</SUP> annual risk of fatal 
cancer) in its proposed regulations for disposal of high-level waste at 
Yucca Mountain (10 CFR Part 63) and in its final regulation 
establishing radiological criteria for license termination (10 CFR Part 
20 Subpart E). The EPA has commented that NRC's regulation is not 
protective and recommends the individual dose limit be reduced to 15 
mrem/yr (7.5 x 10<SUP>-6</SUP> annual risk of fatal cancer). However, 
although the risk levels are different, because of the uncertainty in 
the linear no threshold hypothesis and the risk estimates themselves, 
the NRC believes that 25 mrem/yr is fully protective of public health 
and safety.
    The EPA and the NRC also disagree on the need for separate 
requirements (i.e., maximum contaminant levels or MCLs) to protect 
groundwater. NRC believes that an all-pathway dose limit protects 
individuals from all pathways including groundwater. Thus, NRC 
considers separate requirements for groundwater protection unnecessary. 
Additionally, protection of groundwater, at levels dictated by MCLs for 
any organ, can require a level of protection more than 100 times more 
restrictive than the all-pathway dose limit (e.g., the MCL for iodine-
129 dose to the thyroid contributes only 0.1 mrem/yr to the individual 
dose limit of 25 mrem/yr). NRC is not aware of any health and safety 
basis for limiting annual dose to fractions of a millirem.
    The NRC fully considered the 15 mrem/yr versus 25 mrem/yr all-
pathways standard in its rulemaking on the license termination rule. A 
majority of commenters suggested a 25 mrem/yr or higher standard. Other 
commenters supported essentially a zero standard--no radiation above 
background should remain. EPA was almost unique in supporting 15 mrem/
yr. As noted above, international and national standards bodies 
recommend 25-30 mrem/yr as a constraint for any given exposure within 
an overall 100 mrem/yr public dose standard. Also as noted above, the 
voluminous GEIS accompanying the NRC rule demonstrated very large costs 
for very little benefit in reducing the decommissioning unrestricted 
release standard from 25 mrem/yr to the APA's proposed 15 mrem/yr plus 
groundwater application of MCLs. Indeed, in many cases there was a net 
negative health effect as a result of the additional cleanup.
    Question 23. (A) Would releases from any sites under NRC's proposed 
standards likely exceed maximum contaminant levels permitted under the 
Safe Drinking Water Act?
    Answer. Because NRC's regulation is an all-pathways dose limit, and 
this regulation exceeds some of the MCLs, it is possible that releases 
from some sites under the NRC standard could exceed the maximum 
contaminant levels.
    Compliance with the maximum contaminant levels (MCLs) can be very 
restrictive because: (1) MCLs for certain radionuclides limit doses to 
levels significantly below NRC's proposed all-pathway dose limit (e.g., 
the MCL for iodine-129 is limited by the dose to the thyroid, which 
contributes only 0.1 mrem/yr to the all-pathways individual dose limit 
of 25 mrem/yr), and (2) EPA has applied groundwater protection 
requirements to small volumes of water (i.e., applied to any portion of 
a special source of ground water), rather than to water that is indeed 
likely to be consumed as drinking water.
    The NRC also believes that the application of radionuclides in 
groundwater may be less protective than the NRC's all-pathways 
regulation because: (1) the MCLs are based on a modeling approach that 
has not been updated in over 30 years, (2) MCL requirements do not 
cover all radionuclides, and (3) MCLs do not provide a consistent risk 
basis for license termination or waste disposal.
    For the proposed high-level waste repository at Yucca Mountain, 
application of MCLs to small volumes of water (e.g., 10 acre-ft or 
approximately 12 thousand cubic meters) could require the repository to 
be, in essence, a zero-release facility. It would be difficult for the 
Department of Energy to demonstrate zero releases over the proposed 
compliance period of 10,000 years at any site, except for a site in 
natural salt formations which generally have no potable groundwater 
associated with them. For example, the groundwater issue did not arise 
at the Waste Isolation Pilot Plant because of the absence of potable 
groundwater at that facility.
    Question 23. (B) How would this arise?
    Answer. For decommissioning sites, MCLs could be exceeded at sites 
where groundwater is the principal exposure pathway. In the high-level 
waste repository program, MCLs could be exceeded in several situations. 
First, MCLs could be exceeded if the compliance demonstration is 
required to assume a small volume of water is mixed with releases from 
a relatively small number of waste packages (e.g. approximately 10 
waste packages). Conversely, MCLs could be exceeded if releases from a 
larger number of containers (i.e., hundreds of waste packages or a few 
percent of the total number of waste packages in the repository) are 
mixed with larger volumes of water (e.g., 100,000 cubic meters of water 
or more). In each of these cases, the most restrictive MCL would be a 
projected dose of iodine-129 to the thyroid. That dose, in terms of 
total effective dose equivalent (TEDE), would be 0.1 mrem/yr, a small 
fraction of the dose limit of 25 mrem/yr TEDE in 10 CFR Part 63. NRC is 
not aware of any health and safety basis for limiting annual dose to 
fractions of a millirem.
    Question 24. (A) How could the dispute between the EPA and the NRC 
over radiation standards be resolved other than by amending Superfund?
    Answer. Other alternatives include: (1) amending the Atomic Energy 
Act of 1954 to remove joint jurisdiction by NRC and EPA; (2) 
establishment of a Congressionally-mandated cleanup standard; (3) 
establishment of a generally applicable environmental standard by the 
EPA within its regulations with which NRC would be required to comply; 
and (4) recognition by the EPA that the NRC's regulation is protective 
of the public health and safety and the environment.
    We believe that the EPA's commitment to its current regulatory 
approach differs so significantly from the NRC's support of fundamental 
radiation protection standards as described in national and 
international standards, that a Congressional resolution of these 
differences is desirable.
    Question 24. (B) Would the proposed amendments have broader 
implications for EPA's oversight of closed NRC-licensed facilities than 
just the radiation standards?
    Answer. No, the proposed amendments would not impact the EPA's 
oversight of non-radiological contaminants at NRC-licensed facilities. 
In fact, the NRC and the EPA have a generally successful working 
relationship at NRC-licensed facilities that are contaminated with 
mixed waste (i.e., waste that contains both hazardous waste subject to 
the Resource Conservation and Recovery Act and radioactive waste 
subject to the Atomic Energy Act) and in developing joint regulatory 
guidance for mixed waste. The proposed amendments will not impact this 
relationship.
    Question 25. Why should neighbors of nuclear power plants not 
receive the same level of protection that people who live near 
Superfund sites receive?
    Answer. We believe that an equivalent level of protection is 
achieved after considering the methods used in applying the dose 
standard. NRC's 25 mrem/yr dose limit also includes a provision that 
the dose must be as low as is reasonably achievable (ALARA). This ALARA 
provision will generally achieve doses less than 25 mrem/yr. Actual 
doses will also be less than the 25 mrem/yr limit because of the 
conservatism built into dose modelling and resultant projections. 
Because of the uncertainties involved in such projections, the models 
used by NRC use several layers of conservatism. The combined effect of 
NRC's ALARA requirement and the conservatism used in estimating dose 
for determining compliance, will generally result in actual doses 
significantly less than NRC's dose limit.
    The approach suggested by EPA results in the imposition of the 
CERCLA risk range (i.e., 10<SUP>-6</SUP> to 10<SUP>-4</SUP>) on 
radionuclides. The CERCLA guidance indicates that a risk level of 
10<SUP>-4</SUP> is a level of protection that is not to be exceeded and 
that NRC's 25 mrem/yr dose criterion is not protective because it would 
exceed that level.
    NRC has reached the following conclusions regarding this risk range 
and its application: (1) EPA's derivation of 10<SUP>-4</SUP> as a 
protective value appears to be a policy judgement, and is inconsistent 
with international findings, (2) EPA inaccurately states that NRC's 
rule is not protective, and (3) EPA inconsistently uses its protective 
value of 10<SUP>-4</SUP>. These conclusions are discussed in the 
enclosure.
    Enclosure: Discussion of NRC Concerns with EPA's CERCLA Guidance 
Contained in the December 12, 1997 letter from Chairman Jackson to 
Carol Browner on Establishment of Cleanup Levels for CERCLA Sites with 
Radioactive Contamination
         Discussion of NRC Concerns with EPA's CERCLA Guidance
1. EPA's derivation of 10<SUP>-4</SUP> as a protective value appears to 
        be a policy judgement, and is inconsistent with international 
        findings.
    The CERCLA guidance indicates that a risk level of 10<SUP>-4</SUP> 
is a level of protection that is not to be exceeded and that the 25 
mrem/yr dose criterion in NRC's final rule is not protective because it 
would exceed that level. A rationale for EPA's value of 10<SUP>-4</SUP> 
can be found in a Federal Register notice (FRN) for EPA's ``National 
Emission Standards for Hazardous Air Pollutants (NESHAPs)'' under the 
Clean Air Act (54 FR 38044, September 14, 1989). The FRN notes that in 
the Vinyl Chloride decision the EPA was directed to determine an 
acceptable risk level based on a judgement of what risks are 
``acceptable in the world in which we live''. In response to the Vinyl 
Chloride decision [Natural Resources Defense Council, Inc. v. EPA, 824 
F.2d at 1146 (D.C. Cir. 1987)], the FRN indicates that EPA compiled a 
review of societal risks to place risk estimates in perspective and to 
provide background and context for the EPA's judgement on acceptability 
of risks ``in the world in which we live''. The FRN states that 
individual risk of premature death in EPA's survey ranged from 
10<SUP>-1</SUP> to 10<SUP>-7</SUP>, and that the level of approximately 
10<SUP>-4</SUP> is within the range for individual risk in the survey 
and at a value that comports with many previous health risk decisions 
by EPA. The EPA risk value is applied in the CERCLA context [see 55 FR 
at 8715 (March 8, 1990)].
    The International Commission on Radiation Protection (ICRP) and the 
National Council on Radiation Protection and Measurements (NCRP) use an 
approach similar to EPA's in setting an acceptable risk level. ICRP and 
NCRP are organizations which are chartered, and internationally 
recognized, for the development of basic radiation protection 
standards. Their findings are contained in ICRP Publication 60 and in 
NCRP No. 116, respectively. Based on their review of health and 
societal issues, both documents (while acknowledging the difficulty of 
setting standards for an ``acceptable'' public dose limit) arrive at 
100 mrem/yr as a level that can be said to be acceptable. NCRP 116 
notes that this value includes a review of risks of mortality faced by 
the public. The ICRP and NCRP approaches further reduce their 100 mrem/
yr limit by the principle of ``optimization,'' which includes 
considerations of constraints and cost-effectiveness.
    Using the principles of setting of ``individual dose and risk 
limits'' and ``optimization of protection'' (noted above) and an 
additional margin to allow for the potential for exposure to more than 
one radiation source, the NRC issued a final rule on radiological 
criteria for license termination. The rule includes a dose criterion of 
25 mrem/yr and further reduction based on ALARA (62 FR 39058, July 21, 
1997).
    The EPA approach of setting an acceptable risk level in the context 
of reviewing risks acceptable in society is similar to that followed by 
ICRP and NCRP, but, clearly, is no more scientifically credible than 
the ICRP or NCRP reports. The FRN on NESHAPs acknowledges that because 
of the uncertainties over health effects, EPA's decision will depend to 
a great extent on policy judgement. Therefore, there is no reason to 
conclude that risk limits set through EPA's process are any more 
appropriate for protection than those set by ICRP and NCRP, nor is 
there a reason to conclude that NRC's rule is not protective.
2. EPA inaccurately states that NRC's rule is not protective
    The CERCLA guidance does not address several items which will 
further lower the estimated risk from the implementation of NRC's rule. 
These items are inherent either in the NRC rule or in the 
characteristics of radioactive materials and include the following:

a) the requirement in the NRC rule that doses be reduced below the 
        rule's dose criterion through the ALARA (``as low as reasonably 
        achievable''; defined in 10 CFR 20) process further lowers the 
        risk for the large majority of NRC sites;
b) radioactive decay of key contaminant nuclides which, for the large 
        number of NRC facilities with contaminant nuclides with half-
        lives equal to 30 years or less, will result in reduction of 
        the risk near or below that which EPA finds protective; and
c) the uncertainties associated with estimating risks from radiation at 
        such low dose levels. Although NRC indicated in the FRN for its 
        final rule (at 62 FR 39062) that it was not altering its policy 
        regarding use of the linear non-threshold model as part of the 
        rulemaking, the FRN also stated that there are uncertainties as 
        to whether adverse radiation effects occur at all at the low 
        levels of radiation being discussed. The actual risk from 25 
        mrem/yr is well within the boundaries of scientific uncertainty 
        regarding the magnitude of the actual health effects at these 
        low doses. Whether or not health effects result from a dose as 
        small as 100 mrem is uncertain, as evidenced by the following 
        statement of the Committee on the Biological Effects of 
        ionizing radiation (BEIR V) in its 1990 report:
      Studies of populations chronically exposed to low-level 
            radiation, such as those residing in regions of elevated 
            natural background radiation, have not shown consistent or 
            conclusive evidence of an associated increase in risk of 
            cancer.
    This same point was made in a recent safety evaluation report for 
        National Aeronautics and Space Administration (NASA) Cassini 
        mission (July 31, 1997), that EPA participated in, which 
        referenced a Health Physics Society position noting that, 
        ``below 10 rem the risk of health effects are either too small 
        to be observed or are non-existent.'' Further, the Cassini 
        report concluded that at the low individual dose rates expected 
        that there is a high probability that there will be no 
        resultant latent cancers.
3. EPA inconsistently uses its protective value of 10<SUP>-4</SUP>
    The CERCLA guidance states that the 25 mrem/yr dose criterion in 
NRC's rule results in an estimated lifetime risk of cancer incidence of 
5x10<SUP>-4</SUP> and that this is not protective compared to 
10<SUP>-4</SUP>. On the other hand, the CERCLA guidance states that a 
15 mrem/yr dose standard (estimated lifetime risk of cancer incidence 
of 3x10<SUP>-4</SUP>) is acceptable because ``3x10<SUP>-4</SUP> is 
essentially equivalent to the presumptively safe level of 
10<SUP>-4</SUP>'' (the CERCLA guidance cites to the Clean Air Act 
rulemaking (54 FR 51677) as the basis for this equivalence).
    The CERCLA guidance statements are inconsistent and raise two 
specific issues. First, it is not apparent why one value would be 
considered unacceptable while the other is acceptable even though both 
exceed the 10<SUP>-4</SUP> risk level. Second, EPA uses cancer 
incidence to assess acceptability of the radiation dose levels compared 
to the 10<SUP>-4</SUP> value, even though the FRN on NESHAPS (54 FR 
38044) indicates that the value of 10<SUP>-4</SUP> was based on a 
survey which resulted in a range of lifetime risk of premature 
mortality to be 10<SUP>-1</SUP> to 10<SUP>-7</SUP>. Thus, the point of 
comparison for assessing acceptability of the risk should be premature 
mortality. Further, it should be noted that the NCRP and ICRP use 
cancer mortality as the basis for their decisions. If the risk 
coefficient for mortality is used, the calculated estimate of lifetime 
risk from 25 mrem/yr is 3.8x10<SUP>-4</SUP> (based on a risk 
coefficient of 5x10<SUP>-4</SUP> versus 7x10<SUP>-4</SUP> for 
incidence), which approximates the 3x10<SUP>-4</SUP> value that EPA 
concluded as essentially equivalent to the protective value 
10<SUP>-4</SUP>.
    Question 26. In recommending elimination of the foreign ownership 
restrictions in the Atomic Energy Act, has the NRC obtained the 
concurrence of agencies responsible for defending the U.S. from 
national security threats, including the Department of Defense, the 
Joint Chiefs of Staff, the Director of Central Intelligence, and the 
Director of the Federal Bureau of Investigation? If not, why not? If 
so, please provide written copies of each agency's concurrence for the 
record.
    Answer. The Commission forwarded this legislative proposal, along 
with others that have now been incorporated into H.R. 2531, to the 
Office of Management and Budget (OMB), which normally circulates such 
proposals among Executive Branch Agencies for the purpose of obtaining 
their views. OMB has informed us that it provided the NRC draft 
submission to several agencies, including the Department of Energy, the 
Department of Defense, the Department of Justice, the Department of 
State and the National Security Council. According to OMB, none of 
these agencies objected to the proposal recommending elimination of the 
foreign ownership restriction.
    With respect to components of a Department, such as the Federal 
Bureau of Investigation (which is a component of the Department of 
Justice), we understand that OMB generally leaves it to the cognizant 
Department to determine which of its components should be consulted 
during the Departmental review of proposed legislation forwarded by 
OMB. In addition, we understand that OMB does not customarily circulate 
proposals to the Central Intelligence Agency.
    Any substantive or editorial comments received by OMB are provided 
to the agency proposing the legislation. OMB does not provide the 
proposing agency (in this case, NRC) with copies of written responses 
of approval or ``no comment'' that OMB has received.
    Question 27. If the foreign ownership restrictions of the Atomic 
Energy Act are repealed, on what basis would the NRC determine whether 
a particular foreign acquisition would be ``inimical to the common 
defense and security,'' the standard under which you testified that 
such acquisitions would be reviewed?
    Answer. If the proposed legislation were enacted, the Commission 
would consider a number of factors in making its common defense and 
security finding. Among the considerations would be the overall state 
of relations between the United States and the foreign nation; the 
nonproliferation credentials of the applicant's nation and whether that 
nation supports international terrorism. If the Commission has any 
common defense and security concerns, the Commission would presumably 
consult with the Executive Branch before making its statutory findings 
on the application.
    Question 28. If U.S. relations with the home country of a foreign 
owner of a U.S. nuclear plant deteriorated following the acquisition, 
so that such ownership now threatened the common defense and security, 
would the NRC be able to revoke a license or order a divestiture?
    Answer. The Atomic Energy Act and the Commission's regulations do 
not permit foreign entities to directly own nuclear power plant 
facilities. To the extent that a foreign interest owns or controls to 
some degree a licensee, a negation action plan would have been in place 
to insulate any matters that might affect common defense and security 
from the foreign interest, even if the foreign interest was associated 
with a friendly nation. Thus, if U.S. relations with the respective 
nation of the foreign interest deteriorated, the foreign ownership or 
control should not be able to have any impact on the common defense and 
security by reason of the negation action plan. In general, the NRC 
could revoke a license or take other regulatory action if at any time 
after the issuance of the license it determined that possession of the 
license would be inimical to the common defense and security.
    Question 29. If there was an accident at a nuclear plant and the 
U.S. subsidiary or affiliate of a foreign owner lacked substantial 
assets other than the plant itself, or failed to obtain sufficient 
insurance coverage, could we be sure that the victims would be able to 
obtain damages from the assets of a foreign parent?
    Answer. The Price-Anderson Act does not contemplate victims needing 
to seek damages from the assets of any licensee that has suffered a 
serious nuclear accident. The long-standing provisions and practices 
dealing with the damages that could be associated with an accident at a 
nuclear power plant are intended to assure that potential victims are 
adequately compensated irrespective of plant ownership.
    Under the Atomic Energy Act, all commercial nuclear power plants 
require a license to operate; under the Price-Anderson Act a condition 
of that license requires that the plant be covered by the maximum 
commercial insurance available. The NRC receives endorsements of the 
policies, and, therefore, has assurance that the maximum commercial 
insurance coverage is in effect.
    The Price-Anderson Act further provides that every operating 
nuclear power plant participate in a pool with retrospective premium 
obligations. That is, the requirement to pay damages is not initiated 
until there is an accident sufficiently large that it appears that the 
damages will exceed the amount of commercial insurance coverage. The 
industry pool covers all damages up to the limit of liability for the 
nuclear incident. The value of the industry pool is now of the order of 
$9 billion.
    Only if damages were to exceed the value of the industry pool would 
Congress be called upon to consider whether to compensate for 
additional damages and, if so, the amount and the means.
    Question 30. Is it fair to ask the U.S. taxpayer under Price-
Anderson insurance coverage to pick up the costs of a catastrophic 
nuclear accident caused by a foreign company operating on U.S. soil?
    Answer. Insurance coverage under the Price-Anderson Act is not 
funded by U.S. taxpayers.
    As explained in the response to Question 29, above, every operating 
nuclear power plant has obtained coverage to the maximum insurance 
coverage available. Additional coverage is provided under the Price-
Anderson scheme; that coverage does not rely upon U.S. taxpayer funding 
for the payment of damages in the event of an accident at a nuclear 
power plant. Only if the damages exceed combined funds of the required 
maximum insurance coverage available and of the required nuclear power 
reactors' own required pool would Congress be called upon to consider 
how best to deal with that situation. Furthermore, It is notable that 
none of the funds available under the Price-Anderson scheme may cover 
damage to the nuclear power plant itself. The funds are entirely 
reserved for third party liability, that is, for those other than the 
licensees and their workers. (Workers receive compensation pursuant to 
Workmen's Compensation laws.)
    Question 31. (A) What do you anticipate the length of a combined 
construction and operating license would be (from the date the license 
was issued) under the NRC proposal?
    Answer. The length of a combined license would be 40 years, in 
accordance with Section 103.c of the Atomic Energy Act of 1954 (1954 
Act).
    The NRC has requested a legislative clarification to the 1954 Act 
to eliminate the uncertainty associated with the duration of operation 
under a combined license. The NRC's proposal is that the start of the 
40-year period begins after completion of construction, when the 
Commission makes the finding required by 10 CFR 52.103(g). Since, under 
the older two-step licensing process, the operating license for a 
facility became effective immediately upon issuance of such a license, 
the duration of operation of the facility could be a full 40 years. 
There is no reason why the potential duration of operations under a 
combined license should be less.
    Question 31. (B) Would there be any upper bound on the total length 
of the license?
    Answer. A combined license issued under 10 CFR Part 52 would be 
limited to 40 years, in accordance with Section 103.c of the Atomic 
Energy Act of 1954. The licensee could request a renewed operating 
license (not to exceed 20 years) under 10 CFR Part 54.
    Question 32. I understand the proposal to eliminate NRC antitrust 
review is included in the President's electricity restructuring 
proposal. Wouldn't a comprehensive electricity restructuring bill that 
addressed broader market power concerns be a more appropriate forum in 
which to consider this review?
    Answer. NRC's antitrust proposal is contained in both the 
Administration's electricity restructuring bill (H.R. 1828) and NRC's 
Authorization Bill for Fiscal Year 2000 (H.R. 2531). Enactment of the 
antitrust review elimination proposal through either of these bills 
would be welcomed by the Commission.
    NRC's antitrust reviews are duplicative of other Federal agencies' 
efforts, and continuing this agency's efforts in this area is wasteful 
of its resources and contrary to the objective of streamlining 
government. Thus, even absent an electricity restructuring proposal, it 
would make sense for the NRC to go forward with a proposal to eliminate 
NRC antitrust reviews. For this reason, an NRC authorization bill is 
also an appropriate forum in which to consider a proposal to eliminate 
NRC antitrust reviews.
    Question 33. (A) Do you think that removing a requirement that 
hearings on uranium enrichment facilities be ``on the record'' will 
enhance public confidence in the NRC? If so, how?
    Answer. Removing the requirement that hearings on licensing of 
uranium enrichment facilities be ``on the record'' will provide the 
Commission with the same flexibility to determine the hearing 
procedures appropriate for such a hearing as the Commission already has 
with respect to other adjudicatory hearings regarding NRC licensing 
held under section 189 of the Atomic Energy Act. The Commission has the 
discretion to determine the degree of formality required in the latter 
proceedings, and is of the view that having such discretion is 
beneficial to the public.
    Hearings that are required to be ``on the record'' must conform to 
the more elaborate formalities prescribed by the Administrative 
Procedure Act, and if not appropriately disciplined, can be 
inefficient, protracted, and costly to both the government and the 
parties to the proceedings. The high cost, length, and formality of 
even well-disciplined proceedings can discourage public participation. 
We know of no other technical agency in the Federal government makes 
scientific and technical decisions in trial-type hearings. In fact, 
EPA, in its comments on our proposed standards for the nation high-
level waste repository, recommended against formal proceedings, as did 
the DOE advisory committee that recommended in 1996 that DOE's self-
regulation of its own nuclear facilities be replaced by external 
regulation. In fact, more and more Government agencies have been 
exercising greater flexibility in determining the appropriate hearing 
process in their adjudicatory proceedings on non-technical issues, in 
recognition of the fact that more streamlined and less formal 
proceedings can benefit the parties and the public, and help to 
conserve the resources of the agency holding the proceedings and the 
parties to the proceedings. Striving for these goals should enhance 
public confidence in the NRC.
    Question 33. (B) After this restriction was removed, what 
legislative direction would remain on the form of hearings and on the 
recording of outside views on the licensing?
    Answer. If the restriction were removed, the following legislative 
directions would remain in the Atomic Energy Act with regard to 
hearings and the recording of outside views on the licensing of a 
uranium enrichment facility:

--section 193 (b)(1) requires the Commission to conduct a single 
        adjudicatory hearing with regard to the licensing of the 
        construction and operation of a uranium enrichment facility 
        under section 53 and 63 of the Act;
--section 193(b)(2) requires the hearing to be completed and a decision 
        issued before the issuance of a license for that purpose;
--under section 189 a., in any proceeding under the Act for the 
        granting of a license, the Commission must grant a hearing upon 
        the request of any person whose interest may be affected by the 
        proceeding, and must admit any such person as a party to the 
        proceeding.
--under section 189 b., the final decision in a hearing on the 
        licensing of a uranium enrichment facility is subject to 
        judicial review.
    Question 34. (A) Would receiving gifts from NRC licensees or their 
contractors or from associations that represent NRC licensees 
compromise the integrity of the NRC?
    Answer. No. To address the issue raised by this question, the NRC's 
legislative proposal regarding gift acceptance (which has been 
incorporated into H.R. 2531) provides that the Commission must 
establish written criteria for determining whether to accept gifts, and 
that such criteria must take into consideration whether the acceptance 
of a proffered gift would compromise the integrity of, or the 
appearance of the integrity of, the Nuclear Regulatory Commission or 
any officer or employee of the Commission. The purpose of this 
provision is to require the NRC to develop gift acceptance standards 
that will ensure that there will be no compromise--and no appearance of 
compromise--of the integrity of the Commission or its employees.
    It is noteworthy that a broad spectrum of Federal agencies, 
including independent regulatory agencies such as the NRC, have 
statutory gift acceptance authority. The Commission anticipates that 
this gift acceptance authority primarily would be used to accept 
technical publications and training equipment and materials.
    Question 34. (B) If the NRC accepts gifts with restrictions, would 
those with money to give to the NRC be able to influence NRC 
priorities?
    Answer. No. The Commission's policy is to maintain an arms-length 
relationship with its licensees, contractors, and others who might be 
motivated to seek influence over NRC priorities. This would be 
reflected in the gift acceptance criteria that the Commission would 
develop to implement the legislation.
                                 ______
                                 
  [GRAPHIC] [TIFF OMITTED] 60113.001
  
  [GRAPHIC] [TIFF OMITTED] 60113.002
  
  [GRAPHIC] [TIFF OMITTED] 60113.003
  
  [GRAPHIC] [TIFF OMITTED] 60113.004
  
  [GRAPHIC] [TIFF OMITTED] 60113.005
  
  [GRAPHIC] [TIFF OMITTED] 60113.006
  
  [GRAPHIC] [TIFF OMITTED] 60113.007
  
  [GRAPHIC] [TIFF OMITTED] 60113.008
  
  [GRAPHIC] [TIFF OMITTED] 60113.009
  
  [GRAPHIC] [TIFF OMITTED] 60113.010
  
  [GRAPHIC] [TIFF OMITTED] 60113.011
  
  [GRAPHIC] [TIFF OMITTED] 60113.012
  
  [GRAPHIC] [TIFF OMITTED] 60113.013
  
  [GRAPHIC] [TIFF OMITTED] 60113.014
  
  [GRAPHIC] [TIFF OMITTED] 60113.015
  
  [GRAPHIC] [TIFF OMITTED] 60113.016
  
  [GRAPHIC] [TIFF OMITTED] 60113.017
  
  [GRAPHIC] [TIFF OMITTED] 60113.018
  
  [GRAPHIC] [TIFF OMITTED] 60113.019
  
  [GRAPHIC] [TIFF OMITTED] 60113.020
  
  [GRAPHIC] [TIFF OMITTED] 60113.021
  
  [GRAPHIC] [TIFF OMITTED] 60113.022
  
  [GRAPHIC] [TIFF OMITTED] 60113.023
  
  [GRAPHIC] [TIFF OMITTED] 60113.024
  
  [GRAPHIC] [TIFF OMITTED] 60113.025
  
  [GRAPHIC] [TIFF OMITTED] 60113.026
  
  [GRAPHIC] [TIFF OMITTED] 60113.027
  
  [GRAPHIC] [TIFF OMITTED] 60113.028
  
  [GRAPHIC] [TIFF OMITTED] 60113.029
  
  [GRAPHIC] [TIFF OMITTED] 60113.030
  
  [GRAPHIC] [TIFF OMITTED] 60113.031
  
  [GRAPHIC] [TIFF OMITTED] 60113.032
  
  [GRAPHIC] [TIFF OMITTED] 60113.033
  
  [GRAPHIC] [TIFF OMITTED] 60113.034
  
  [GRAPHIC] [TIFF OMITTED] 60113.035
  
  [GRAPHIC] [TIFF OMITTED] 60113.036
  
  [GRAPHIC] [TIFF OMITTED] 60113.037
  

</pre></body></html>
